<html>
<title> - ASSESSING THE TRANSPORTATION NEEDS OF TRIBES, FEDERAL LAND MANAGEMENT AGENCIES, AND U.S. TERRITORIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 ASSESSING THE TRANSPORTATION NEEDS OF TRIBES, FEDERAL LAND MANAGEMENT 
                     AGENCIES, AND U.S. TERRITORIES

=======================================================================

                                (116-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2020

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 42-575 PDF           WASHINGTON : 2020      
 
 
 
                             
                             

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              DANIEL LIPINSKI, Illinois
MARK MEADOWS, North Carolina         STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
ROB WOODALL, Georgia                 HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN KATKO, New York                 Georgia
BRIAN BABIN, Texas                   ANDRE CARSON, Indiana
GARRET GRAVES, Louisiana             DINA TITUS, Nevada
DAVID ROUZER, North Carolina         SEAN PATRICK MALONEY, New York
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
MIKE GALLAGHER, Wisconsin            STEPHEN F. LYNCH, Massachusetts
GARY J. PALMER, Alabama              SALUD O. CARBAJAL, California, 
BRIAN K. FITZPATRICK, Pennsylvania   Vice Chair
JENNIFFER GONZALEZ-COLON,            ANTHONY G. BROWN, Maryland
  Puerto Rico                        ADRIANO ESPAILLAT, New York
TROY BALDERSON, Ohio                 TOM MALINOWSKI, New Jersey
ROSS SPANO, Florida                  GREG STANTON, Arizona
PETE STAUBER, Minnesota              DEBBIE MUCARSEL-POWELL, Florida
CAROL D. MILLER, West Virginia       LIZZIE FLETCHER, Texas
GREG PENCE, Indiana                  COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California
                                     CONOR LAMB, Pennsylvania

                  Subcommittee on Highways and Transit

ELEANOR HOLMES NORTON, District of 
          Columbia, Chair
RODNEY DAVIS, Illinois               EDDIE BERNICE JOHNSON, Texas
DON YOUNG, Alaska                    STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
BOB GIBBS, Ohio                      HENRY C. ``HANK'' JOHNSON, Jr., 
DANIEL WEBSTER, Florida              Georgia
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
ROB WOODALL, Georgia                 FREDERICA S. WILSON, Florida
JOHN KATKO, New York                 ALAN S. LOWENTHAL, California
BRIAN BABIN, Texas                   MARK DeSAULNIER, California
DAVID ROUZER, North Carolina         SALUD O. CARBAJAL, California
MIKE BOST, Illinois                  ANTHONY G. BROWN, Maryland
DOUG LaMALFA, California             ADRIANO ESPAILLAT, New York
BRUCE WESTERMAN, Arkansas            TOM MALINOWSKI, New Jersey
LLOYD SMUCKER, Pennsylvania          GREG STANTON, Arizona
PAUL MITCHELL, Michigan              COLIN Z. ALLRED, Texas
MIKE GALLAGHER, Wisconsin            SHARICE DAVIDS, Kansas
GARY J. PALMER, Alabama              ABBY FINKENAUER, Iowa, Vice Chair
BRIAN K. FITZPATRICK, Pennsylvania   JESUS G. ``CHUY'' GARCIA, Illinois
TROY BALDERSON, Ohio                 ANTONIO DELGADO, New York
ROSS SPANO, Florida                  CHRIS PAPPAS, New Hampshire
PETE STAUBER, Minnesota              ANGIE CRAIG, Minnesota
CAROL D. MILLER, West Virginia       HARLEY ROUDA, California
GREG PENCE, Indiana                  GRACE F. NAPOLITANO, California
SAM GRAVES, Missouri (Ex Officio)    ALBIO SIRES, New Jersey
                                     SEAN PATRICK MALONEY, New York
                                     DONALD M. PAYNE, Jr., New Jersey
                                     DANIEL LIPINSKI, Illinois
                                     DINA TITUS, Nevada
                                     STACEY E. PLASKETT, Virgin Islands
                                     PETER A. DeFAZIO, Oregon (Ex 
                                     Officio)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chairwoman, Subcommittee on Highways 
  and Transit:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, and Ranking Member, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     2
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Don Young, a Representative in Congress from the State of 
  Alaska:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Stacey E. Plaskett, a Delegate in Congress from the Virgin 
  Islands, opening statement.....................................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    83

                               WITNESSES

Hon. Nelson Petty Jr., P.E., Commissioner, Virgin Islands 
  Department of Public Works:

    Oral statement...............................................     8
    Prepared statement...........................................    10
Christopher B. French, Deputy Chief, National Forest System, U.S. 
  Forest Service, U.S. Department of Agriculture:

    Oral statement...............................................    12
    Prepared statement...........................................    14
Aron Reif, P.E., Transportation Program Manager, Office of 
  Acquisition and Property Management, U.S. Department of the 
  Interior:

    Oral statement...............................................    16
    Prepared statement...........................................    18
Hon. Joe A. Garcia, Head Councilman, Ohkay Owingeh Pueblo:

    Oral statement...............................................    22
    Prepared statement...........................................    24
Mary Beth Clark, President, Intertribal Transportation 
  Association:

    Oral statement...............................................    30
    Prepared statement...........................................    32
Sergio ``Satch'' Pecori, Chief Executive Officer, Hanson 
  Professional Services:

    Oral statement...............................................    37
    Prepared statement...........................................    39

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Greg Stanton:

    Letter of January 31, 2020, from Shan Lewis, President, Inter 
      Tribal Association of Arizona..............................    65
    Letter of February 3, 2020, from Jonathan Nez, President and 
      Myron Lizer, Vice President, Navajo Nation.................    66
    Letter of February 3, 2020, from Martin Harvier, President, 
      Salt River Pima-Maricopa Indian Community..................    67
    Statement of Hon. Stephen Roe Lewis, Governor, Gila River 
      Indian Community...........................................    69
Two Reports by the U.S. Government Accountability Office, 
  Submitted for the Record by Hon. Jesus G. ``Chuy'' Garcia......    75
Submissions for the Record by Hon. Eleanor Holmes Norton:

    Letter of February 6, 2020, from the National Parks Second 
      Century Action Coalition...................................    83
    Statement of Harold C. Frazier, Chairman, Cheyenne River 
      Sioux Tribe................................................    85
    Statement of the Federal Forest Resource Coalition...........    90
    Letter of February 7, 2019, from Emily Douce, Director, 
      Operations and Park Funding, National Parks Conservation 
      Association................................................    94
    Statement of Julian Bear Runner, President, Oglala Sioux 
      Tribe......................................................    99
    Statement of The Pew Charitable Trusts.......................   103
    Letter of February 24, 2020, from Joe Mello, President, 
      Professional Engineers in California Government............   111

                                APPENDIX

Questions from Hon. Peter A. DeFazio to Hon. Nelson Petty Jr., 
  P.E., Commissioner, Virgin Islands Department of Public Works..   113
Questions from Hon. Peter A. DeFazio to Christopher B. French, 
  Deputy Chief, National Forest System, U.S. Forest Service, U.S. 
  Department of Agriculture......................................   114
Questions to Aron Reif, P.E., Transportation Program Manager, 
  Office of Acquisition and Property Management, U.S. Department 
  of the Interior, from:

    Hon. Eleanor Holmes Norton...................................   114
    Hon. Jared Huffman...........................................   115
Questions to Hon. Joe A. Garcia, Head Councilman, Ohkay Owingeh 
  Pueblo, from:

    Hon. Peter A. DeFazio........................................   116
    Hon. Greg Stanton............................................   119
Questions to Mary Beth Clark, President, Intertribal 
  Transportation Association, from:

    Hon. Peter A. DeFazio........................................   120
    Hon. Gary J. Palmer..........................................   121

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            February 6, 2020

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Subcommittee on Highways and Transit
    FROM:  LStaff, Subcommittee on Highways and Transit
    RE:      LHearing on ``Assessing the Transportation Needs 
of Tribes, Federal Land Management Agencies, and U.S. 
Territories''
_______________________________________________________________________


                                PURPOSE

    The Subcommittee on Highways and Transit will meet on 
Thursday, February 6, 2020, at 10:00 a.m. in 2167 Rayburn House 
Office Building to receive testimony related to ``Assessing the 
Transportation Needs of Tribes, Federal Land Management 
Agencies, and U.S. Territories.'' The purpose of this hearing 
is to examine the current state of transportation 
infrastructure on tribal, Federal, and U.S. territorial lands 
and related policy issues for consideration in surface 
transportation reauthorization. The Subcommittee will hear from 
representatives of the Virgin Islands, the U.S. Department of 
Agriculture, the U.S. Department of the Interior, the Ohkay 
Owingeh Pueblo, the Intertribal Transportation Association, and 
Hanson Professional Services.

                               BACKGROUND

    Congress authorizes funding for highway, highway safety, 
transit, and other transportation infrastructure through 
distinct Federal-aid highway programs to American Indian tribes 
and Alaska Native villages (tribes), Federal Land Management 
Agencies (FLMA), U.S. Territories (territories), and Puerto 
Rico. These programs were last reauthorized by Congress in 2015 
as part of H.R. 22, Fixing America's Surface Transportation Act 
(FAST Act; P.L. 114-94), and are set to expire on September 30, 
2020.

TRIBAL TRANSPORTATION

    According to the most recent census data, there are roughly 
5.2 million people in the United States who identify as 
American Indian and Alaska Native.\1\ Today, there are 573 
Federally-recognized tribes across the U.S.\2\ Combined, they 
control roughly 100 million acres of land, making Indian 
Country equivalent to being the fourth-largest state in the 
U.S.\3\ Approximately 20 percent of the American Indian and 
Native Alaskan population lives inside American Indian 
areas.\4\ There are roughly 157,000 miles of roads on or 
providing access to Indian lands \5\ which are managed by 
tribal, Federal, State, and local governments.
---------------------------------------------------------------------------
    \1\ https://www.census.gov/history/pdf/c2010br-10.pdf
    \2\ https://www.bia.gov/frequently-asked-questions
    \3\ http://www.ncai.org/tribalnations/introduction/
Tribal_Nations_and_the_United_States_
An_Introduction-web-.pdf
    \4\ https://www.census.gov/history/pdf/c2010br-10.pdf
    \5\ https://www.bia.gov/bia/ois/division-transportation/operations
---------------------------------------------------------------------------
    Tribal roads often serve as major corridors for emergency, 
medical, educational, commercial, and recreational uses for 
tribal members as well as the general public. Transportation 
needs vary widely between tribes due to significant differences 
in geography, land size, and population. For instance, the 
Navajo Nation encompasses 16 million acres across Arizona, New 
Mexico, and Utah and has a population of over 330,000,\6\ while 
many smaller reservations cover less than 1,000 acres.\7\ 
According to the Bureau of Indian Affairs (BIA), in 2014 only 
17 percent of BIA-system roads were deemed in ``acceptable'' 
condition,\8\ and 70 percent of Indian roads remained 
unpaved.\9\ Unlike Federal-aid highways, tribes are not 
required to report data directly to the U.S. Department of 
Transportation (DOT) on the condition and performance of tribal 
roads, making it difficult to assess the overall condition of 
tribal roads nationally.
---------------------------------------------------------------------------
    \6\ https://www.discovernavajo.com/fact-sheet.aspx
    \7\ https://www.bia.gov/frequently-asked-questions
    \8\ https://www.bia.gov/bia/ois/division-transportation/operations
    \9\ https://www.crs.gov/Reports/
R44359?source=search&guid=efd581175470411
cbb22a8d232b1c96c&index=0#fn13
---------------------------------------------------------------------------

TRIBAL TRANSPORTATION PROGRAM

    The primary source of Federal funding for tribal 
transportation comes from the Tribal Transportation Program 
(TTP), which was created by Congress in 2012 under MAP-21 (P.L. 
112-141), to replace the Indian Reservation Roads program, 
which was first authorized in 1928. The TTP, which is 
authorized under section 202 of title 23, United States Code, 
is jointly administered by the Federal Highway Administration 
(FHWA) and the BIA and provides funding to Federally-recognized 
tribes for core transportation activities such as planning, 
design, construction, and road and bridge maintenance. Funding 
for the program comes from the Highway Trust Fund (HTF) and is 
distributed to tribes through a statutory formula based on 
population, road mileage, and average tribal shares under 
previous years. The TTP includes set-asides for various 
purposes, including five percent for program administration, 
three percent for improving deficient bridges, and two percent 
for safety projects. Congress reauthorized the TTP in the FAST 
Act at $465 million in FY 2016 and gradually increased it to 
$505 million in FY 2020.

DISCRETIONARY GRANTS

    MAP-21 authorized a Tribal High Priority Projects Program 
(THPP) at $30 million per year out of the general fund, subject 
to appropriations. The THPP authorized funding to tribes whose 
annual allocation of TTP funding was insufficient to complete 
the highest priority project of the tribe, or to any tribe that 
had an emergency or disaster occur at a tribal transportation 
facility which rendered it unusable. The THPP only received 
funding appropriations in FY 2012.
    The FAST Act did not reauthorize the THPP and instead 
created a new discretionary grant program, the Nationally 
Significant Federal Lands and Tribal Projects (NSFLTP) Program, 
for which both tribal and FLMAs could compete. Under this 
program, authorized at $100 million per year out of the general 
fund, grants are available for the construction, 
reconstruction, and rehabilitation of nationally-significant 
projects within, adjacent to, or accessing Federal and tribal 
lands. This program received appropriations of $300 million in 
FY 2018, $25 million in FY 2019, and $70 million in FY 2020.
    Under the NSFLTP Program, the minimum estimated project 
cost is $25 million with priority given to projects costing 
over $50 million. Additionally, projects with a larger 
percentage of matching funds rank higher than those with less, 
as set forth in the program criteria under Section 1123 of the 
FAST Act. Tribes have indicated that, in many instances, this 
minimum cost threshold excludes many worthy projects, and they 
struggle to provide a high level of matching funds in order to 
be competitive.\10\
---------------------------------------------------------------------------
    \10\ https://www.indian.senate.gov/sites/default/files/
Testimony%20of%20Head%20Councilman
%20Joe%20Garcia.pdf
---------------------------------------------------------------------------

OTHER PROGRAMS

    Other sources of funding include the BIA Road Maintenance 
Program and grant programs which are open to multiple entities, 
such as BUILD. The BIA Road Maintenance Program funds, 
administered through the U.S. Department of the Interior (DOI), 
are intended to be used for maintaining existing roads and 
bridges. Annual funding for the program has ranged from $24 
million to $28 million over the past ten years.

TRIBAL TRANSPORTATION SELF-GOVERNANCE PROGRAM

    In 2015 under the FAST Act, Congress directed the U.S. DOT 
to establish a tribal transportation self-governance program 
under which tribes can directly receive and administer Federal 
transportation funding provided through U.S. DOT. The Indian 
Self-Determination and Educational Assistance Act of 1975 (P.L. 
93-638) gave tribes the power to contract with the Federal 
government to receive Federal funds from agencies as a block 
grant in order to give tribes greater control and decision-
making authority while reducing administrative burdens. Other 
Federal agencies have instituted successful tribal self-
governance programs, including the U.S. DOI and the U.S. 
Department of Health and Human Services. Congress instructed 
U.S. DOT to develop the self-governance program in coordination 
with tribes through a negotiated rulemaking committee. U.S. DOT 
published a notice of proposed rulemaking on October 2, 
2019.\11\ The deadline for issuance of a final rule is set 
forth in statute, under 23 U.S.C. 207(n), and allows for U.S. 
DOT to extend the deadline, which U.S. DOT has utilized. The 
final rule is now is expected to be published by May 2020.
---------------------------------------------------------------------------
    \11\ 84 Fed. Reg. 52706 (October 2, 2019).
---------------------------------------------------------------------------

TRANSPORTATION ON FEDERAL LANDS

    Under the Surface Transportation Assistance Act of 1982 
(STAA; P.L. 97-424), all Federally-owned roads were formally 
recognized as ``public roads'' and have since received an 
allocation of funding from the HTF to address surface 
transportation infrastructure needs. Federal-aid highway funds 
are used for projects that improve access to and transportation 
within Federal lands, including national forests, national 
parks, national wildlife refuges, and national recreation 
areas.

FEDERAL LANDS TRANSPORTATION PROGRAM

    In MAP-21, Congress consolidated multiple programs that 
funded transportation needs on Federal lands, such as the 
Public Lands Highway Program, which included the Forest Highway 
and Public Lands Discretionary Programs, into a new Federal 
Lands Transportation Program (FLTP), authorized under section 
203 of title 23, United States Code. This program provides 
funding for the construction, maintenance, and repair of 
transportation facilities (highways, roads, bridges, trails, or 
transit systems) that are owned and operated by various FLMAs 
including:
    <bullet> LNational Park Service (NPS);
    <bullet> LFish and Wildlife Service (FWS);
    <bullet> LU.S. Forest Service (USFS);
    <bullet> LBureau of Land Management (BLM); and
    <bullet> LU.S. Army Corp of Engineers (USACE).

    Under the FAST Act, Congress continued the FLTP and 
expanded its eligibility to include the Bureau of Reclamation 
(BOR) and other independent Federal agencies with public land 
management responsibilities. The FLTP was authorized at $335 
million in FY 2016 and gradually increased to $375 million in 
FY 2020. Of these amounts, certain agencies receive set-asides 
of program funding, including NPS ($300 million in FY 2020), 
FWS ($30 million in FY 2020), and USFS ($19 million in FY 
2020). The remainder is available to the other FLMAs.

FEDERAL LANDS ACCESS PROGRAM

    MAP-21 also replaced programs that previously directed 
funding to specific types of public lands with the Federal 
Lands Access Program (FLAP) which supports transportation 
projects that are on, adjacent to, or provide access to Federal 
lands. Funds are distributed by formula to States based on the 
number of recreational visitors they receive, Federal road 
mileage, and the number of Federally-owned bridges within the 
State. Congress reauthorized FLAP in the FAST Act starting at 
$250 million in FY 2016 and increasing gradually to $270 
million in FY 2020.

DEFERRED MAINTENANCE BACKLOG

    The FLMAs report a significant backlog in needed repairs 
and maintenance to roadways and transportation infrastructure. 
According to estimates by the USFS, the backlog of deferred 
maintenance for roads, trails, bridges, and tunnels on national 
forest lands is $5.2 billion.\12\ The NPS similarly estimates 
that the deferred maintenance backlog for bridges, tunnels, 
parking areas, and roadways in the national parks is nearly 
$6.2 billion.\13\
---------------------------------------------------------------------------
    \12\ This information was provided to the Committee by USFS on 
January 13, 2020, via email.
    \13\ https://www.nps.gov/subjects/infrastructure/deferred-
maintenance.htm
---------------------------------------------------------------------------

U.S. TERRITORIES

TERRITORIAL HIGHWAY PROGRAM

    In 1970, Congress established the Territorial Highway 
Program (THP) to provide Federal assistance for highway 
construction to the Virgin Islands, Guam, and American 
Samoa.\14\ In 1978, Congress expanded eligibility to include 
the Commonwealth of the Northern Mariana Islands. In 1982 under 
STAA, Congress restructured the THP by setting its 
authorization amount at one-fifth of one percent of total 
Federal-Aid Highway Program funds, rather than a fixed amount. 
THP funds were allocated to the four territories by the 
following formula: \1/12\ each for American Samoa and the 
Northern Mariana Islands, and \5/12\ each for Guam and the 
Virgin Islands.\15\
---------------------------------------------------------------------------
    \14\ Federal Highway Administration, ``Territorial Highway 
Program,'' in A Guide to Federal-Aid Programs and Projects. 162-164. 
https://www.fhwa.dot.gov/federalaid/projects.pdf#page=157
    \15\ Ibid.
---------------------------------------------------------------------------
    In 1992, at the request of one of the territories, FHWA 
reviewed the THP allocation formula.\16\ Based on 
considerations of population, land area, and road mileage, the 
formula was changed to allocate more funding to the smaller 
territories. Since then, THP funding has been allocated by the 
following formula: \1/10\ each for American Samoa and the 
Northern Mariana Islands, and \4/10\ each for Guam and the 
Virgin Islands.\17\
---------------------------------------------------------------------------
    \16\ Ibid.
    \17\ Ibid.
---------------------------------------------------------------------------
    In 1998, under the Transportation Equity Act for the 21st 
Century (TEA-21, P.L. 105-178) Congress changed the THP funding 
allocation from a percentage set-aside to a fixed amount of 
$36.4 million per year. In the most recent reauthorization 
under the FAST Act, Congress authorized the THP at $42 million 
annually for FY2016-FY2020.

PUERTO RICO HIGHWAY PROGRAM

    Prior to the passage of TEA-21, Puerto Rico was treated as 
a State for purposes of apportioning Federal highway 
funding.\18\ In TEA-21, Congress established the Puerto Rico 
Highway Program (PRHP) and changed Puerto Rico's highway 
funding from an apportioned share to a fixed amount. In the 
FAST Act, Congress authorized the PRHP at $158 million annually 
for FY 2016-FY 2020.
---------------------------------------------------------------------------
    \18\ Federal Highway Administration, ``Puerto Rico Highway 
Program,'' in A Guide to Federal-Aid Programs and Projects. 1631-133. 
https://www.fhwa.dot.gov/federalaid/projects.pdf#page=157
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet> LThe Honorable Nelson Petty Jr., P.E., 
Commissioner, Virgin Islands Department of Public Works
    <bullet> LMr. Christopher B. French, Deputy Chief, National 
Forest System, United States Forest Service, U.S. Department of 
Agriculture
    <bullet> LMr. Aron Reif, P.E., Transportation Program 
Manager, Office of Acquisition and Property Management, U.S. 
Department of the Interior
    <bullet> LMr. Joe A. Garcia, Head Councilman, Ohkay Owingeh 
Pueblo
    <bullet> LMs. Mary Beth Clark, President, Intertribal 
Transportation Association (ITA)
    <bullet> LMr. Sergio ``Satch'' Pecori, Chief Executive 
Officer, Hanson Professional Services


 ASSESSING THE TRANSPORTATION NEEDS OF TRIBES, FEDERAL LAND MANAGEMENT 
                     AGENCIES, AND U.S. TERRITORIES

                              ----------                              


                       THURSDAY, FEBRUARY 6, 2020

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton (Chairwoman of the subcommittee) presiding.
    Ms. Norton. The subcommittee will come to order. I ask 
unanimous consent that the chair be authorized to declare 
recesses during today's hearing. Without objection, so ordered. 
We haven't had a hearing like this for some time, so it is way 
overdue. This morning, we are discussing the transportation 
infrastructure needs of Tribes, Federal land management 
agencies, and the U.S. Territories.
    This is our 10th subcommittee hearing. This work will 
enable us to hear from the stakeholders regarding policy 
changes, and particularly will help us to elevate issues that 
have not received thorough consideration for nearly 20 years--
2002 was the last hearing the committee held on the Federal 
Lands Highway program. These are significant programs. Under 
the FAST Act, Tribal-Federal land and U.S. Territorial 
transportation programs receive a combined $6.5 billion over 5 
years.
    Today, we are going to hear from witnesses that Federal 
investment has not kept pace with the needs of each of these 
programs. Surprise, surprise. Of particular concern in my 
district, for example, there is a substantial maintenance 
backlog of National Park Services, and virtually all of our 
parks, particularly our neighborhood parks, are National Park 
Service parks.
    While the National Park Service received $1.4 billion for 
transportation assets under the FAST Act, the agency's deferred 
maintenance backlog has grown to more than $11 billion--$1.4 
billion received; a backlog of $11.4 billion. Transportation 
needs constitute the majority of the backlog at over $6 
billion. These figures only account for needed repairs and 
maintenance to existing transportation infrastructure, not to 
the future needs of the Park Service.
    I want to take a moment to thank members of this 
subcommittee who have highlighted the critical needs of these 
programs. Representatives Stanton and Davids have each made 
Tribal transportation needs a top priority. Representative 
Plaskett of the Virgin Islands has championed infrastructure 
investment in the Territories. And Representative Carbajal and 
others have supported increased funding for transportation 
infrastructure on our Federal lands.
    So I look forward to hearing from today's panel and 
learning more about what this committee can do to ensure the 
transportation infrastructure needs of Tribes, Federal land and 
management agencies, and the U.S. Territories are met.
    [Ms. Norton's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
Congress from the District of Columbia, and Chairwoman, Subcommittee on 
                          Highways and Transit
    Welcome to today's hearing where we will discuss the transportation 
infrastructure needs of tribes, Federal land management agencies, and 
the U.S. territories. Today's hearing is the 10th hearing the 
Subcommittee has held this Congress to support the development of a 
transformative surface reauthorization bill. This work has enabled us 
to hear from stakeholders regarding policy changes the Committee should 
consider, but also to elevate issues that have not received thorough 
consideration in the past.
    The programs we will assess today have certainly not received 
thorough consideration. In 2002--nearly 20 years ago--the House 
Transportation and Infrastructure Committee held a hearing on the 
Federal Lands Highway program. These are significant programs--under 
the FAST Act, tribal, Federal land, and U.S. Territorial transportation 
programs received a combined $6.5 billion in funding over five years.
    Today, we will hear from witnesses that Federal investment has not 
kept pace with the needs in each of these programs. Of particular 
concern to my district is the substantial maintenance backlog of the 
National Park Service. While the National Park Service received $1.4 
billion for transportation assets under the FAST Act, the agency's 
deferred maintenance backlog has grown to more than $11 billion. 
Transportation needs constitute the majority of the backlog at over $6 
billion. These figures only account for needed repairs and maintenance 
to existing transportation infrastructure, not the future needs of the 
Park Service.
    I want to take a moment to thank the Members of this Subcommittee 
who have highlighted the critical needs of these programs. 
Representatives Stanton and Davids have each made tribal transportation 
needs a top priority, Representative Plaskett has championed 
infrastructure investment in the territories, and Representative 
Carbajal and others have supported increased funding for transportation 
infrastructure on our Federal lands.
    I look forward to hearing from today's panel and learning more 
about what this Committee can do to ensure the transportation 
infrastructure needs of tribes, Federal land management agencies, and 
the U.S. territories are met.

    Ms. Norton. At this time, I would like to ask our ranking 
member, Mr. Davis, for his opening statement.
    Mr. Davis. Thank you, Madam Chair Norton. I want to welcome 
everyone to today's hearing. I appreciate the opportunity to 
hear from each and every one of you. Programs we authorize in 
this committee provide $1.5 billion annually and account for 
3.2 percent of all Highway Trust Fund outlays. While I don't 
have--like Chairwoman Norton, I don't have Tribal lands in my 
district, I do have land managed by Federal agencies like her, 
with the National Park Service.
    To put the overall $1.5 billion into perspective, the 
latest report from the NPS indicates a deferred maintenance 
backlog of $11.9 billion. Of that $11.9 billion, nearly $6.2 
billion represents NPS' need to repair bridges, tunnels, 
parking areas, and roadways in national parks. Addressing the 
needs of those testifying today is absolutely linked to this 
backlog. As we address deferred maintenance, it will open the 
door for new projects and make the funding we authorize go even 
further.
    In Springfield, Illinois, located within my congressional 
district, is one such new project that I have been working to 
get designated by the National Park Service as a national 
historic monument. The Springfield Race Riot National Historic 
Monument would preserve and protect resources associated with 
the 1908 Springfield race riot and its role in the formation of 
the NAACP.
    Just to let my colleagues and the panelists know, we are 
going to show a short video, but the artifacts that are going 
to be mentioned in this video from the 1908 race riots were 
uncovered during an underpass project that was funded by 
transportation dollars. So with that, I would love to turn the 
video on, please.
    [Video shown.]
    Mr. Davis. With that, I want to thank our witnesses, 
especially Mr. Pecori, who has been working on this project, 
and I look forward to hearing everyone's testimony.
    [Mr. Davis' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
    from the State of Illinois, and Ranking Member, Subcommittee on 
                          Highways and Transit
    Thank you, Chairwoman Norton. I want to welcome everyone to today's 
hearing on the transportation needs of Tribes, Federal Land Management 
Agencies, and U.S. Territories.
    The programs we authorize in this committee provide $1.5 billion 
annually and account for 3.2 percent of all Highway Trust Fund outlays. 
While I do not have any tribal lands in my district, I do have land 
managed by federal agencies like the National Park Service (NPS).
    To put the overall $1.5 billion into perspective, the latest report 
from the NPS indicates a deferred maintenance backlog of $11.9 billion. 
Of that $11.9 billion, nearly $6.2 billion represents NPS' need to 
repair bridges, tunnels, parking areas, and roadways in national parks.
    Addressing the needs of those testifying today is absolutely linked 
to addressing this backlog. As we address deferred maintenance it will 
open the door for new projects and make the funding we authorize go 
further.
    In Springfield, Illinois, located within my congressional district, 
is one such new project that I've been working to get designated by NPS 
as a National Historic Monument. The Springfield Race Riot National 
Historic Monument would preserve and protect resources associated with 
the 1908 Springfield Race Riot and its role in formation of the NAACP. 
With that, I want to thank our witnesses for being with us this 
morning, including Satch Pecori who has been influential in efforts to 
designate the site.

    Mr. Davis. Yield back.
    Ms. Norton. I want to thank the ranking member. That was 
very moving. I want to move now to the chairman of the full 
committee, Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair. Staff did some research, 
and we can't figure out when it was the last time this 
committee convened on these very important issues--the Federal 
agencies, Tribes, Territories--and looked at the allocations 
they received and the needs they have and the inadequacy of 
what we have provided. So I am very pleased we are here today.
    In the FAST Act, one of my top priorities was to have 
Tribal transportation self-governance, so they wouldn't be 
ripped off by the States, or manipulated by the States in the 
future, and as they should, as sovereign entities, have their 
own discretion in spending those funds. It was a rocky road, 
but both, you know, Councilman Garcia and Ms. Clark were 
involved in this process. And finally, after a couple of bad 
starts, my understanding is, we got it done, and we expect to 
see the rule in the very near future. So that is good news.
    OK. Now you got self-governance, but, virtually, no money. 
So that is the next objective before us. The death rate on 
Indian lands in terms of pedestrians and driving accidents is 
horrible, and the state of the infrastructure is abysmal. So I 
am hoping we can do a lot better in this reauthorization. I 
will be happy to hear from you today.
    We also have massive deficits on our Federal lands. The 
Forest Service has reported a $3.6 billion backlog; the Park 
Service, $6 billion. Just in my congressional district for the 
Forest Service, it is about $100 million. These needs need to 
be addressed, and hopefully again, we can do better in this 
bill.
    And then finally, we are going to revisit the Territory 
issue, which has not been revisited for a couple of decades. It 
used to be the Territories got a percentage share. 
Unfortunately, a number of years ago, they were set to a fixed 
amount of funding instead of a percentage share, and even as 
they have grown, the funding has not grown. And as their needs 
have grown, the investment hasn't been made.
    And, of course, we have had the disasters in Puerto Rico 
and in the Virgin Islands. And we are still trying to pry money 
out of a number of Federal agencies to deal with that. The 
committee will be visiting in the near future with both of 
those entities, and we will see firsthand the lack of progress. 
So I think this is a very timely hearing, and I thank you.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Madam Chair, for holding this hearing today to examine 
the infrastructure needs of tribes, Federal Land Management Agencies, 
and U.S. territories. An assessment of the Federal-aid highway programs 
that support critical infrastructure on tribal, Federal and U.S. 
territorial lands is long overdue.
    One of my top priorities in the FAST Act was requiring a negotiated 
rulemaking committee to establish a Tribal Transportation Self-
Governance Program within U.S. DOT, in keeping with other Federal 
agencies who have successfully implemented similar self-governance 
programs.
    A Tribal Transportation Self-Governance Program will streamline 
delivery of Federal funds to tribes while easing administrative burdens 
and allow greater autonomy for tribes to address their unique 
transportation infrastructure needs. I was pleased to hear that the 
negotiated rulemaking committee was able to reach agreement last year, 
and I look forward to DOT beginning implementation of this program in 
the coming months. I'd also like to thank Head Councilman Garcia and 
Ms. Clark, who are here with us today, for their work on the negotiated 
rulemaking committee as tribal representatives.
    While this progress is encouraging, the state of transportation 
infrastructure on tribal lands remains abysmal. I continue to hear from 
tribal representatives that basic transportation needs are unmet due to 
a lack of resources, and that critical services--safe routes for school 
buses, access for first responders, and transit options for commuters--
are hindered as a result.
    I also look forward to hearing from the Federal Land Management 
Agencies represented here today. We have seen significant 
infrastructure improvements on our Federal lands thanks to Highway 
Trust Fund investments. In FY 2018 alone, FAST Act funding facilitated 
the rehabilitation of 113 bridges, the construction of 39 new bridges, 
and the improvement of over 1,600 lane miles on Federal and tribal 
lands.
    Yet, the needs far outweigh the available resources. The backlog of 
deferred transportation infrastructure maintenance at Federal Land 
Management Agencies is staggering. The Forest Service reports a 
deferred maintenance backlog of $3.6 billion, while the National Park 
Service reports a backlog of $6 billion. My district alone has a 
deferred maintenance backlog of over $100 million for Forest Service 
roads, trails, and bridges. Addressing these maintenance needs is 
crucial to ensure these road systems provide access for critical safety 
needs such as emergency access and wildfire management.
    And finally, we'll hear today about the transportation and 
infrastructure needs of U.S. territories. Funding for the Territorial 
Highway Program has fallen steadily as a proportion of overall funding 
for the last decade, despite growing needs. Today, territories receive 
fewer highway program dollars than they received under SAFETEA-LU.
    Thank you to our witnesses for being here today, and I look forward 
to hearing your testimony on how this Committee can uphold its 
commitment to our tribal, territorial, and Federal partners.

    Ms. Norton. Thank you, Mr. DeFazio. I would like to welcome 
our witnesses. I am sorry. Mr. Graves has an opening statement.
    Mr. Graves of Missouri. Thank you, Madam Chair, and I want 
to thank all of our witnesses for being here today, and I will 
use my time to yield to the Dean of the House, the former 
chairman, whose district has a very big stake in this, and I 
will yield to Don Young.
    Mr. Young. Thank you, Ranking Member, and thank you Madam 
Chairman. This subcommittee hearing, as has been mentioned, has 
been long overdue. I have been participating when we passed 
TEA-LU and probably the American Indians/Alaska Natives 
transportation issue. And my goal here today, there is no place 
like Alaska, and our country demonstrates the Nation's critical 
duty to invest in transportation and infrastructure for all 
Americans, American Indians, Alaska Natives, and federally 
managed lands. We have most of it in the United States in 
Alaska.
    And Alaska has 229 federally recognized Tribes, and with 
over 60 percent of Alaska lands federally owned, these programs 
are an essential lifeline for the State and similarly situated 
States across the country. I recognize the attention these 
issues got in the chairman's Moving Forward Framework. I want 
to congratulate him on that. Our Nation is in dire need of 
these investments. However, I would be remiss if I did not 
state and get serious about the needs we need to get serious 
about how to pay for these investments. I stand ready to work 
with the chairman, full chairman, subcommittee chairman, and 
all the ranking members to try to achieve that goal.
    As the committee begins to consider a surface 
reauthorization bill, we must continue to build on the progress 
made in previous reauthorizations to empower Native communities 
through self-governance and strive to create funding 
opportunity equality for small and large Tribes. Currently, too 
many Alaskan Tribes, due to their size, are unable to benefit 
from existing Tribal infrastructure programs.
    The Tribal formula program and discretionary programs 
should be structured to factor in the unique conditions of 
Alaska, including weather, existing infrastructure, and cost 
differences. Certainly, we cannot ignore the pressing 
transportation investment deficit on federally managed lands. I 
mentioned the many parks and refuges we have in Alaska. In 
Alaska, Federal land transportation infrastructure on parks, 
BLM, and the USFS land is essential for mobility and commerce 
in the State.
    Alaska's national parks are a national treasure and deliver 
huge conservation benefits and economic benefits for the State 
of Alaska and for this Nation. Keeping them safe, open, and 
accessible is critically important. These topics deserve the 
committee's attention. Again, and congratulations for having 
this hearing. We need more public investment. In interest in 
time, I would submit my suggestions to improve these programs 
for the record.
    Again, I want to thank the chairman and ranking member and 
all the members of this committee for holding this hearing. I 
have long sought to provide equity and investment for our 
Nation's Native communities and rural infrastructure needs. We 
look forward to working with my colleagues on these issues 
moving forward. And remember every day we have a meeting, my 
picture is looking down on you, and I hope you notice it is the 
biggest one in the House. Thank you, Madam Chair, and I yield 
back.
    [Mr. Young's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Don Young, a Representative in Congress from 
                          the State of Alaska
    Chairman and Ranking Member: I want to thank the Subcommittee for 
holding this hearing today. Alaska, like no place else in our country, 
demonstrates the nation's critical duty to invest in transportation 
infrastructure for American Indians, Alaska Natives and federally 
managed lands. For Alaska's 229 federally recognized tribes and with 
over 60 percent of Alaska's land federally owned, these programs are an 
essential lifeline for my state and similarly situated states across 
the country.
    I recognize the attention these issues got in the Chairman's Moving 
Forward Framework. Our nation is in dire need of these investments. 
However, I would be remiss if I did not state that to get serious about 
the needs, we need to get serious how to pay for these investments. I 
stand ready to work with my fellow Committee Members on this front.
    As the Committee begins to consider a surface reauthorization bill, 
we must continue to build on the progress made in previous 
reauthorizations to empower native communities through self-governance 
and strive to create funding opportunity equity for small and large 
tribes. Currently, too many Alaskan tribes, due to their size, are 
unable to benefit from existing tribal infrastructure programs. Tribal 
formula programs and discretionary grant programs should be structured 
to factor in the unique conditions in Alaska including weather, 
existing infrastructure, and cost differences.
    Similarly, we cannot ignore the pressing transportation investment 
deficit on federally managed lands. In Alaska, federal land 
transportation infrastructure on NPS, BLM and USFS land is essential 
for mobility and commerce in the state. Alaska's National Parks are a 
national treasure and deliver huge conservation benefits and economic 
benefits to the state through tourism. Keeping them open and accessible 
is critically important.
    I want to touch on a few specific programs and issues that I 
believe deserve the Committee's attention, increased investment, and I 
offer my suggestions for modifications and improvements to these 
programs.
    1.  Topline Funding for the Tribal Transportation Program (TTP) & 
Federal Lands Transportation Program (FLTP). We must consider 
increasing the topline authorization for the TTP and FLTP. The need is 
there and the longer we wait to address the needs the direr the 
situation will become.
    2.  Reauthorize the High Priority Projects Program (HPP).  The HPP 
discretionary grant program is vital for smaller tribes especially 
Alaskan tribes, to fund projects that their formula funding cannot 
address. The HPP program authorization should increase proportionally 
year over year with the TTP's authorization.
    3.  Nationally Significant Federal Lands and Tribal Projects 
Program (NSFLTP). Tribes and Federal Land Managers both compete for 
this program where the needs are great. Over $2.2 billion in requests 
were submitted in FY18 and FY19 for funding but only $500 million was 
authorized and $395 appropriated over the life of the FAST Act. 
Currently, projects $25 million and above are eligible. We should lower 
the threshold and increase topline authorization. Frequently there are 
programs of great significance that cannot meet the $25 threshold and 
remain unfunded.
    4.  Establish an Office of Self Governance at DOT. As required 
under the FAST Act, the impending finalization of the Tribal 
Transportation Self Governance Program rulemaking will increase the 
number of Tribes seeking to participate in compacts with the DOT. 
Currently, DOT lacks dedicated staff to process future compacts and 
funding awards. For self-governance program to work effectively, the 
institutional resources must be in place at DOT to coordinate with 
tribal participants.
    5.  Federal Lands Transportation Program. The federal government 
owns over 60 percent of the land in Alaska and it is noncontiguous. 
Alaskans rely on the roads and bridges owned and maintained by the 
federal government for mobility and commerce. Transportation 
infrastructure on federal lands is critically underfunded. In Alaska 
alone, there are $38 million in deferred maintenance costs to National 
Park Service lands. For the USFS and NPS the backlog is close to $12 
billion. This critical underfunding disproportionately impacts Alaska 
and western states. The Committee must listen to the needs presented by 
Federal Land Management agencies so that needed investments and 
maintenance continue to stack up.

    Again, I want to thank the Chairman and Ranking Member for holding 
this hearing. I have long sought to provide equity and investment for 
our nation's native communities and rural infrastructure needs. I look 
forward to working with my colleagues on these issues moving forward.

    Ms. Norton. Thank you very much. Now I would like to 
welcome our witnesses: the Honorable Nelson Petty, P.E., 
Commissioner of the Virgin Islands, Department of Public Works; 
Mr. Christopher B. French, Deputy Chief, National Forest 
System, United States Forest Service, U.S. Department of 
Agriculture; Mr. Aaron Reif, P.E., Transportation Program 
Manager, Office of Acquisition and Property Management, U.S. 
Department of the Interior; Mr. Joe A. Garcia, head councilman, 
Ohkay Owingeh Pueblo--forgive me for obvious mispronunciations; 
Ms. Mary Beth Clark, president, Intertribal Transportation 
Association; and Mr. Sergio ``Satch'' Pecori, chief executive 
officer, Hanson Professional Services.
    I thank all of you for being here today and for the 
testimony. Before we hear from the panel of witnesses, I 
recognize Representative Plaskett to introduce Commissioner 
Petty.
    Ms. Plaskett. Thank you so much, Madam Chair. I thank all 
of the Members for being here. I have the privilege right now 
to extend a special welcome and say I am very pleased to have 
the Virgin Islands Commissioner for Public Works, the Honorable 
Nelson Petty Jr., among our panel of witnesses today.
    He has been responsible for the construction and 
maintenance of public roads and highways, public transportation 
systems, storm drainage systems, public buildings and other 
facilities and infrastructure systems throughout the entire 
U.S. Virgin Islands under both Republican and Democratic 
administrations of our islands.
    He brings with him a wealth of hands-on experience, with 
the Federal surface transportation programs and their funding 
in the U.S. Territories and has extensive relationships with 
the other Territories as well.
    Along with his extensive previous experience as an 
engineer, I will not hold it against him that I understand he 
is a Rattler, he went to Florida A&M, where he did his studies, 
but he is our representative here on these issues and can 
answer as well what some of the other Territories are going 
for, and I thank you very much. I look forward to your 
testimony, sir.
    Ms. Norton. Thank you, Representative Plaskett. Without 
objection, our witnesses' full statements will be included in 
the record. Since your written testimony has been made a part 
of the record, the subcommittee requests that you limit your 
oral testimony to 5 minutes. Commissioner Petty, you may 
proceed.

TESTIMONY OF HON. NELSON PETTY Jr., P.E., COMMISSIONER, VIRGIN 
  ISLANDS DEPARTMENT OF PUBLIC WORKS; CHRISTOPHER B. FRENCH, 
DEPUTY CHIEF, NATIONAL FOREST SYSTEM, U.S. FOREST SERVICE, U.S. 
  DEPARTMENT OF AGRICULTURE; ARON REIF, P.E., TRANSPORTATION 
PROGRAM MANAGER, OFFICE OF ACQUISITION AND PROPERTY MANAGEMENT, 
     U.S. DEPARTMENT OF THE INTERIOR; JOE A. GARCIA, HEAD 
 COUNCILMAN, OHKAY OWINGEH PUEBLO; MARY BETH CLARK, PRESIDENT, 
 INTERTRIBAL TRANSPORTATION ASSOCIATION; AND SERGIO ``SATCH'' 
 PECORI, CHIEF EXECUTIVE OFFICER, HANSON PROFESSIONAL SERVICES

    Mr. Petty. Good morning, Chair Norton.
    Ranking Member Davis, Chair DeFazio, Ranking Member Graves, 
members of the subcommittee, and the distinguished panel of 
testifiers. Again, I am Nelson Petty Jr., Commissioner of the 
United States Virgin Islands Department of Public Works. It is 
an honor to be here today to testify on behalf of U.S. 
Territories.
    The Territories are challenged because of our distance from 
the mainland. Resources, such as aggregates for concrete and 
asphalt, are limited, and in many instances, monopolized. Every 
major component in infrastructure development projects almost 
always must be shipped in, adding to project cost and time.
    For this reason, 2 years ago, in August of 2018, the 
Territories met for the first time as a group at the U.S. 
Territorial Peer Exchange in Lakewood, Colorado. This event was 
sponsored by the Federal Highway Administration. Those working 
sessions allowed us to share best practices and to learn of 
similar difficulties in managing our infrastructures.
    In the USVI, our ports are the gateway to our economy. 
Several billion dollars' worth of commercial activity pass 
through our ports on an annual basis. In fact, the Caribbean 
ranks only behind Canada, Mexico, China, Japan, and the U.K. in 
U.S. export partners. The USVI is the first stop for much of 
the cargo that ends up in much of the lower Caribbean Islands. 
This also applies for vacationers looking to visit other 
islands in the region.
    Knowing this, we developed and executed a transportation 
master plan that attempts to address the Territory's 
transportation needs. In partnership with the Federal Highway 
Administration, we developed a 2040 USVI comprehensive 
transportation master plan, the first long-range transportation 
plan of the Territory. The vision statement of the plan simply 
stated: an integrated transportation system which serves the 
needs of the USVI community.
    The Virgin Islands Port Authority is also engaged in port 
expansion projects. Among them is the dredging of the inner 
Charlotte Amalie Harbor to allow for the larger Oasis-class 
cruise liners to continue to visit our ports.
    Another major project is the expansion of the Crown Bay 
cargo terminal, which seeks to increase the USVI's position as 
a regional and international trans-shipment hub.
    It has been proven across the globe that when 
infrastructure investments are made on the governmental side, 
private investments are sure to follow. Infrastructure 
investment also leads to employment opportunities, and is a 
beneficial tool for socioeconomic stabilization.
    Mass transit provides one example where substantial Federal 
investment could provide spillover effects. Public 
transportation serves as a lifeline for many of our lower 
income residents who do not have access to their own means of 
transport. We are in the process of conducting a 5-year review 
to evaluate our progress thus far, as well as to determine if 
any changes to the plan may be necessary, taking into 
consideration the impact of recent natural disasters.
    Following the passing of the two category 5 storms of 2017, 
Irma and Maria, as Commissioner, I promulgated a new rule that 
stated that all local roads shall be rebuilt to Federal 
standards. FEMA eventually agreed with this and has adopted 
those Federal standards as the basis for the rebuild of our 
local, non-Federal roads. The importance of this cannot be 
overstated. It was clear after the storms passing that roads 
built to those standards received minimal to no damage.
    As such, resiliency plays into every aspect of our rebuild. 
We have a unique opportunity with the profusion of recovery 
projects to be able to rebuild and transform our 
infrastructure. Our plan leverages the recovery dollars to 
rebuild and upgrade and seeks to utilize the Federal Highway 
Administration funding to implement a pavement preservation 
program to ensure that those dollars aren't squandered.
    The program also utilizes technology as a tool to conduct 
condition assessments that allow for real-time data on our 
infrastructure.
    Our legislative branch is also working along with us to 
develop One Dig legislation to ensure that all underground 
facility operators are given the opportunity to participate in 
upcoming projects and are included in project planning and 
development phases.
    It should be noted that we are also very much engaged in 
ferry boat operations which is also critical to our interisland 
commerce. USVI depends heavily on its ferry system for daily 
commuters, delivering goods, and equipment, as well as our 
tourism product. This is an additional burden as it costs more 
to maintain transportation infrastructure in a community that 
depends on a ferry system.
    In 1998, $14.56 million was allocated to the USVI. In 2019, 
we received $16.8 million in FHWA funds. Over the last 20 
years, the increase in annual allocations to USVI has not kept 
pace with the increase in road construction costs.
    We are authorized by our stewardship agreement to perform 
engineering and economic surveys and investigations for the 
planning and financing of future highway programs. This is 
exactly why we are petitioning Congress. Our ports and roads 
are the gateway to a thriving USVI island economy. A thriving 
economy means less pressure on our healthcare system, our 
pension system, and other social services, meaning, ultimately, 
less is asked of our fellow U.S. taxpayers and citizens to 
sustain our Territory for the future. Thank you for the 
opportunity.
    [Mr. Petty's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Nelson Petty Jr., P.E., Commissioner, Virgin 
                   Islands Department of Public Works
    Good morning Chair Norton, Ranking Member Davis, Chair DeFazio, 
Ranking Member Graves, members of the subcommittee and other 
distinguished panel testifiers. I am Nelson Petty Jr., Commissioner of 
the United States Virgin Islands Department of Public Works. It is an 
honor to be here today to testify on behalf of U.S. territories.
    The territories are challenged because of our distance from the 
mainland. Resources such as aggregates for concrete and asphalt are 
limited and, in many instances, monopolized. Every major component in 
infrastructure development projects almost always must be shipped in, 
adding to project cost and time. For this reason, two years ago in 
August of 2018, the territories met for the first time as a group at 
the US Territorial Peer Exchange (USTPE) in Lakewood, Colorado. This 
week-long event was sponsored by the Federal Highway Administration.
    Those working sessions allowed the territories to share best 
practices and to learn of similar difficulties in managing our 
infrastructures.
    In the USVI, our ports are the gateway to our economy. Several 
billion dollars worth of commercial activity pass through our ports on 
an annual basis. In fact, the Caribbean ranks only behind Canada, 
Mexico, China, Japan and the U.K., in U.S. Export Partners. The USVI is 
the first stop for much of the cargo that ends up in much of the lower 
Caribbean islands. This also applies for vacationers looking to visit 
other islands in the region.
    Knowing this, we have developed and executed a Transportation 
Master Plan that attempts to address the territory's transportation 
needs.
    The Virgin Islands Department of Public Works and the U.S. Federal 
Highway Administration (FHWA) partnered to prepare the 2040 USVI 
Comprehensive Transportation Master Plan (CTMP), the first long-range 
transportation plan for our territory. The purpose of the plan is to 
present a strategy to improve transportation infrastructure throughout 
the USVI through the year 2040. A vision statement was adopted early in 
the planning process to serve as the foundation of this plan. The 
vision was simply stated: An integrated transportation system which 
serves the needs of the USVI community.
    The Virgin Islands Port Authority is actively engaged in port 
expansion projects. Among them is the dredging of the inner Charlotte 
Amalie Harbor to allow for the larger, Oasis-class cruise liners to 
continue to visit our ports. Another major project is the expansion of 
the Crown Bay cargo terminal, which seeks to increase the USVI's 
position as a regional and international trans-shipment hub.
    It has been proven across the globe that when infrastructure 
investments are made on the governmental side, private investments are 
sure to follow. Moreover, infrastructure investment leads to employment 
opportunities and is a beneficial tool for socioeconomic stabilization.
    Mass transit provides one example where a substantial federal 
investment could provide spillover effects. Public transportation 
serves as a lifeline for many of our low-income residents who do not 
have access to their own means of transport. There is evidence that 
mass transit can reduce traffic congestion, while highway capacity 
expansions provide only temporary relief to congestion.
    We are in the process of conducting a 5 year review to evaluate our 
progress thus far, as well as to determine if any changes to the plan 
may be necessary taking into consideration the impacts of recent 
disasters.
    Following the passing of the two category 5 Hurricanes of 2017, 
Irma and Maria, as Commissioner of Department of Public Works, I 
promulgated a new rule that stated that all local roads should be 
rebuilt to federal standards. FEMA eventually agreed with this and has 
adopted those federal standards as the basis for the rebuild of our 
local, non-federal roads. The importance of this action cannot be 
overstated. It was clear after the storms' passing that roads built to 
those standards received minimal to no damage.
    As such, resiliency plays into every aspect of our rebuild. Our 
traffic signals are rated for stronger winds and have sturdier 
foundations, we are reconstructing our roads from the subbase level--
not just surface treatment, and we are adding technology to how we 
process and maintain our infrastructure all in alignment with our 2040 
plan.
    We have a unique opportunity with the profusion of recovery 
projects to be able to rebuild and transform our infrastructure. Our 
plan leverages the recovery dollars to rebuild and upgrade and seeks to 
utilize the FHWA funding to implement a pavement preservation program 
to ensure that those dollars aren't squandered. The program utilizes 
technology as a tool to conduct condition assessments that allow for 
real time data on our infrastructure. This will lead to better decision 
making not only for the department, but for our leaders as well.
    Our local legislative branch is also working along with us to 
develop One Dig legislation to ensure that all underground facility 
operators are given the opportunity to participate in upcoming projects 
and are included in project planning and development phases.
    While I have focused much of the discussion on our road funding, it 
should be noted that we are also very much engaged in ferry boat 
operations, which is also critical to our inter-island commerce. We are 
in the final stages of the development of a comprehensive ferry boat 
program. This program will allow us to apply for ferry boat 
discretionary funds available to states and territories with 
established ferry boat programs.
    The USVI depends heavily on its ferry system for daily commuters, 
delivering goods and equipment, as well as our tourism product. This is 
an additional burden as it costs more to maintain transportation 
infrastructure in a community that depends on a ferry system.
    The territories will meet collectively again in July of this year 
to continue our partnership with the goal and objective to speak with 
one voice to our elected officials.
    In 1998, $14.56 million was allocated to the USVI. In 2019, we 
received $16.8 million in FHWA Highway funds.

------------------------------------------------------------------------
                                                       Annual Allocation
              Years                      Source              Amount
------------------------------------------------------------------------
1998............................  TEA-21.............        $14,560,000
2019............................  FAST...............        $16,800,000
21..............................  ...................         $2,240,000
------------------------------------------------------------------------

    Over the last 20 years the increase in annual allocations to the 
USVI has not kept pace with the increase in road construction costs.
    The significant shortfalls have limited our ability to perform 
necessary work on the federal road system in the USVI, and as a result, 
we have had to borrow $100 million through GARVEE Bonds in order to 
repair our most critical roads. The GARVEE Bonds are repaid using our 
annual allocations, which further reduces the funds available to carry 
out the authorized projects and activities.
    We have estimated that the USVI annual allocations should increase 
to $35 million to carry out this work. If this increase in funding was 
given on a short-term basis, even that would be a desirable improvement 
over our current situation. At the current levels, it will be extremely 
difficult to implement a successful preventative maintenance program, 
which is how every transportation office wants to be able to manage 
their infrastructure. We believe we have laid the groundwork; the 
missing piece is the funding.
    Current annual allocations from the Territorial Highway Program:

------------------------------------------------------------------------
                                   Miles of
           Territory               FAS Road    %Allocation   $Allocation
------------------------------------------------------------------------
American Samoa.................           80           10%    $4,200,000
Guam...........................          171           40%   $16,800,000
Virgin Islands.................          320           40%   $16,800,000
Northern Mariana...............          129           10%    $4,200,000
                                                           -------------
    Total THP Funds.......................................   $42,000,000
------------------------------------------------------------------------

    We are authorized by our Stewardship Agreement to perform 
``engineering and economic surveys and investigations for the planning 
and financing of future highway programs''. This is exactly why we are 
petitioning Congress. The state of our territories' infrastructures is 
dire. We do not have enough funding to maintain and improve our 
territorial highway systems.
    Without the requested funding, our infrastructures will continue to 
deteriorate leaving residents and visitors without a safe and reliable 
transportation system. The territories rely on our transportation 
systems to prosper. Most of our goods arrive via cargo ship at our 
ports and are distributed to our businesses on our roads. Without this 
funding, our crumbling transportation system will continue to be the 
direct contributor of accidents, injuries, damage to vehicles and even 
fatalities.
    We will not be able to have decent highway systems in the future if 
we do not plan to continue increasing annual allocations to match 
increases in cost of living.
    Our ports and roads are the gateway to a thriving USVI island 
economy. A thriving USVI economy means less pressure on our health care 
system, our pension system, and other social services--meaning, 
ultimately, less is asked of our fellow US taxpayers and citizens to 
sustain our territory for the future.
    Thank you for the opportunity.

    Ms. Norton. Thank you very much, Mr. Petty. We will hear 
next from Mr. Christopher French, Deputy Chief, National Forest 
System.
    Mr. French. Thank you, Chair Norton, Ranking Member Davis, 
and members of the subcommittee. I thank you for inviting me 
here today, and I look forward to working with the subcommittee 
on these important issues. Today, I want to share with you the 
importance of the Forest Service road network, the largest 
network of any Federal land management agency. And I want to be 
clear, my testimony is not about serving the Forest Service, it 
is about people; it is about rural America; it is about a way 
of life where our transportation system is the transportation 
fabric of the communities that we are a part of. Places like 
Red River, Idaho; Story, Arkansas; or Douglas County, Oregon.
    With that, I want you to remember three main things today: 
With over 370,000 miles of road, the Forest Service manages the 
largest transportation system of all the Federal land 
management agencies. The Forest Service has over $5 billion in 
infrastructure repairs that we have not been able to fund, 
including $3.6 billion in deferred maintenance just for roads, 
bridges, and trails.
    Maintaining our roads is critical for emergency response, 
fire protection, connecting rural communities, supporting 
commerce in rural economies, and providing access to Federal 
lands. For some context, the Forest Service manages over 193 
million acres across 44 States, or about 8 percent of the land 
area of the United States.
    But in some counties, the National Forest System lands may 
represent more than 90 percent of the land base, and the 
majority of that county's transportation infrastructure. This 
includes more than 65,000 miles of passenger vehicle roads, and 
over 6,000 road bridges. This network provides the roads that 
people depend on to get to schools, stores, hospitals, their 
own homes. They are critical to their life.
    For example, in central Pennsylvania, a single Forest 
Service bridge is the only connector to a small subdivision of 
around 25 homes. That bridge is in such disrepair that the 
community firetrucks and emergency services cannot serve their 
homes presently.
    Our system is critical to our communities and of our 
multiple-use mission. It provides access to more than 300 
million hunters, anglers, and recreationists. These visitors 
contribute more than $11 billion to the U.S. economy and 
sustain nearly 150,000 jobs. Direct timber, grazing, and mining 
activities in national forests provide an additional almost 
120,000 jobs, and $13 billion to rural economies.
    Our roads support and connect people to thousands of sacred 
sites, 6,500 grazing permits, 30,000 recreation special-use 
permits. They are critical to accessing 122 ski areas; 8,000 
outfitters and guides; 400 resorts and marinas; 6,700 Federal 
leases for minerals; and 300,000 permits to individuals to 
collect firewood or food collection or even Christmas trees.
    It is also critical for subsistence hunting in States like 
Alaska, and more than 1,500 communication sites that provide 
rural broadband and emergency response services to communities 
that we are a part of. And often, like counties, our roads are 
the gateways to national parks and monuments across the 
country.
    But perhaps most critically, this road network provides 
fire protection to communities. Firefighters and emergency 
responders use our roads to protect communities, evacuate 
families at risk, and rescue individuals from danger. This is 
the number one issue I hear about from our county commissioners 
and residents, the need to maintain our road system to reduce 
the risk of fire, to attack fires early, and to maintain access 
that supports their way of life.
    When the Forest Service is forced to close unsafe roads, it 
places limitations on our ability to access fires early, before 
they turn into catastrophic events.
    Unfortunately, repairs and maintenance have been postponed 
year after year, resulting in deferred maintenance up to that 
amount of $3.6 billion that I spoke about. This leads to more 
and more road closures across our system, because, frankly, we 
just can't keep up. Our communities see this as failing them, 
or worse, as a strike to their liberty and way of life.
    To attain safe, sustainable access for the American public, 
our agency would require an additional $445 million per year 
over the next 10 years. We greatly appreciate the partnership 
with the Federal Highway Administration that Congress 
authorized most recently through the FAST Act.
    Through the Federal Lands Transportation Program, the 
Forest Service currently receives approximately $19 million in 
annual funding. In fiscal year 2020, that helped us 
rehabilitate 546 miles of roads and 29 bridges. It represents 
about 8 percent of our annual funds, and about 3 percent of our 
estimated annual need.
    I would be happy to work with the subcommittee, and I 
really appreciate the time this morning to talk about these 
important issues. Thank you.
    [Mr. French's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Christopher B. French, Deputy Chief, National 
   Forest System, U.S. Forest Service, U.S. Department of Agriculture
    Madam Chairman, Ranking Member and Members of the Subcommittee, 
thank you for the opportunity to appear before you today as the 
committee considers reauthorization of federal transportation programs. 
My testimony today will focus on the importance of the Federal Lands 
Transportation Program (FLTP) to the critical transportation system 
maintained by the Forest Service.
                  National Forest System Road Network
    The USDA Forest Service manages over 193 million acres of national 
forests and grasslands across 44 states and territories. These public 
lands amount to approximately 30 percent of all federally managed lands 
and comprise approximately 8 percent of the land area in the United 
States. On the National Forest System (NFS), infrastructure is the 
physical link between Americans and their public lands. It strengthens 
communities by giving them safe access to the many ecological, 
economic, and social amenities these lands provide. For instance, 
people use infrastructure on the National Forest System for ranching, 
farming, logging, outdoor recreation, tourism, energy production and 
municipal water services, all of which support thriving small 
businesses, particularly in local communities. People depend on the 
Forest Service road network to get to schools, stores, hospitals, and 
homes. Perhaps most critically, forest infrastructure provides fire 
protection for communities. Firefighters and emergency responders use 
forest infrastructure to access forest lands for firefighting 
operations to protect communities, evacuate families from areas at 
risk, and rescue individuals from danger.
    The infrastructure on the National Forest System includes over 
370,000 miles of roads. Of these, nearly 65,000 miles are operated for 
passenger vehicles, 203,000 miles are operated for high- clearance 
vehicles and over 102,000 are closed to present day traffic, but we 
anticipate will be needed to meet future management activities. The 
vast transportation system also includes approximately 6,200 road 
bridges. Mission essential work that relies on the transportation 
network like forest management and timber harvesting, mining, and 
livestock grazing sustains over 118,000 jobs and contributes another 
$13 billion to rural economies.
    In addition to assisting the agency in both administration and 
wildland fire management, this transportation system annually supports 
more than 300 million hunters, anglers, recreationists and other 
travelers over Forest Service roads. In addition, each year over 150 
million visitors use the Forest Service transportation system to access 
the NFS. These visitors contribute almost $11 billion to the U.S. 
economy and sustain more the 148,000 full and part time jobs.
    We estimate the cost for preventive maintenance, rehabilitation, 
and capital improvements; replacing structurally deficient bridges; 
upgrading many of the 22,000 culverts; and trail maintenance and 
capital improvements would require a funding level of $445 million per 
year for 10 years.
         Federal Highway Funding and the National Forest System
    The Fixing America's Surface Transportation (FAST) Act authorizes 
transportation improvement funding through September 2020. The FAST Act 
maintained a primary funding program, the Federal Lands Transportation 
Program (FLTP), that supports construction activities on infrastructure 
that accesses high-use recreation sites and economic generators located 
on Federal lands. Under 23 USC  203(a), FLTP funding shall be used 
for:
    <bullet>  program administration, transportation planning, 
research, preventive maintenance, engineering, rehabilitation, 
restoration, construction, and reconstruction of Federal lands 
transportation facilities,
    <bullet>  capital, operations, and maintenance of transit 
facilities;
    <bullet>  any transportation project eligible for assistance under 
this title that is on a public road within or adjacent to, or that 
provides access to, Federal lands open to the public; and
    <bullet>  environmental mitigation activities (up to $10,000,000).

    The FAST Act allocates $355 million average annually to the FLTP 
for a total 5-year funding amount of $1.775 billion across the 
identified Federal Land Management Agencies (FLMA). Authorized funding 
for transportation infrastructure facilities owned by each FLMA is 
included in the table below. The FAST Act authorized a total of $85 
million in FLTP program funding for the Forest Service for fiscal years 
2016-2020.

----------------------------------------------------------------------------------------------------------------
                                                       FY2016    FY2017    FY2018    FY2019    FY2020     Total
----------------------------------------------------------------------------------------------------------------
National Park Service...............................     $268M     $276M     $284M     $292M     $300M    $1.42B
Fish and Wildlife Service...........................      $30M      $30M      $30M      $30M      $30M     $150M
USDA Forest Service.................................      $15M      $16M      $17M      $18M      $19M      $85M
Bureau of Land Management, US Army Corps of               $22M      $23M      $24M      $25M      $26M     $120M
 Engineers, Bureau of Reclamation, and Independent
 Federal Agencies...................................
                                                     -----------------------------------------------------------
  Total.............................................     $335M     $345M     $355M     $365M     $375M   $1.775B
----------------------------------------------------------------------------------------------------------------

    Primary funding for Forest Service transportation infrastructure 
comes from both Forest Service appropriations and from FLTP. Adjusted 
for inflation, appropriated resources have been decreasing over the 
past two decades, notwithstanding a spike in funding for roads in 2010 
under the American Recovery and Reinvestment Act. The Forest Service 
receives this FAST Act funding from the Federal Highway Administration 
(FHWA) to enhance access to national forest lands and repair roads 
after natural disasters. This funding represents approximately seven 
percent of the total funds received for road maintenance and 
construction annually through Interior Appropriations and FLTP. The 
Forest Service and FHWA work together to enhance road safety 
management, develop long range transportation planning, and collect 
road condition surveys across the FLTP network. The agency is 
developing a National Long-Range Transportation Plan with a focus on 
transportation funding and decision-making and will be the first time 
the agency has provided national guidance to promote consistency and 
transparency in managing the roads program. These planning and data 
collection efforts help the Forest Service focus on performance 
management when deciding most efficiently what assets to fund 
construction on and when.
    With projects funded by FLTP funding, the Forest Service has 
completed or is programmed through FY20 to complete 150 projects by 
spending $70 million in FLTP construction funding, rehabilitating 546 
miles of roads, improving access to over 1,300 National Recreation 
Areas, replacing 29 bridges in poor condition, reconnecting 204 miles 
of aquatic habitat by upgrading road-stream crossings, and improving 
196 miles of trails. These investments focus on key transportation 
assets that meet recreation, economic benefit, and environmental goals.
    Roads directly under the jurisdiction of the Forest Service also 
benefit from the Emergency Relief for Federally Owned Roads (ERFO) 
program. After a natural disaster, ERFO funds are used to restore 
critical transportation assets to their pre-existing state. This 
program is critical restoring and maintaining access on National Forest 
Lands.
              Deferred Maintenance on the NFS Road System
    The state of the Forest Service's transportation infrastructure has 
fallen far behind what is necessary to meet the needs of our forests 
and forest users. Approximately $3.6 billion (of a total of $5.2 
billion) in infrastructure repairs and maintenance have been postponed 
year-after-year, otherwise known as, ``deferred maintenance.'' Forest 
roads and bridges are critical for sustaining landscapes across the 193 
million acres of National Forest System lands for the benefit of 
visitors and communities and are also essential in wildland fire 
management.
    The agency is taking several actions to help reduce deferred road 
maintenance. For example, the Forest Service approach to travel 
management helps forests plan a road system that best meets community 
needs and transfers ownership to local communities, counties, or States 
where appropriate.
    We are also taking bold steps to streamline our environmental 
review processes and speed up important work that could help protect 
communities, livelihoods and resources. The proposed updates would not 
only give the Forest Service the tools and flexibility to manage the 
land and tackle critical challenges like wildfire, insects, and disease 
but also improve service to the American people. The revised rules will 
also make it easier to maintain and repair the infrastructure people 
need to use and enjoy their public lands including our road network.
    The updates will help reduce our maintenance backlog by 
implementing a new suite of ``categorical exclusions,'' a 
classification under NEPA excluding certain routine activities from 
more extensive, time-consuming environmental impact analysis. The 
proposed categorical exclusions would include roads and trails 
management. The new categorical exclusions are based on intensive 
analysis of hundreds of environmental assessments and related data and 
when fully implemented will reduce process delays for routine 
activities by months or years. We are also streamlining our business 
practices and implementing new programmatic agreements for consultation 
with other agencies.
    In addition, the agency is specifically streamlining business 
practices to reduce the deferred maintenance backlog by strategically 
prioritizing capital improvement projects. For road projects, the 
agency uses the following criteria in order: (a) projects vital for 
near-term forest-based economic activity (that is, restoration within 
the next 5 years); (b) projects needed for safety; (c) projects that 
improve access to recreation sites and trails; and (d) projects that 
improve wildlife connectivity, aquatic organism passage, and flood 
resiliency. The goals are better community service and better access to 
public lands for emergency response, outdoor recreation, and active 
resource management. Projects are also evaluated on how they use 
partnerships to achieve mutual conservation goals through combined 
efforts.
                               Conclusion
    With a backlog of deferred maintenance for forest roads and bridges 
at $3.6 billion, the Forest Service cannot achieve a state of good 
repair on much of its infrastructure on the National Forest System. 
Deteriorating road infrastructure hampers proper management of the 
National Forest System and can undermine our firefighting and rescue 
capabilities, complicate travel to schools and hospitals and hinder 
commerce with local businesses.
    The FLTP has been a critically important program that helps 
maintain the agency's transportation system and the critical economic 
and natural benefits it enables. We look forward to working with the 
committee as it considers reauthorization of the program as well as any 
infrastructure legislation.

    Ms. Norton. Thank you, Mr. French.
    Mr. Aaron Reif, Transportation Program Manager at the 
Department of the Interior.
    Mr. Reif. Chairwoman Norton, Ranking Member Davis, and 
members of the subcommittee, thank you for the opportunity to 
discuss the Department of the Interior's Federal Lands and 
Tribal Transportation Programs. My name is Aaron Reif, the 
Department of the Interior's Transportation Program Manager.
    Interior-managed lands and facilities serve nearly 500 
million visitors annually and provide schooling for 
approximately 47,000 Indian children. Within Interior, the 
National Park Service, the U.S. Fish and Wildlife Service, the 
Bureau of Indian Affairs, the Bureau of Land Management, and 
Bureau of Reclamation manage significant inventories of 
constructed assets, including transportation systems.
    In total, Interior is responsible for nearly 100,000 miles 
of road, nearly 4,000 bridges, 63 tunnels, 123 transit systems 
and more than 50,000 miles of trail and primitive roads. 
Interior's surface transportation network is a key component of 
effective Federal land management practices, including wildfire 
prevention and response, and invasive species control. It also 
provides recreational access for Americans to hunt, fish, and 
enjoy other outdoor activities.
    These systems support local communities by facilitating the 
efficient movement of goods and services by small businesses, 
by allowing ranchers to move their stock to range land, and by 
providing equipment access to energy projects.
    At the end of fiscal year 2019, Interior reported $17.3 
billion in deferred maintenance and repair needs, Department-
wide. Approximately one-half of that total is related to 
transportation assets. At a time of record-setting visitation 
and rapid technological change, many key pieces of Interior 
infrastructure, including iconic parkways, bridges, ferries, 
tunnels, trails, and bus fleets, have become functionally 
inadequate, or have exceeded their design life and require 
large investments to bring them back to good condition.
    The Federal Lands Transportation Program, or FLTP, is 
authorized at $375 million in contract authority from the 
Highway Trust Fund in fiscal year 2020, and is a jointly 
administered program between the Federal Highway Administration 
and the Federal land management agencies.
    For decades, this program has successfully played to the 
strengths of the partnership. Federal land management agencies 
are responsible for prioritizing multimodal transportation 
projects, and the Federal Highway Administration provides 
program oversight, verifies program eligibility, and provides 
technical assistance for delivery upon request.
    In carrying out the Federal Lands Transportation Program, 
Interior balances optimizing the life cycle of our existing 
infrastructure through necessary maintenance and capital 
improvements with our resource stewardship responsibilities.
    The FLTP is the primary funding source for major capital 
investments in Interior transportation facilities. However, 
other funding sources are also utilized, including fee revenue 
and annual appropriations to Bureaus for construction, 
maintenance, and operations.
    Interior has identified annual transportation-related needs 
of approximately $1.1 billion per year to improve and maintain 
its transportation infrastructure in good condition, meet 
modernization needs, and develop multimodal transportation 
systems.
    Transportation infrastructure is also a critical part of 
the well-being of Tribal communities. Interior serves as a 
steward of more than 56 million acres of Tribal trust lands. 
These lands contain more than 27,000 miles of road, 1,600 miles 
of trails, and approximately 1,000 bridges.
    The largest road program for Tribal Nations is the Tribal 
Transportation Program, or TTP, which is also funded from the 
Highway Trust Fund. During fiscal year 2020, the TTP is 
authorized at $505 million in contract authority, which is 
distributed by formula to all federally recognized Tribes 
through self-determination contracts or agreements. Each Tribal 
Government prioritizes its own projects under this program.
    Accompanying the President's fiscal year 2020 budget for 
Interior is the reproposal of a public lands infrastructure 
fund that, if enacted, would generate up to $6.5 billion over 5 
years to address Federal infrastructure needs, including 
deferred maintenance attributed to our transportation 
infrastructure.
    In conclusion, Interior's transportation system is critical 
to carrying out our mission to ensure visitor enjoyment, 
access, and safety; to protect natural and cultural resources; 
and to provide access for resource development and working 
landscapes. We thank this committee for continued support of 
these transportation programs.
    Without the FLTP and TTP, our ability to care for and 
provide access to these significant Federal and Tribal lands 
would be nearly impossible. We look forward to working with 
this committee and others as they consider legislation related 
to the administration's proposed public lands infrastructure 
fund, and the reauthorization of the Fixing America's Surface 
Transportation Act.
    Madam Chair, this concludes my statement. I will be pleased 
to answer any questions you or other members of the committee 
may have.
    [Mr. Reif's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Aron Reif, P.E., Transportation Program Manager, 
 Office of Acquisition and Property Management, U.S. Department of the 
                                Interior
    Chairman Norton, Ranking Member Davis, and members of the 
Subcommittee, thank you for the opportunity to discuss the Department 
of the Interior's (Interior) Federal Lands and Tribal Transportation 
Programs. My name is Aron Reif, Transportation Program Manager, and my 
focus and expertise is on the infrastructure and asset management 
policy aspects of these programs.
    Interior oversees approximately 20 percent of all land in the 
United States and operates in more than 2,400 separate locations across 
the country. Interior-managed lands and facilities serve nearly 500 
million visitors annually, provide schooling for approximately 47,000 
Indian children, and are crucial to the work of 70,000 Interior 
employees and 280,000 volunteers. Within Interior, the National Park 
Service (NPS), the U.S. Fish & Wildlife Service (FWS), the Bureau of 
Indian Affairs (BIA), Bureau of Land Management (BLM), and Bureau of 
Reclamation (BOR) manage significant inventories of constructed 
infrastructure assets with a replacement value of about $300 billion. 
Among these assets are networks of transportation systems. In total, 
Interior is responsible for nearly 100,000 miles of road, nearly 4,000 
bridges, 63 tunnels, 123 transit systems, and more than 50,000 miles of 
trails and primitive roads.
    Interior's surface transportation network is a key component of 
effective Federal land management practices including wildfire 
prevention and response and invasive species control. It also provides 
recreational access for Americans to hunt, fish, and enjoy other 
outdoor activities on their Federal lands and is essential to enhancing 
the visitor experience and ensuring visitor safety. Safe and reliable 
transportation systems are also good for business. These systems 
support local communities by facilitating the efficient movement of 
goods and services across Federal lands by small businesses, such as 
river guides, tour operators, and outfitters; by allowing ranchers to 
move their stock to rangeland; by linking timber harvesters to saw 
mills; and by providing equipment access for development of energy and 
mineral extraction projects. Interior's constructed infrastructure 
assets directly enable our bureaus to fulfill our varied missions. 
After years of increased visitation and use, aging facilities and other 
vital structures are in need of reinvestment.
    In FY 2018, production and activities on Interior lands in total 
contributed about $183 billion to the Nation's GDP, supported about 
$315 billion in economic output, and supported an estimated 1.8 million 
jobs.\1\ According to the U.S. Commerce Department, in 2017, America's 
outdoor economy accounted for $427 billion of the U.S. GDP. Interior 
plays a major role in supporting America's outdoor economy through 
access to our national parks and other Federal lands. The 
modernization, connectivity and the state of condition of the Interior 
infrastructure that service these lands facilitate the quality of life 
and are economic engines for the communities nearby.
---------------------------------------------------------------------------
    \1\ U.S. Department of the Interior Economic Report, FY 2018
---------------------------------------------------------------------------
    Aging infrastructure impacts our ability to serve the public. Many 
of these assets require renewal, with older assets becoming more 
expensive to repair and maintain in good condition. At the end of FY 
2019, Interior reported $17.3 billion in deferred maintenance and 
repair needs, and approximately one-half of that total is related to 
transportation assets--primarily roads and bridges, but also including 
tunnels, parking areas, trails, and infrastructure related to shuttle 
buses, ferries, and trams.
    According to a National Academy of Sciences study, ``Predicting 
Outcomes of Investments in Maintenance and Repair of Federal 
Facilities,'' private industry standards require 2-4 percent of the 
replacement value of constructed assets be invested in maintenance each 
year to maintain constructed assets in good condition. In contrast, 
currently, Interior is able to invest less than 0.5 percent each year. 
Investments in capital improvements, such as roadway widening to 
support increased public use, are in addition to these expenses. 
Interior bureaus prioritize investments based on mission criticality, 
asset condition, mitigation of health or safety risks to employees or 
the public, cost/benefit analyses, and the consequences of further 
delays of work.
    At a time of record setting visitation and rapid technological 
change, many key pieces of Interior infrastructure, including iconic 
parkways, bridges, ferries, and bus fleets, have become functionally 
inadequate or have exceeded their design life and require large 
recapitalization or rehabilitation investments to bring them back to 
good condition. This infrastructure requires modernization and long-
term predictable investments that are critical to maintaining public 
access and protecting natural and cultural resources.
                  Federal Lands Transportation Program
    The Federal Lands Transportation Program (FLTP) is a jointly-
administered program between the Federal Highway Administration (FHWA) 
and the Federal land management agencies identified in statute. The 
FLTP is funded from the Highway Trust Fund through the U.S. Department 
of Transportation (USDOT). For decades, the program has successfully 
played to the strengths of the partnership: Federal land management 
agencies are responsible for prioritizing multi-modal transportation 
projects and the FHWA provides program oversight, verifies program 
eligibility, and provides technical assistance upon request. Interior 
appreciates FHWA's sharing of technical knowledge and hands-on 
technical expertise for delivery of complex projects and capacity 
building. In carrying out the FLTP, Interior balances optimizing the 
life cycle of our existing transportation infrastructure through 
necessary maintenance and investments in capital improvements with our 
resource stewardship responsibilities.
    The FLTP is the primary funding source for major capital 
investments in Interior transportation facilities, which are a Federal 
responsibility. However, other funding sources are also utilized, 
including fee revenue, and annual appropriations to bureaus for 
construction, maintenance, and operations. A large portion of funds--
more than $300 million each year--is associated with the FLTP. This 
funding source has been invaluable to Interior.
    A key strategy at Interior is to focus a larger share of our 
limited transportation funds on applying preventive maintenance 
techniques such as pavement seal coats. These preventive maintenance 
activities extend the life of pavement for a relatively low unit cost 
compared to the repair or reconstruction of our worst condition roads 
at a significantly higher unit cost. We can significantly extend the 
pavement life of many miles of good condition pavement for the same 
cost that it would take to reconstruct one mile to bring it back to 
good condition. This allows us to improve the condition of the entire 
transportation network over time, while still directing some funding 
towards the costly major rehabilitation or reconstruction efforts, 
allowing us to maximize appropriated funding.
    Through analysis such as pavement deterioration modeling and total 
life cycle cost analysis, Interior has identified annual 
transportation-related needs of approximately $1.1 billion per year to 
improve and maintain its transportation infrastructure in good 
condition, meet modernization needs, and develop a multi-modal 
transportation system that can accommodate future needs and welcome all 
Americans.
National Park Service
    The National Park System includes more than 85 million acres across 
419 national park units in every state, the District of Columbia, 
American Samoa, Guam, Puerto Rico, Commonwealth of Northern Mariana 
Islands and U.S. Virgin Islands. About 9,600 miles of publicly 
accessible park roads and parkways exist, approximately 5,500 miles of 
which are paved. The condition ratings of paved roads are 65 percent 
good, 26 percent fair, and 9 percent poor. The NPS network includes 
approximately 1,400 public bridges and 63 public tunnels. The NPS also 
has 4,600 miles of front country trails.
    The NPS manages 99 discrete transit systems in 65 of the 419 NPS 
units. These transit systems accommodate more than 43 million passenger 
boardings annually. Shuttle, bus, van, and tram systems make up the 
largest share of all system types (61 percent), followed by boat and 
ferry systems (33 percent), planes (2 percent), and trains and trolleys 
(4 percent). Of these systems, 29 provide the primary access to an NPS 
unit because of resource or management needs and geographic 
constraints.
    Under the Fixing America's Surface Transportation Act (FAST Act), 
the NPS is authorized an average of $284 million per year, starting at 
$268 million in fiscal year (FY) 2016 and growing $8 million per year 
to $300 million in FY 2020. The NPS has approximately 500 projects 
underway at any given time at all stages of project delivery. Some 
notable current projects include a rehabilitation of the Linville River 
Bridge on the Blue Ridge Parkway in North Carolina ($3.3 million), 
bridge preservation of the West Fork Sulphur Creek Bridge in Lassen 
Volcanic National Park in California ($1.1 million), rockfall 
mitigation and a replacement of the Bugstuffer Culvert in Denali 
National Park in Alaska ($2.7 million), a replacement of a dilapidated 
pier at Scorpion Anchorage at South Cruz Island in Channel Islands 
National Park in California ($13 million), and a bridge replacement on 
the Main Entrance and Park Central Road in National Capital-East parks 
($0.4 million).
    There are also a number of large projects with high local, 
regional, and national interest such as Arlington Memorial Bridge in 
Washington DC, a major commuter artery; the Denali Road in Denali 
National Park, Alaska, an essential tourism feature for the park 
visitors; and the Tamiami Trail project in Everglades National Park, 
Florida, a critical component to South Florida's ecosystem restoration 
efforts. The NPS has identified over $2.6 billion in potential future 
transportation ``mega'' projects which are defined as over $25 million 
in project cost. The NPS celebrated this year the completion of the 
Going-to-the-Sun Road Reconstruction in Glacier National Park in 
Montana, and completion of the ``missing link'' section of the 
Foothills Parkway in the Great Smoky Mountains National Park in 
Tennessee. Additionally, the rehabilitation of the Arlington Memorial 
Bridge is over one-half completed. These projects were some of the most 
recent ``mega'' projects that NPS has successfully leveraged NPS funds 
with grants from the USDOT and/or state and local government funds to 
complete.
U.S. Fish and Wildlife Service
    The National Wildlife Refuge System managed by the FWS includes 
more than 855 million acres of lands and waters across 568 national 
wildlife refuges and 38 wetland management districts, in every state. 
In 2017, the FWS welcomed about 55.5 million visitors to national 
wildlife refuges and national fish hatcheries for recreational 
activities, a 13.5 percent increase from 2013. Projects completed in 
partnership with Federal Lands Highway make this visitation possible. 
According to a 2011 survey of refuge visitors, 75 percent ranked 
transportation elements as highly important to their satisfaction.
    The FWS operates over 5,400 miles of public use roads and 5,000 
parking areas, approximately 540 miles of which are paved. The FWS 
network includes approximately 300 public bridges, thousands of 
culverts, and 23 public transportation systems. The FWS also has 2,100 
miles of trails and boardwalks. Most of FWS' transportation assets are 
near the end of their life cycle. Just 15 percent of FWS public roads 
and parking areas, 30 percent of FWS public bridges, and 32 percent of 
FWS trails and transit systems are under 20 years of age. The average 
age of FWS public roads, parking areas, and bridges is 42 years, and 
the average age for FWS transit systems and public trails is 32 years. 
Under the FAST Act, and previous highway reauthorization bills, the FWS 
receives $30 million per year, a funding level that has been consistent 
since 2005.
    An example of transportation infrastructure needs managed by the 
FWS is on the Kenai National Wildlife Refuge in Alaska, which covers 
over 3,000 square miles and offers a wide array of visitor activities, 
including hunting, camping, and educational programs. FWS needs to 
rehabilitate the deteriorating Swan Lake Road, which has serious 
drainage and safety issues, including signage and visibility concerns 
due to vegetation encroachment. The project would extend the life of 
the asset and improve safety, access, and the overall visitor 
experience at the wildlife refuge. This project will require a $14.7 
million investment to complete.
    Another example is at Crab Orchard National Wildlife Refuge in 
Illinois. With over 43,000 acres in southern Illinois, this refuge is a 
beloved community asset. Its original 32-mile paved roadway network, 
related bridges, and adjacent parking lots have far exceeded their 
usable life. All assets need significant repairs just to maintain 
reliable public use; the refuge cannot increase capacity sufficiently 
to accommodate increasing public use. An $8 million project to improve 
the roadways and parking lots is underway. This project will serve 17 
miles of road and an additional 36,000 square yards of parking on the 
most traveled public routes. As the work moved forward, the scope of 
the project expanded and another $2 million will be awarded for 
intersection safety improvements and other related road work. Due to 
funding constraints, construction has been phased, ultimately 
increasing the project's total cost.
    The Valle de Oro National Wildlife Refuge is one of the largest 
public open spaces in Albuquerque, New Mexico. Recognizing the limited 
access opportunities to the new refuge, FWS and Bernalillo County 
formed a partnership and were selected for Federal Lands Access Program 
(FLAP) funding that was leveraged with FLTP funds for a total of $8.5 
million to improve multi-modal connectivity with the community. A 
second multi-modal transportation expansion project was tentatively 
selected for FY 2023 FLAP funding with an estimated construction cost 
of $8,000,000. These projects expand upon the new visitor center and 
FLTP-funded entrance road to greatly enhance public access, safety, and 
the visitor experience to the wildlife refuge.
Bureau of Land Management
    The BLM manages more than 245 million acres of land, primarily in 
the western states. About 45,000 miles of public roads are accessible 
by standard passenger cars on these lands; approximately 2,000 miles of 
which are paved, and another 14,000 miles are surfaced with aggregate. 
The condition ratings of these roads are 1 percent good, 33 percent 
fair, and 66 percent poor. Additionally, the BLM operates an additional 
30,000 miles of primitive roads, which are only traversable by 4-wheel 
drive vehicle. The BLM transportation network also includes 891 public 
bridges and more than 15,000 miles of trails.
    The FAST Act does not authorize a dedicated funding level for the 
BLM each year; instead, the BLM must compete with other Federal land 
management agencies for a share of funding averaging $24 million per 
year. Under the FAST Act, the BLM has received over $37 million in FLTP 
funds (between $6.8 million and $8.1 million per year). These funds 
have been used by BLM to reduce deferred maintenance and provide 
capital improvements and safety upgrades to existing roads that provide 
important access to BLM priority high use recreation sites. The BLM 
completed four rehabilitation projects in Oregon, Nevada, California, 
and Montana totaling approximately $36 million. These projects improved 
access by paving aggregate roads and repaving existing asphalt roads to 
improve public access to river rafting, fishing, hiking, rock climbing, 
timber harvesting, and access to off-highway vehicle usage areas. In 
the design phase, the BLM has four additional rehabilitation projects 
underway in Montana, South Dakota, New Mexico, and Alaska, and one 
additional rehabilitation project that is currently under construction 
in Oregon; these projects will total over $28 million in FLTP funds.
    In 2017, Road and Bridge magazine listed the Red Rock Scenic Loop 
road rehabilitation project number 3 of their top 10 road pavement 
projects in North America, which was a $14 million road rehabilitation 
in Red Rock Canyon National Conservation Area outside of Las Vegas, NV.
    Work included repairs, upgrades, and repaving of 13 miles of roads. 
Visitor safety was improved by building two new bridges across low 
water crossings that previously left visitors stranded during flash 
floods. The BLM also added a pedestrian/bike lane adjacent to the road 
to support multimodal travel throughout the Red Rock NCA and reduce 
congestion.
    Another program highlight for the BLM is the Campbell Tract 
project. The Campbell Tract is a 730-acre Special Recreation Management 
Area located on the east side of Anchorage, Alaska. It provides a 12-
mile non-motorized trail system that winds through the woods. The BLM 
partnered with the Alaska Department of Transportation and Public 
Facilities (DOT&PF), using Federal Lands Access Program funds to 
realign the intersection of East 68th Avenue and Elmore Road, and $1.6 
million of BLM FLTP funds to realign the BLM entrance road from the new 
intersection into Campbell Tract. This project will improve safety and 
year around access for motorized and non-motorized visitors.
Bureau of Reclamation
    BOR provides water and electricity throughout the western United 
States, through a series of dams, lakes, canals, and power generation 
sites. The public has access to much of the land surrounding these 
water and power facilities. BOR owns approximately 2,800 miles of 
public road, 300 public vehicular bridges, and 1,300 miles of public 
trails.
    The FAST Act does not authorize a dedicated funding level for BOR 
each year; instead, BOR must compete with several other Federal land 
management agencies for a share of a pot of funding averaging $24 
million per year. BOR was added to the FLTP in 2016 in the FAST Act, 
and it has been beneficial to the agency, our partners, and the public, 
funding over 27 projects for $30 million in 13 of the 17 western states 
in which Reclamation has a presence. One of the recent FLTP projects 
that was completed was rehabilitating the Hoover Dam Access Road and 
parking areas, which had fallen into disrepair due to heavy traffic. 
Hoover Dam is BOR's most visited site receiving over 5.5 million 
visitors.
    Another noteworthy FLTP project BOR has is the Ponderosa Way Bridge 
Replacement project. This project is located outside of Auburn, 
California over the North Fork of the American River. The original 
bridge and road system was built by the Civilian Conservation Corp in 
the 1930s as a fire break across the Sierra Nevada mountain range. The 
project cost is over $5 million, involving a mixture of FLTP funds and 
BOR appropriated funds. Construction is expected to be completed in 
2022.
                     Tribal Transportation Program
    Transportation infrastructure is also a critical part of the well-
being of tribal communities. Interior serves as the steward of more 
than 56 million acres of tribal trust lands. These lands contain more 
than 27,800 miles of road (including 7,300 miles of paved; 5,000 miles 
of gravel; and 15,500 miles of earth/primitive surfacing); 1,600 miles 
of trails; and approximately 1,000 bridges. These roads represent an 
additional $392 million in needs that is separate from those reported 
for Interior's owned assets.
    The largest road program for tribal nations is the Tribal 
Transportation Program (TTP), funded from the Highway Trust Fund 
through the USDOT's Federal Highway Administration and authorized by 
the FAST Act. During FY 2020, the TTP is authorized at $505 million in 
contract authority, which is distributed as directed by Chapter 2 of 
Title 23 to federally-recognized tribes, through self-determination 
contracts or agreements. Each tribal government prioritizes its 
projects under this program via a Tribal Transportation Improvement 
Plan, approved by the Federal Highway Administration.
                    Public Lands Infrastructure Fund
    Accompanying the President's FY 2020 budget for Interior is the re-
proposal of a Public Lands Infrastructure Fund that would generate up 
to $6.5 billion over five years to address investment needs in the 
Departments of the Interior and Agriculture. Similar legislation has 
been introduced on a bipartisan basis both here in the House and in the 
Senate, and the Secretary looks forward to working with the Congress to 
enact this legislation. The Administration's proposal would support 
infrastructure improvements through an allocation of 70 percent for 
national parks, 10 percent for national forests, 10 percent for 
national wildlife refuges, 5 percent for Bureau of Indian Education 
schools, and 5 percent for lands managed by BLM. The Fund will be 
funded through the deposit of 50 percent of all Federal energy 
development revenue that would otherwise be credited or deposited as 
miscellaneous receipts to the Treasury over the 2020-2024 period, 
subject to an annual limit of $1.3 billion. Interior and Agriculture 
would prioritize projects, monitor implementation, and measure results. 
This investment will significantly improve the public's experience at 
many of America's most visible, visited, and treasured places.
    If enacted, the Public Lands Infrastructure Fund would be used to 
help to address Interior's deferred maintenance backlog, including 
deferred maintenance attributed to our transportation infrastructure. 
In this way, funds generated from the highway trust fund and energy 
development revenue would both be deployed to improve the overall 
condition of our transportation network and increase or restore access 
to our Federal lands.
                               Conclusion
    Interior's transportation and infrastructure system is critical to 
carrying out our mission and to ensure visitor enjoyment, access, and 
safety; to protect natural and cultural resources; and to provide 
access for resource development and working landscapes. We thank this 
committee for continued support of these transportation programs, which 
in turn have helped Interior to address critical investment needs of 
deteriorating roads and bridges, close the gap on incomplete parkways, 
and enhance safety for visitors and staff. Without the FLTP and TTP, 
our ability to care for and provide access to these significant Federal 
and Tribal lands would be nearly impossible. We look forward to working 
with this Committee and others as they consider legislation related to 
the Administration's proposed Public Lands Infrastructure Fund and the 
reauthorization of the Fixing America's Surface Transportation Act.
    Madam Chair, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Committee may have.

    Ms. Norton. Thank you, Mr. Reif, for your statement.
    Next, Mr. Joe A. Garcia, head councilman, Ohkay Owingeh 
Pueblo.
    Mr. Garcia. [Speaking a Native American language.]
    Good morning. With all due respect, thank you, Chair 
Norton, Ranking Member Davis, and members of the subcommittee 
for the opportunity to provide testimony today on the 
importance of surface transportation for Indian country. My 
name is Joe Garcia. I am head councilman and the former three-
term Governor of Ohkay Owingeh. I am an electrical engineer by 
profession, with a B.S. in electrical engineering from the 
University of New Mexico. I am the cochair of the National 
Congress of American Indians (NCAI) Intertribal Transportation 
Association Tribal Transportation Task Force, a former two-term 
president of NCAI, and the Tribal cochair of the Department of 
Transportation's Negotiated Rulemaking Committee to establish 
the Tribal Transportation Self-Governance Program.
    Let me begin by thanking the committee and Chairman DeFazio 
for including section 1121 in the FAST Act to extend Tribal 
self-governance to the Department of Transportation. With your 
help, we have a consensus draft rule that will become final 
this June. We have some disagreement issues and concerns and 
timing issues, such as the timing when the Department may 
establish an Office of Self-Governance, whether the Department 
might establish an advisory committee or pay Tribes contract 
support costs and lease payments. But the draft rule honors 
self-governance principles, and this new program will benefit 
Indian country.
    Today, there are 574 Tribal Nations with a nation-to-nation 
relationship with the United States--229 Tribes are located in 
Alaska, and 345 are located in 34 other States. Indian 
country's 100 million acres would make it the fourth largest 
State in the U.S., with some 151,000 miles of roads, 42,000 
miles of which are owned and maintained by the Bureau of Indian 
Affairs and Tribes, with too few resources.
    The transportation needs of Indian country, like rural 
America, are great. Please build on the improvement to the 
existing Federal transportation programs proposed in the Senate 
bill, S. 2302, including in it title IV, which includes many 
provisions supported by Tribes and the NCAI.
    Tribes ceded millions of acres of their aboriginal land to 
the United States. In return, the Federal Government promised, 
through signed treaties, statutes, and Executive orders, to 
extend its protection to Tribal Governments and to our 
citizens. That is the binding contract the United States 
entered into with the Tribes, from which has arisen the United 
States trust responsibility to the Indian Nations and to our 
peoples.
    With too few Federal appropriations, Tribes are falling 
behind the rest of the Nation, and transportation barriers 
hinder economic growth. There are 29,400 miles of BIA system 
roads, the majority of which are gravel or earth, and over 900 
BIA-owned bridges. Tribal Nations own and maintain 
approximately 14,000 miles of travel roads and trails, of which 
only 1,000 miles are paved. Many of the dirt and gravel routes 
are schoolbus routes. These roads are among the most 
underdeveloped, unsafe, and poorly maintained road networks in 
the country. This committee can authorize more funds to pave 
them.
    In my written testimony, I discuss the Appalachian region, 
and the vision that the 89th Congress had in 1965, to see that 
targeted Federal appropriations were made to the region and 
peoples that have not shared properly in the Nation's 
prosperity. Thanks to the American people, the region prospers 
today. I ask this subcommittee to do the same for Indian 
country in the next highway bill.
    The modern day bipartisan Federal policy of Tribal self-
governance authorizes the transfer from Federal agencies to 
Tribal Governments of the day-to-day administration of Federal 
programs and funds for Tribes in the most efficient and 
streamlined manner, reducing burdensome regulations and 
minimizing transactional costs, so that Federal funds are 
expended at the local, Tribal level. Today, 95 percent of 
Tribes carry out Federal transportation and road maintenance 
programs.
    In closing, I ask this committee to empower Tribal 
Government in the next reauthorization measure by giving Tribes 
the resources they need, primarily through the Tribal 
Transportation Program, the Tribal Transit Program, and through 
set-aside grants. Thank you for giving Tribes a platform today 
to share our needs and goals with the subcommittee to 
reauthorization. Thank you so much.
    [Mr. Garcia's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Joe A. Garcia, Head Councilman, Ohkay 
                             Owingeh Pueblo
    Thank you Chair Norton, Ranking Member Davis, and Members of the 
Subcommittee for the opportunity to provide testimony on the importance 
of surface transportation infrastructure for Indian country. My name is 
Joe Garcia, and I am Head Councilman and former three term Governor of 
Ohkay Owingeh, the Co-Chair of the National Congress of American 
Indians (NCAI)-Intertribal Transportation Association (ITA) Tribal 
Transportation Task Force, a former two term President of NCAI, and the 
current Tribal Co-Chair of the Department of Transportation's Tribal 
Transportation Self-Governance Program (TTSGP) Negotiated Rulemaking 
Committee. Ohkay Owingeh is located 30 miles north of Santa Fe, New 
Mexico and 25 miles northeast of the Los Alamos National Laboratory.
    I, together with many Tribal elected officials, look forward to 
working with the members of the House Transportation and Infrastructure 
Committee to ensure that Federal transportation policies, including the 
next surface transportation reauthorization measure, honor the Nation's 
treaty and trust responsibilities to Tribes. The transportation needs 
of Indian country, like rural America, are great. Please build on the 
improvements to existing Federal transportation, public transit, and 
highway safety programs proposed by the Senate Environment and Public 
Works Committee's S. 2302, including its title IV, which includes many 
provisions supported by Tribes. At its annual meeting in Albuquerque in 
October, NCAI, by resolution (#ABQ-19-076), endorsed the Tribal 
provisions of S. 2302, urged Congress to support these provisions, and 
to enact reauthorization before the FAST Act expires this September.
    Tribes ceded millions of acres of their aboriginal lands to the 
United States and in return the Federal government promised, through 
signed treaties, statutes, Executive Orders, and Federal court 
decisions, to extend its protection to Tribal governments and to our 
citizens, and provide our peoples with the funds and resources to meet 
our basic needs for food, clothing, shelter, to provide us doctors, 
teachers, roads, and to give us the resources necessary to sustain our 
communities on the lands we reserved. That is the binding contract the 
United States entered into with Tribes, and from those treaties and 
other laws has arisen the United States' sacred trust responsibility to 
the Indian Nations and our peoples.
    For that reason, I am encouraged by Committee Chairman DeFazio's 
announcement last week of a transformational five-year, $760 billion 
investment in infrastructure. The United States and Tribes must move 
forward in close partnership to ensure that Indian country--like rural 
America--participates fully in this bold initiative. I am confident 
that Congress will find a way to pay for this infrastructure initiative 
that is so important to the future prosperity of the Nation.
    Fifty-five years ago, Congress enacted the Appalachian Regional 
Development Act of 1965. In that legislation, Congress found that the 
region, ``while abundant in natural resources and rich in potential, 
lags behind the rest of the Nation in its economic growth and that its 
people have not shared properly in the Nation's prosperity.'' Pub. L. 
89-4,  2. The same can be said of Indian country. The indigenous 
peoples of the United States have not shared properly in the Nation's 
prosperity. We must eliminate the pockets of poverty that persist in 
the country.
    The Appalachian region today is so much better off than it was in 
1965. The 13 States covered by the Appalachian Regional Commission have 
improved transportation infrastructure and, as a result, a higher 
standard of living because of the vision of the 89th Congress. That 
Congress, and every Congress since, believed that Federal 
appropriations can and should be targeted to a particular region and to 
a people who needed additional assistance. The Appalachian region and 
the entire Nation are the beneficiaries of that sage vision. We need 
that vision today.
    As of January 1, 2020, there are 574 sovereign Tribal Nations with 
a formal nation-to-nation relationship with the United States. 229 
Tribal Nations are located in Alaska, while 345 Tribes are located in 
34 other states. The total land mass under American Indian or Alaska 
Native jurisdiction is about 100 million acres, which would make Indian 
Country the fourth-largest state geographically in the U.S. 
Additionally, there are twelve tribal nations that have a larger land 
base than the state of Delaware, and the Navajo Nation, alone, would be 
the 42nd-largest state. According to the 2010 Census, 5.2 million 
people identified as American Indian/Alaska Native (AI/AN) alone or in 
combination with other races, which would make Indian Country the 22nd 
most populous state.
    In FY 2019, States divided over $50 billion in Federal-Aid Highway 
Program and Mass Transit funds to meet their infrastructure and public 
transit needs. By comparison, in FY 2019, after reducing Federal 
appropriations due to the obligation limitation deduction, and 
deductions for BIA and FHWA administrative costs, some 570 Tribes 
shared about $401 million in Tribal Transportation Program (TTP) funds 
for infrastructure needs, and $35 million in Tribal Transit ``Public 
Transportation on Indian Reservation'' funds. Tribes receive 8/10th of 
one percent of States.
    Indian country needs additional Federal assistance. What little 
data exists shows that Indian country continues to fall behind. I ask 
that you envision a brighter future for Indian country that is only 
possible with targeted and sustained Federal assistance. I encourage 
this Subcommittee to think big when it considers the transportation 
funding needs of 574 federally-recognized Tribes. Do for Tribes in the 
next reauthorization measure what the 89th Congress did for the 
Appalachian region in 1965 and Indian country and entire Nation will 
reap a bountiful harvest.
I. Tribes and the Department of Transportation Negotiated a Consensus 
        Draft Rule for the FAST Act's Tribal Transportation Self-
        Governance Program that Honors Key Principles of Self-
        Governance
    I want to personally thank Committee Chairman DeFazio, Ranking 
Member Graves, Chair Norton, Ranking Member Davis, and the entire 
Committee for including the Tribal Transportation Self-Governance 
Program in the FAST Act (Pub. L. 114-94,  1121), and directing the 
Department of Transportation to consult meaningfully with Tribes in the 
drafting of the regulation to implement this important Federal program 
for Tribes.
    What is Tribal self-governance? As former Congressman George Miller 
noted: ``The nature of Self-Governance is rooted in the inherent 
sovereignty of American Indian and Alaska Native tribes. From the 
founding of this nation, Indian tribes and Alaska Native villages have 
been recognized as 'distinct, independent, political communities' 
exercising powers of self-government, not by virtue of any delegation 
of powers from the federal government, but rather by virtue of their 
own innate sovereignty.'' \1\ The modern day bipartisan Federal policy 
of Tribal self-governance authorizes the transfer from Federal agencies 
to Tribal governments of the day-to-day administration of federal 
programs enacted for their benefit, together with Federal funds, in the 
most efficient and streamlined manner, a simple compact and funding 
agreement, reducing burdensome regulations and minimizing 
``transactional costs'' so that Federal funds are expended where they 
are most needed--at the local Tribal level.
---------------------------------------------------------------------------
    \1\ House Rep. No. 105-765, 105th Cong., 2d Sess., House Resources 
Committee, Tribal Self-Governance Amendments of 1998, Additional Views, 
Oct. 2, 1998, p. 54.
---------------------------------------------------------------------------
    As one of the two Tribal Co-Chairs to the Department of 
Transportation's Negotiated Rulemaking Committee, I am pleased to 
report that the joint Tribal-Federal Negotiated Rulemaking Committee, 
created under the legislation, has developed a consensus draft rule, 
which the Rulemaking Committee should complete by March of this year, 
with the able assistance of facilitators from the Federal Mediation and 
Conciliation Service (FMCS).
    I am grateful to Transportation Secretary Chao and her staff for 
supporting the Tribal request in 2018 to use FMCS to help us find 
common purpose and to resolve our differences through interest-based 
bargaining. It worked and we all are so much better off for it. We have 
some disagreement issues. They are significant and mostly concern 
issues that have a cost component, such as Tribal eligibility for 
Contract Support Cost funds, lease payments, and the Department's 
timely establishment of an Office of Self-Governance and an advisory 
committee to implement the Program at the Department. I hope the 
Department reconsider and accepts the Tribes' positions. Under the 
legislation, the Department must publish the final rule for the Program 
by June 1, 2020. I am confident that the Department will meet the 
deadline. The full Rulemaking Committee will meet next month to review 
the public comments and finalize the rule.
    Tribes qualify for the new Program by demonstrating to the 
Department's satisfaction that they possess the requisite financial 
management capability and transportation program management capability. 
Once eligible, Tribes can negotiate a simply award instrument and fold 
into that agreement program duties and associated funds from FHWA 
transportation and safety programs, FTA transit, FAA, NHTSA, as well as 
Federal-Aid funds (when a State agrees to transfer such funds to a 
Tribe), reduce administrative burdens, and focus on the business of 
building transportation infrastructure for their communities. It's that 
simple.
II. Empower Tribal Governments in the Next Reauthorization Measure by 
        Giving Tribes the Resources and Assistance Required to Improve 
        the Transportation Infrastructure and Transit Systems and Build 
        Strong Partnerships with Other Transportation Stakeholders.
            1. The Federal policy of Self-Determination and Self-
                    Governance has transformed and Empowered Tribal 
                    Governments.
    The bipartisan Federal policy of Tribal self-governance and self-
determination dates back to 1975 with the enactment of the Indian Self-
Determination and Education Assistance Act (ISDEAA), Pub. L. 93-638, 25 
U.S.C. 5301 et seq., has empowered Tribal governments. The ISDEAA 
removed the question of whether a Tribe or Tribal Organization could 
assume programs and services of the Department of the Interior and 
Department of Health and Human Services (DHHS), or whether Tribes were 
entitled to the same level of funding the respective Secretaries were 
given by Congress to carry out such programs, together with 
administrative overhead costs, known as Indirect Costs and Contract 
Support Costs (CSCs).
    Over the last 45 years, Tribal nations have contracted, assumed, 
and taken control over federal programs for housing, law enforcement, 
social services, health care, environmental programs, road maintenance, 
rights-of-way, and the planning, design, construction, and 
reconstruction of roads and bridges. In 1988, Congress established the 
Tribal Self-Governance Program which further empowered Tribes to 
redesign and consolidate Federal programs as Tribes determined best to 
meet the needs of their citizens.
    In 1994, Congress established a permanent self-governance program 
at the Department of the Interior (title IV of the ISDEAA) and, in 
2000, at the Department of Health and Human Services (title V of the 
ISDEAA) and given Tribes the discretion, authority, and flexibility to 
redesign or consolidate federal programs to best ``meet the needs of 
their communities consistent with their diverse demographic, 
geographic, economic, cultural, health, social, religious, and 
institutional needs,'' 25 C.F.R.  1000.4(c)(6) (Secretarial self-
governance policies), and without any modification or diminishment of 
the trust responsibility owed by the United States to Indian tribes and 
individual Indians that exists under treaties, Executive Orders, other 
laws, or court decisions. 25 U.S.C.  5366(b) (title IV) and 5387(g) 
(title V). Tribes are grateful that the Committee and Congress extended 
the Tribal Transportation Self-Governance Program to the Department of 
Transportation in the FAST Act.
    These laws, and the experience of carrying out governmental 
services, have built strong Tribal governments with the administrative 
capacity and resources to develop programs, systems and standards, hire 
and train dedicated Tribal personnel to oversee and carry out the 
programs, account for federal funds, and provide independent audits to 
the federal awarding agencies. Under the ISDEAA, every Tribe that meets 
the statutory threshold regarding receipt of Federal funds must 
complete an independent audit under the Single Audit Act Amendments of 
1996 pursuant to the requirements of the statute and the Uniform 
Administrative Requirements, Cost Principles and Audits Requirements 
for Federal Awards (2 CFR Part 200).
    According to a recent report of the Federal Highway Administration 
(FHWA) regarding the Tribal Transportation Program (TTP), as of FY 
2017, 131 Tribes operated their TTP program through agreements directly 
with FHWA; 205 Tribes carried out the TTP under title I Self-
Determination Act contracts with the BIA; 187 Tribes performed their 
TTP duties under TTP Agreements with the BIA; and 23 Tribes carried out 
TTP duties under title IV Self-Governance compacts with the BIA. Thus, 
546 Tribes carry out the Secretary of the Interior's duties for the 
Tribal Transportation Program with growing confidence and ability. 
These numbers amply illustrate Tribal transportation capacity.
            2. Indian Nations are Public Authorities and have 
                    responsibilities, just like States and counties, to 
                    build and maintain safe transportation 
                    infrastructure and transit systems with the 
                    assistance of the United States in accordance with 
                    the Federal Government's trust responsibilities to 
                    Tribes and Tribal citizens.
    Tribal governments are ``public authorities,'' defined under 
Federal law as a ``Federal, State, county, town, or township, Indian 
tribe, municipal or other local government or instrumentality with 
authority to finance, build, operate, or maintain toll or toll-free 
facilities.'' 23 U.S.C.  101(a)(21). Tribes work diligently to improve 
and maintain public transportation and transit systems with limited 
funds, and coordinate with county, city, RPOs, MPOs, State, and Federal 
agencies. But Tribal transportation infrastructure and transit systems 
do not compare to our non-Indian neighbors. Tribes lack the funds 
required to plan, design, and maintain modern transportation and 
transit systems. We need more resources to hire and retain personnel to 
interact and engage with other transportation stakeholders. We cannot 
do the work alone. We must build partnerships to combine our resources, 
and collaborate on projects of mutual benefit.
    According to the most recent National Tribal Transportation 
Facility Inventory (NTTFI), there are approximately 161,000 miles of 
roads and trails in Indian Country eligible for federal funding. Of 
those, 29,400 miles are BIA System routes, 75 percent of which are 
gravel, earth, or primitive routes. Tribes and the BIA maintain the 
routes. Tribal nations own and maintain 13,650 miles of roads and 
trails, of which only 7.3 percent (1,000 miles) are paved. The other 
12,650 miles are gravel, earth, or primitive. Many of these unimproved 
routes are school bus routes. Altogether, the 42,000 miles of BIA and 
Tribal roads in Indian Country are still among the most underdeveloped, 
unsafe, and poorly maintained road networks in the nation, even though 
they are the primary means of access to American Indian and Alaska 
Native communities by Native and non-Native residents and visitors. 
Only this Committee can authorize more funds to pave these routes. Road 
maintenance funds only maintain the existing surface--whatever its 
condition.
    The BIA recently conducted a road maintenance survey that found 
that the total dollar value of deferred road maintenance for surveyed 
stakeholders is estimated at $498 million. The survey also found that 
more funding was the number one priority of stakeholders, followed by 
equipment needs.\2\ Data indicated that Tribal nations are using Tribal 
Transportation Program (TTP) funds--that could otherwise be used for 
road construction or improvement--to address road maintenance needs as 
is authorized by Federal law (23 U.S.C.  202(a)(8)). The survey 
estimated that the expenditures for road maintenance in FY 2017 were 
more than double the allocated amount of funding for the BIA Road 
Maintenance program in FY 2017 of $30.3 million.\3\ Borrowing funds 
from the TTP to backfill the underfunded BIA Road Maintenance Program 
results in a drag on the construction, maintenance, and overall safety 
of roads throughout Indian country.
---------------------------------------------------------------------------
    \2\ Tribal/Interior Budget Council, Roads Maintenance Subcommittee 
Presentation, November 15, 2018. http://www.ncai.org/TIBC-
Nov201_ROADS_Subcmte_Preso.pdf
    \3\ Id.
---------------------------------------------------------------------------
    Having safe, well-maintained tribal roads, bridges, and adequate 
public transportation is vital to public safety, commerce, and tourism 
in tribal communities and benefits tribal citizens and those living in 
and around Indian Country. Congress has long recognized that for 
economic development to take root there must be community stability, 
and it begins with essential infrastructure, including roads and 
transit systems, safe drinking water, utilities, broadband, good 
schools, health facilities, and access to markets and job 
opportunities. Too often, however, Federal appropriations for Tribes 
are wholly inadequate to the task and, as a result, Tribal governments 
struggle to maintain existing institutions and facilities and carry out 
essential government services. With Federal assistance, we can improve 
the condition of our infrastructure. Like the States, we need a strong 
Federal presence in the next reauthorization measure to bring lasting 
change and to build the economies of our Tribes to meet the challenges 
of the 21st Century.
            3. Indian Country roads are unsafe, outdated, and 
                    contribute to the transportation barriers that 
                    separate Tribal lands from markets, business 
                    opportunities, education, healthcare and jobs.
    Our existing road systems create transportation barriers which must 
be eliminated if we are to maintain our existing Tribal and non-Indian 
residents, and attract businesses, tourism, and jobs to sustain our 
peoples. Every Federal policy for Indian country is hindered and made 
more difficult by the poor state of transportation infrastructure, 
transit, and highway safety in Indian country. Our third-world 
transportation systems undermine public safety, education, health care, 
job opportunities, and slow or eliminate economic development 
opportunities. This is especially so in the Nation's most remote and 
rural reservations and Alaska Native villages. The few statistics 
regarding motor vehicle and pedestrian fatalities among American 
Indians and Alaska Natives indicate that our populations are at a much 
greater risk of death than other Americans. These preventable deaths 
tear the fabric of Tribal communities and leave scars that seldom heal.
    According to FHWA, motor vehicle crashes caused an average of 655 
fatalities each year in tribal areas.\4\ Motor vehicle crashes are the 
leading cause of unintentional injury death for AI/ANs under the age of 
20.\5\ Additionally, motor vehicle-related death rates for AI/ANs ages 
20 and older are more than twice that of non-Hispanic whites, and AI/AN 
infants have a motor vehicle death rate that is eight times higher than 
that of non-Hispanic whites.\6\ This is frightening.
---------------------------------------------------------------------------
    \4\ Federal Highway Administration, Transportation Safety in Tribal 
Areas, FHWA-HRT-18-004, Vol. 82 No. 2, https://www.fhwa.dot.gov/
publications/publicroads/18summer/02.cfm
    \5\ CDC, Tribal Road Safety: Get the Facts, https://www.cdc.gov/
motorvehiclesafety/native/factsheet.html
    \6\ Id.
---------------------------------------------------------------------------
    Despite these startling statistics, appropriations for tribal road 
safety remains woefully underfunded, especially when compared to 
funding for States. In FY 2018, State Departments of Transportation 
shared $2.23 billion in Highway Safety Improvement Program (HSIP) funds 
(23 U.S.C.  402).\7\ By comparison, Tribes compete for $8.9 million in 
TTP safety grants (23 U.S.C.  202(e)) and a few Tribes share $5.2 
million from BIA's Indian Highway Safety Program (IHSP) (23 U.S.C.  
402, 2% set-aside). States receive recurring Federal appropriations for 
highway safety. So should Tribes. Otherwise, the horrific motor vehicle 
statistics in Indian country will continue. Tribes need recurring 
funding to reduce DUIs, increase seat belt use and child safety seat 
use, and make highway safety improvements. Please address this unmet 
need in reauthorization.
---------------------------------------------------------------------------
    \7\ Federal Highway Administration, Distribution of Highway Safety 
Improvement Program (HSIP) Funds Apportioned for FY 2018, https://
www.fhwa.dot.gov/legsregs/directives/notices/n4510824/n4510824_t12.cfm
---------------------------------------------------------------------------
    As I testified last year before the Senate Indian Affairs 
Committee, there is great need for additional surface transportation 
funding and data in Indian Country. In December of 2018, the U.S. 
Commission on Civil Rights released its report, titled Broken Promises: 
Continuing Federal Funding Shortfall for Native Americans, as an update 
to its 2003 A Quiet Crisis report.\8\ The Broken Promises report 
emphasizes federal underinvestment in transportation and other 
infrastructure in Indian Country and discusses how the lack of 
investment causes significant safety concerns, interrupts the provision 
of tribal government services, and affects the overall health of tribal 
economies.\9\ In addition to the chronic underinvestment in the 
physical infrastructure of Tribal communities, the Commission's report 
goes on to highlight the ``severe lack of public transportation in 
Indian Country.'' \10\
---------------------------------------------------------------------------
    \8\ U.S. Commission on Civil Rights, Broken Promises: Continued 
Federal Funding Shortfall for Native Americans, https://www.usccr.gov/
pubs/2018/12-20-Broken-Promises.pdf
    \9\ Id.
    \10\ Id., citing U.S. Senator Byron L. Dorgan, Testimony before the 
Senate Committee on Indian Affairs, July 12, 2007, https://www.gpo.gov/
fdsys/pkg/CHRG-110shrg37860/html/CHRG-110shrg37860.htm
---------------------------------------------------------------------------
    In May 2017, the U.S. Government Accountability Office (GAO) 
conducted a study on tribal transportation data, road management, and 
student attendance. GAO found that the NTTFI and Deferred Maintenance 
Reporting (DMR) systems contain incomplete and inconsistent road 
description and condition data that affect program efficiency and 
delivery. As a result, reports and budget submissions that rely on 
these datasets ``may not accurately reflect road conditions or 
maintenance needs and associated costs . . . inhibit[ing] the ability 
of Congress'' and the appropriate bureaus, offices, and agencies to 
make better-informed decisions about priorities and the transportation 
system as a whole.\11\
---------------------------------------------------------------------------
    \11\ U.S. Government Accountability Office, Tribal Transportation: 
Better Data Could Improve Road Management and Inform Indian Student 
Attendance Strategies, GAO-17-432, p. 47 (May 22, 2017).
---------------------------------------------------------------------------
    GAO also identified the significant practical impacts of poor 
tribal road conditions. The report concluded that road conditions on 
tribal lands pose challenges ``in connecting people to education, 
employment, healthcare, and other essential services,'' which are 
magnified during adverse weather due to remoteness and existing road 
conditions.\12\ Additionally, GAO concluded that road conditions affect 
student attendance \13\ and rough road conditions can increase 
maintenance needs for school vehicles.\14\ To remedy these conditions, 
Congress must better target Federal appropriations and funds to Tribes.
---------------------------------------------------------------------------
    \12\ Id.
    \13\ Id.
    \14\ U.S. Government Accountability Office, Highlights of GAO-17-
432, https://www.gao.gov/products/GAO-17-423
---------------------------------------------------------------------------
            4. Tribes are good stewards of Federal appropriations; 
                    Invest in Tribes by increasing Federal 
                    appropriations in transportation formula and 
                    discretionary and competitive grant programs 
                    enacted for the benefit of Tribes or for which 
                    Tribes may compete as public authorities
    Over the last five decades, Tribes have developed financial 
management, property management, and procurement management systems and 
standards to efficiently operate Tribal and Federal programs. Tribes 
have demonstrated the transportation program management abilities to be 
good stewards of Federal transportation funds. Making Tribes direct 
recipients of Federal transportation programs places Federal dollars in 
the hands of the local government, the government most responsive to 
the needs of Tribal citizens and residents, minimizes regulatory 
burdens, saves money and time, builds and maintains Tribal capacity and 
confidence in the transportation arena, and sustains Tribal economies.
    I urge the Committee to take into account the capacity of Tribal 
governments to effectively administer Federal transportation 
infrastructure programs, transit systems, and highway safety projects 
to benefit their citizens, together with the great unmet transportation 
construction, transit, and highway safety needs they face when 
determining authorization levels in reauthorization. I recommend that 
in the reauthorization of the FAST Act, Congress consider the 
following:

    1.  Tribal Transportation Program--Significantly increase the 
authorization level for the Tribal Transportation Program for each year 
of reauthorization; TTP funds are the most flexible Federal dollar 
awarded to Tribes and can be used for many purposes to further 
transportation planning, design, purchase of heavy equipment, perform 
deferred and emergency road maintenance work, undertake NEPA 
environmental studies, subsidize transit, perform highway safety 
improvements, and cover administrative overhead costs;

    2.  FTA Tribal Transit Program--Significantly increase the 
authorization for the FTA's ``Public Transportation on Indian 
Reservations'' Tribal Transit Program, 49 U.S.C.  5311(c), including 
the formula and discretionary grant programs;

    3.  Restore a Tribal High Priority Projects Program--Like S. 2302, 
restore a Tribal High Priority Projects Program (HTF) for all Tribes so 
that Tribes can compete, among Tribes, to fund their highest priority 
transportation project or address a road emergency;

    4.  Make Tribes, as Public Authorities, Eligible for All Federal 
Competitive and Discretionary Grant Programs--Tribes should be eligible 
to compete for direct Federal assistance from the Department of 
Transportation, rather than being a sub-recipient of a State or county. 
Too often, the award instruments used by States and counties include 
provisions that demand a waiver of Tribal sovereign immunity, 
submission to State courts, and other provisions that force Tribes to 
decline the grant;

    5.  Lower Dollar Thresholds and Increase the Federal share to 
100%--Like S. 2302, lower the dollar thresholds for such grant programs 
as the Nationally Significant Federal Lands and Tribal Projects 
(NSFLTP) Program, and increase the Federal share of grants to Tribes to 
100%, to better ensure that more Tribes actually receive Federal 
competitive grants to improve their transportation and transit systems;

    6.  Include More Tribal Set-Asides in Existing Federal Grant 
Programs--There is a cost to every public authority to compete for 
Federal discretionary and competitive grants. Tribes are often at a 
disadvantage when competing with States, counties, cities and townships 
for Federal grants. By including a dedicated source of Federal funds 
that Tribes alone can compete for, Congress will ensure that more 
Federal appropriations go to Tribes to address their unmet 
infrastructure needs. Historically, Tribes receive a tiny fraction of 
Federal discretionary and competitive transportation infrastructure and 
highway safety grants, such as TIGER and BUILD grants, despite their 
terrible road conditions and motor vehicle and pedestrian fatality 
rates;

    7.  Direct the Department of Transportation to Establish an Office 
of Self-Governance and create a Self-Governance Advisory Committee--
Like the Departments of the Interior and Health and Human Services, 
which have decades' old Tribal Self-Governance Programs, the Department 
of Transportation should promptly establish an Office of Self-
Governance when the final rule for the Tribal Transportation Self-
Governance Program takes effect this year. Instead, the timing of when 
to establish such an office at the Department, and whether the 
Department will ever create a Self-Governance Advisory Committee, are 
non-consensus issues in the proposed rule (see 84 Fed. Reg. 52706, 
52710, Oct. 2, 2019). If the government-to-government relationship is 
to have relevance, and if the Department is to provide meaningful and 
timely consultation with Tribes concerning the Program, Congress should 
include statutory language in the reauthorization measure and provide 
funding to the Department to do so. We encourage the Committee to press 
the Department on this. See S. 2302,  4009; and

    8.  Tribal Technical Assistance Program (TTAP)--The Tribal 
Technical Assistance Program (TTAP) is the only program for the road 
construction personnel of Tribal Nations to build their capacity and 
maintain certification for operating heavy equipment through training 
and technical assistance from experts who oversee and construct 
highways and roads in tribal communities. In the Fall of 2016, FHWA 
announced the restructuring of the TTAP and eliminated the seven TTAPs 
around the country that served all federally-recognized tribal nations. 
In December 2017, the FHWA announced a two-year pilot program and 
centralized the TTAP at the University of Virginia, Center for 
Transportation Studies (CTS) in Virginia. The entire restructuring and 
implementation by FHWA of the pilot program proceeded without 
meaningful tribal consultation. The pilot program has now been 
suspended by FHWA. The program remains an important resource to improve 
the technical expertise of tribal transportation officials. 
Accordingly, Congress should ensure Tribes are actively consulted on 
the Program's future and provide a $5 million increase in TTAP funding.

    The relationship between Tribes and the Federal government is 
eternal. So long as there is a Constitution that begins ``We the 
people,'' we must work together for our mutual benefit. Safe and 
reliable transportation infrastructure is vital to the enhancement of 
Tribal economic development and to the wellbeing of Tribal communities 
and surrounding non-tribal areas.
    Thank you for the opportunity to testify at this important 
oversight hearing.

    Ms. Norton. Thank you, Councilman Garcia.
    We will hear next from Mary Beth Clark, president of the 
Intertribal Transportation Association.
    Ms. Clark. Good morning, Chair Norton, and Ranking Member 
Davis, and members of the subcommittee. Thank you for inviting 
me to testify today concerning Tribal transportation needs. My 
name is Mary Beth Clark, and I am an enrolled Tribal member of 
the Nez Perce Tribe on my father's side and Klamath on my 
mother's. For the last 12 years, I have been the transportation 
manager for the Nez Perce Tribe. I serve on the Department of 
Transportation's Negotiated Rulemaking Committee, and a 
regulatory body that provides input to FHWA and BIA concerning 
the Tribal Transportation Program.
    I have worked in Indian affairs for over 25 years. I 
testify today as the president of the Intertribal 
Transportation Association, which is called ITA, a nonprofit 
Tribal advocacy association which represents the transportation 
interests of Tribes.
    There are great unmet transportation infrastructure needs 
in Indian country. ITA urges the subcommittee in your 
reauthorization bill to support and build on the Senate bill, 
S. 2302, the Tribal provisions, some of which include ITA 
recommendations. Tribes thank the committee for elevating 
Tribal transportation needs at the Department of Transportation 
by including us as a witness today.
    Infrastructure is the greatest catalyst to accelerate 
economic development and growth, especially in rural America, 
where the most Tribes' members live, and where transportation 
infrastructure lags behind the rest of the Nation. It is 
important that Congress hear and respond favorably to Tribal 
voices as you develop the reauthorization measure.
    The level of Federal appropriations today often spells the 
difference between the success or failure of the Tribal 
Transportation Programs. Unfortunately, American Indians and 
Alaska Natives are dying in preventable motor vehicle crashes 
well above the national level, due, in part, to poor conditions 
of our roads and a lack of safety features and behavioral 
issues.
    Roads and bridges in Indian country today are known for 
their poor maintenance. A majority of these are unimproved dirt 
and gravel roads, great distances to trauma centers and 
emergency responders, and have poor signage. But too often, 
Federal appropriations are insufficient to the needs of Tribes.
    Unmet deferred highway reconstruction and road maintenance 
needs in Indian country are difficult to qualify, because there 
are BIA-owned roads and bridges, Tribally owned roads and 
bridges, State and county townships and routes. But Tribes can 
assure you, the numbers are in the billions in these unmet 
needs and harm Indian country and Indian people in undetermined 
economic growth.
    The National Highway Traffic Safety Administration captures 
important aspects of successful traffic safety in expressions 
of the four E's, which is engineering, enforcement and 
regulations, education and information, and emergency response. 
I discuss the ``golden hour'' in the written testimony I 
provided. If a victim of a motor vehicle crash can reach a 
trauma center within 60 minutes to receive medical care, there 
is a likelihood that they will survive and not die from their 
injuries. Unfortunately, there is seldom that golden hour in 
Indian country.
    I close by highlighting a few of ITA's recommendations: 
Significantly increase the authorization funding level for the 
Tribal Transportation Program each year; restore the High 
Priority Projects Program funded with Highway Trust Funds; 
restore the exemption that once existed in Indian Reservation 
Roads, but is now called TTP, from the obligation limitation 
deduction; direct the Department of Transportation to establish 
the Office of Self-Governance and create the Self-Governance 
Advisory Committee; take into account the fact that Tribes use 
Federal transportation program funds to help with their road 
maintenance when setting your funding levels; and significantly 
increase the authorization level for Federal Transit 
Administration, FTA, Tribal Transit Programs, lower the dollar 
threshold for Tribes in competitive grants and raise the 
Federal share to 100 percent.
    I thank you for this opportunity to testify, and it has 
been an honor. Thank you.
    [Ms. Clark's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Mary Beth Clark, President, Intertribal 
                       Transportation Association
                            I. Introduction
    Good morning Chair Norton, Ranking Member Davis, and Members of the 
Subcommittee. Thank you for inviting me to testify today concerning 
Tribal transportation construction, transit, and highway safety needs. 
My name is Mary Beth Clark, I am an enrolled Nez Perce on my father's 
side and Klamath on my mother's side. I reside in Lapwai, Idaho located 
on the Nez Perce Reservation, where the Tribe's governmental and 
administrative offices are located, about 10 miles from the Idaho-
Washington State border along the Snake River.
    I speak to you today as the newly elected President of the 
Intertribal Transportation Association (ITA), a non-profit Tribal 
advocacy association that first met in Polson, Montana in 1993. ITA 
represents the transportation interest of the Tribal nations, and was 
created to foster the development, operation, and maintenance of 
transportation systems that serve the American Indian and Alaska Native 
peoples. There are great unmet transportation construction, transit, 
and highway safety needs in Indian country. ITA issued a 
reauthorization proposal last summer. I am pleased that the Senate 
Environment and Public Works Committee in its reauthorization measure, 
S. 2302, included a number of ITA's recommendations. At our December 
meeting, ITA passed Resolution 2019-01 in support of S. 2302's Tribal 
provisions and we urge Congress to support and build on the Senate 
measure's Tribal provisions.
    ITA exists to assist every Tribe develop their transportation 
systems, keep Tribes informed on legislative/Federal actions, assist in 
coordinating training, and facilitate the government-to-government 
relationship between the United States government and the Indian 
Nations so that Tribal voices and Tribal viewpoints are shared and 
heard by Federal agency officials, Members of Congress and your staff. 
ITA, like so many other Tribal organizations, is here to inform you 
that the level of Federal appropriations often spells the difference 
between the success or failure of federal programs enacted for the 
benefit of Indian tribes. Please keep this in mind as you draft the 
reauthorization measure for the Nation.
    ITA welcomes the opportunity to share our Tribal members' views and 
recommendations with the Subcommittee today as you access the 
transportation needs of Tribes and draft the next reauthorization bill, 
a measure every American hopes will recommit the United States to the 
business of transportation infrastructure. Infrastructure is the 
greatest catalyst to accelerate economic development and growth, 
especially in rural America where most Tribal members live.
    For the last twelve years, I have been the Transportation Manager 
for the Nez Perce Tribe. I have a BA and Master's degree in Urban and 
Regional Planning from Eastern Washington University. I have worked in 
Indian Affairs for over 25 years, including a dozen years as the 
Economic Development Planner, Planning Manager for the Confederated 
Tribes of the Colville Reservation in Washington State, and two years 
as the Senior Tribal Policy Advisor for the Environmental Protection 
Agency Region 10. I am the Affiliated Tribes of Northwest Indians 
(ATNI) Co-Chair of the Transportation Committee, the Northwest 
representative on the Tribal Transportation Program Coordinating 
Committee (a joint Tribal-Federal regulatory body making 
recommendations to the Federal Highway Administration (FHWA) and Bureau 
of Indian Affairs (BIA) concerning the Tribal Transportation Program), 
the Northwest representative on the Department of Transportation's 
Tribal Transportation Self-Governance Program Negotiated Rulemaking 
Committee, and the Palouse RTPO Advisory Committee member. I have been 
active in Tribal transportation issues for decades.
    I thank Chairman DeFazio and Ranking Member Graves, Chair Norton 
and Ranking Member Davis, and the entire Committee for your advocacy 
and support on behalf of Tribes. As a representative of my Tribe and 
Region who has participated in the negotiated rulemaking to extend 
Tribal Self-Governance to the Department of Transportation since 2016, 
I am proud that Congress, and this Committee in particular, supports 
the aspirations of the Indian Nations and Tribal citizens to improve 
transportation infrastructure on our reservations and make our 
communities safer and prosperous, so that we may maintain our culture, 
languages, and values and pass them down to our children and 
grandchildren. The rulemaking is nearly complete. We hope that you will 
support Tribes in our request to the Department to establish an Office 
of Self-Governance this year when the regulation takes effect.
    The Nez Perce Reservation is about three-quarters of a million 
acres in size, with 3,543 Tribal citizens, and approximately 1,800 
miles of public roads representing the Tribe's ``Tribal Transportation 
Facility'' system. Of that amount, only 95 miles (5%) are BIA-System 
and Tribally-owned routes and routes that qualify for funding under the 
TTP. In FY 2019, with an authorization of $495 million for the Tribal 
Transportation Program, the Nez Perce Tribe received about $525,000 as 
our TTP funding allocation and $12,000 for transportation planning, for 
a total FY 2019 award of $537,000.
    The Tribe also receives $45,000 in BIA Road Maintenance Program 
funds under an Indian Self-Determination and Education Assistance Act, 
Pub. L. 93-638, contract between the Tribe and the BIA that permits us 
to assume the duties of the Secretary of the Interior for road 
maintenance on the reservation. Under our BIA contract, we receive less 
than $472 to maintain a mile of road. States and counties have far more 
resources to maintain State and county routes. That is why our TTP 
funds, under this Committee's jurisdiction, are so important.
    Tribal governments are ``public authorities'' responsible for the 
construction and maintenance of transportation systems to serve Tribal 
citizens and all residents, Indian and non-Indian. They are the 
partners of the Federal government, States, counties, boroughs and 
townships and have the capacity and capability to put Federal 
appropriations to good use for the benefit of their Tribal citizens and 
residents. Invest in Tribes as you invest in the States.
    With regard to your deliberations this Congress over how to pay for 
a robust reauthorization measure for the Nation, whether it be Vehicle 
Miles Traveled (VMT) or an increase to the Federal fuels tax, please 
keep Tribes in mind in any solution you develop. If VMT is used as a 
means to finance highway construction, transit, and safety programs, 
Tribes must have a means to receive and use a share of such revenues 
for VMTs that are generated on Tribal lands in order for Tribes to 
maintain their transportation facilities. Too often, State-owned and 
county-owned routes that cross Indian reservations are not properly 
maintained by the facility owner, and BIA system and Tribal routes 
don't receive the federal support they require. Overweight trucks and 
heavy traffic wears out such routes. Tribes cannot repair such public 
routes without recurring Federal funds. Poorly maintained routes have 
shortened useful lives and are hazards to all motorists. Infrastructure 
worth having is worth paying for.
      II. The Challenge Tribes and the United States Face Together
    Roads and bridges in Indian country today are known for their poor 
maintenance (paved, gravel, or dirt), great distances to trauma 
centers, few first responders, lack of highway safety features, and 
sun-bleached and wind-worn signage. But too often, Federal 
appropriations are insufficient to the needs of Tribes. The resulting 
harm to American Indian and Alaska Natives from too few Federal 
appropriations, and the consequential poor condition of Indian country 
roads, bridges, ferries, and transit systems, is tragic. According to 
the Centers for Disease Control:
    <bullet>  Motor vehicle crashes are a leading cause of 
unintentional injury death for American Indian/Alaska Natives (AIANs). 
Among adult AIANs, motor vehicle-related death rates are more than 
twice that of non-Hispanic Caucasians or African Americans;
    <bullet>  Among AIANs aged 1 to 19, motor vehicle crashes are the 
leading cause of unintentional injury death;
    <bullet>  Among AIAN infants less than one year of age, motor 
vehicle traffic death rates are eight times higher than that of non-
Hispanic Caucasians.

    These statistics cry out for more Federal resources.
    Decades ago, when considering amendments to the Indian Self-
Determination and Education Assistance Act, Pub. L. 93-638, Congress 
acknowledged that the needs of Indian country and rural America were 
the same. The conditions for successful economic development on Indian 
lands are founded on community stability that begins with 
infrastructure. There must be adequate law enforcement and judicial 
systems and basic human services, including roads, safe drinking water, 
wastewater, power and communication utilities. When these systems are 
in place, Congress understood that Tribes are in the best position to 
implement economic development opportunities, empower their Tribal 
citizens, and build the economies of their reservations.\1\ Without 
such basic infrastructure, community stability becomes uncertain as 
young professionals and families seek better opportunities elsewhere.
---------------------------------------------------------------------------
    \1\ S. Rep. No. 100-274, 100th Cong. 1st Sess., p. 4.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                     Fort Peck Reservation, Montana
                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     Fort Peck Reservation, Montana

    As you can see from the above photos, roads in Indian country don't 
look like roads in metropolitan areas like Washington, D.C. If the 
route is a school bus route, elementary school children, with long bus 
rides, must find alternate routes to school, and endure longer rides. 
Rurality, the lack of EMS services and trauma centers, the condition of 
Tribal roads and bridges, the lack of proper routine and emergency road 
maintenance, and the ills of poverty, combine to make Tribal 
transportation facilities some of the most dangerous roads in America.
    In FY 2017, the last budget justification submitted to Congress by 
the Administration that detailed the program performance level of 
funding for the BIA Road Maintenance Program (Interior, Environment and 
Related Agencies appropriations), the Administration noted that at a 
funding level of $27 million, the BIA Road Maintenance Program--carried 
out by BIA and Indian Tribes--could provide ``sufficient maintenance'' 
to classify only 16% of BIA-owned roads as acceptable in terms of 
surface condition (fair or better as measured by the Service Level 
Index (1-5, with fair being Level 3), and provide ``sufficient 
maintenance'' to classify only 62% of the BIA-owned bridges in 
``acceptable'' condition based on the Service Level Index. This means 
that 84% of BIA-owned roads are in less than fair condition (Level 4 
(poor) or Level 5 (Failing), along with 38% of BIA-owned bridges. There 
are 29,400 miles of BIA-owned roads, of which only 7,150 miles are 
paved, and 900+ bridges. I cannot think of another Federal program that 
sets so low a bar for recurring funding (16%) to achieve the agency's 
mission. Leaving 84% of 29,400 miles of BIA System roads in poor and 
failing condition is unacceptable. The solution to having so few BIA 
System roads paved is to fund the reconstruction of gravel and dirt 
roads, especially school bus routes. It is costly to maintain dirt and 
gravel roads. Regardless of how much money you spend to maintain a dirt 
or gravel road, it is still a dirt or gravel road.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Indian Country route in Arizona

    The above photo is typical in Indian country. A sign, listing the 
speed limit and warning of an upcoming curve, is obstructed by 
overgrown vegetation. Notice that the road has no shoulder. At night, 
the obscured signs, on a road with few safety features, may contribute 
to a motor vehicle crash that may cause injury or death to a motorist 
and passengers.
    Due to the unmet needs in the BIA Road Maintenance Program, Tribes 
must divert their Tribal Transportation Program (TTP) design and 
construction funds (Highway Trust Fund dollars), under this 
Subcommittee's jurisdiction, to supplement insufficient Federal 
appropriations for the BIA Road Maintenance Program. Most Tribes 
contract the Road Maintenance Program from the BIA under the Indian 
Self-Determination Act, Pub. L. 93-638, knowing that the Federal 
appropriation is insufficient for routine and emergency maintenance. As 
a result of this fund transfer, authorized by Federal law (23 U.S.C. 
202(a)(8)), Tribes receive and have less funds available to plan, 
design, reconstruct or build a new road or bridge, undertake a safety 
improvement project, or perform environmental studies. This is a drain 
on the Tribal Transportation Program (TTP). Please take this fund 
transfer into account as you consider the authorized funding level for 
the Tribal Transportation Program in reauthorization.
    The National Highway Traffic Safety Administration (NHTSA) captures 
the important aspects of successful traffic safety in the expression 
``the Four Es'' which stand for:
    <bullet>  Engineering;
    <bullet>  Enforcement and regulation;
    <bullet>  Education and information; and
    <bullet>  Emergency response.

    There is another principle known as the ``Golden Hour.'' Simply 
stated, if a victim of a motor vehicle crash can reach a trauma center 
within 60 minutes and receive medical care, there is a higher 
likelihood that they will survive and not die from their injuries, and 
that their recovery will be faster and less costly. Unfortunately, 
there is seldom a ``Golden Hour'' in Indian country when motorists or 
pedestrians are involved in a serious motor vehicle crash. Few first 
responders, too great a distance to a well-equipped medical trauma 
center. As a Nation, we must do better by Indian Tribes and think 
comprehensively about how to target these conditions to make Tribal 
roads safer.
              III. ITA Recommendations for Reauthorization
    Here are key recommendations ITA wishes to share with the 
Subcommittee:

    1.  Significantly increase the authorization funding level for the 
Tribal Transportation Program (TTP), and include generous stepped 
increases for each year of the reauthorization so that Tribes can 
address our unmet transportation needs;
     a)  Restore a Tribal High Priority Projects (HPP) Program, funded 
with Highway Trust Funds, to benefit small and large Tribes with a high 
priority project that a Tribe could not otherwise finance, or to fund 
disaster relief for key transportation infrastructure to restore the 
route (see S. 2302,  1101(a) and  1129);

    2.  Restore the exemption that once existed for the Indian 
Reservation Roads (now Tribal Transportation Program) from the 
obligation limitation deduction that permanently removes Federal funds 
from the Tribal Transportation Program; there is no ``August 
redistribution'' of withheld funds under the Program resulting from the 
obligation limitation deduction as there is with the State Federal-Aid 
Highway Program funds;

    3.  By legislation, direct the Department of Transportation to 
establish an Office of Self-Governance at the Department to oversee the 
Tribal Transportation Self-Governance Program (TTSGP), and to create a 
Tribal-Federal Self-Governance Advisory Committee (such as the 
successful TTP Coordinating Committee which provides Tribal input and 
recommendations to FHWA and BIA regarding the TTP (25 CFR   170.135-
170.137)), to help implement the TTSGP at the Department, and authorize 
appropriations to the Department to finance both entities (See S. 2302, 
 4009);

    4.  Since SAFETEA-LU was enacted in 2005, Tribes can use 25% of 
their TTP funds, or $500,000, whichever is greater, to carry out road 
maintenance on public roads in the Tribe's TTP inventory (23 U.S.C.  
202(a)(8)). Tribes make this choice to maintain such routes due to 
shortfalls in the BIA Road Maintenance Program (Interior, Environment 
and Related Agencies appropriation). Please take this reality into 
account when setting the authorization levels for the Tribal 
Transportation Program;

    5.  Make the Tribal Transportation Facility Bridge Program (23 
U.S.C.  202(d)) a stand-alone program, funded with Highway Trust 
Funds, and include authorization for the design and construction of new 
bridges (see S. 2302,  1119 (amending 23 U.S.C.  124(p)).

    6.  To improve highway safety for every Indian Tribe:
     a)  Significantly increase the authorization level for FTA's 
Public Transportation on Indian Reservations (5311(c)) Tribal Transit 
Program; the Tribal Transit Program is woefully underfunded at $30 
million (formula) and $5 million (competitive grants) and provides an 
important link for Tribal members and other residents to get to work, 
healthcare services, other governmental services, colleges, and 
commercial businesses in remote rural communities;
     b)  Increase or establish Tribal set-asides in important USDOT 
competitive and discretionary grant programs (e.g., BUILD grants) so 
that Tribes are direct recipients and actually receive Federal 
supplemental funds (See e.g., S. 2302,  1119(a) (NSFLTP Program),  
1125(b) (Wildlife Crossing Safety program), and  1407 (PROTECT grants 
program);
     c)  As ``public authorities'' (23 U.S.C.  101(a)(31)), make 
Tribes direct recipients for all Department of Transportation 
competitive and discretionary grants rather than sub-recipients of 
States or other eligible grantees;
     d)  Lower dollar thresholds for federal grant eligibility 
requirements for Tribes or rural communities, and increase the federal 
share to 100% for Tribal grant recipients (see S. 2302,  1129 
concerning the NSFLTP Program);
     e)  Restore the pre-MAP-21 authority under the Highway Safety 
Improvement Program ( 148) and TTP Safety Grant Program (23 U.S.C.  
202(e)), to permit the use of grant funds for education purposes ``to 
promote the awareness of the public and educate the public concerning 
highway safety matters'' (see S. 2302,  1111). This will save lives in 
Indian Country as Tribes lacks funds to correct poorly designed roads, 
pave dirt and gravel routes, or add safety features; and
     f)  Facilitate environmental studies, such as categorical 
exclusions under NEPA required for highway safety improvement projects 
(see S. 2302,  4002 and  4003);

    7.  Elevate the position of Deputy Assistant Secretary for Tribal 
Government Affairs at the Department of Transportation to an Assistant 
Secretary level and fund the position (see S. 2302,  4009), to ensure 
that Tribal transportation needs are well understood at the Department, 
and that the Department's many resources are marshalled effectively and 
efficiently to best serve Indian communities (see S. 2302,  4009); and

    8.  Support the many other positive, pro-Tribal measures included 
in the Senate Environment and Public Works (EPW) Committee's S. 2302, 
including title IV.
                  IV. Tribal Transportation Successes
    Despite limited resources, Tribes are making headway. With growing 
capacity and confidence, Tribes are working hand-in-hand with States 
and other local governments, MPOs and RPOs to coordinate on projects of 
mutual concern. The majority of Tribes today assume, under a variety of 
Federal award instruments, the duties of the Secretary of the Interior 
and the Secretary of Health and Human Services for federal programs 
enacted for the benefit of Tribes. By June 1, 2020, the Department of 
Transportation will publish the final rule for the Tribal 
Transportation Self-Governance Program (49 CFR Part 29) and open a new 
chapter at the Department for Tribes to streamline the delivery of 
federal transportation, transit, and highway safety programs to their 
citizens and residents, reduce regulatory burdens, and save money.
    The recurring Federal formula programs at the Department of 
Transportation--Tribal Transportation Program and Tribal Transit 
Program--allow Tribes to plan and budget based on known appropriation 
levels to address their transportation priorities. But make no mistake, 
with sufficient Federal appropriations and outreach by our Federal 
partners, Tribes can do more.
    In conclusion, Tribes are willing and capable partners with the 
Federal government, States and local governments and are determined to 
break down the decades of transportation barriers that have held us 
back from taking the fullest advantage of our peoples, resources, and 
opportunities to improve our communities. With sufficient resources, we 
can grow our economies, reach new markets, retain our Tribal citizens, 
and realize the dream of our ancestors to perpetuate our culture, hold 
our lands, protect our water and air, and pass down to our children and 
grandchildren the rich heritage that is our legacy and the legacy of 
this great Nation.
    Give Tribes and Tribal Organizations the tools for success and we 
will achieve great things together. Thank you for the opportunity to 
present the views of ITA.

    Ms. Norton. And we thank you, Ms. Clark.
    Mr. Sergio Pecori of Hanson Professional Services.
    Mr. Pecori. Good morning, Chair Norton, Ranking Member 
Davis, and members of the subcommittee. Thank you for the 
invitation to testify before you today. It is a real honor and 
privilege to be here. I am the CEO of Hanson Professional 
Services, an engineering and design firm headquartered in 
Springfield, Illinois, with more than 500 employees in 28 
offices across the country. We provide engineering, planning, 
and other professional consulting services for Federal, State, 
and local governments, including Federal land management 
agencies and Tribes that are the focus of today's hearing.
    I want to make three main points to you today: Number one, 
Tribes, Federal lands, and Territories face tremendous 
infrastructure investment needs; two, increased funding must be 
accompanied by more efficient management and decisionmaking; 
and three, private sector firms play an essential role as 
trusted advisers in partnering with public agencies to deliver 
their projects.
    First, there is no question of the significant backlog of 
deferred maintenance and other transportation needs facing 
Tribes, Federal land management agencies, and Territories. The 
other members of this panel have articulated those needs in 
much more detail. These funding shortfalls hinder the safety, 
mobility, and economic development opportunities for those 
communities. For these reasons, I agree that Federal Lands and 
Tribal Transportation Programs should receive additional annual 
funding in any infrastructure package or surface transportation 
reauthorization bill that this committee puts together.
    However, funding alone is not sufficient. In my 
professional experience, it is clear that the agencies 
responsible for administering these programs need to improve 
their decisionmaking processes in coordination with the Federal 
spectrum, with the State and local officials to ensure that 
these funds are spent as efficiently as possible.
    Let me highlight one project in particular that exemplifies 
these issues. The city of Springfield, Illinois, has initiated 
a 6-mile, $315 million rail relocation and consolidation 
project. When finished, it will reduce congestion and delays, 
improve emergency vehicle access, and enhance vehicle and 
pedestrian safety. Hanson is the lead on this project.
    In the fall of 2014, shortly after construction, 
archaeologists discovered the foundations of seven homes and 
other historic artifacts in the right-of-way corridor. Further 
investigation revealed that these foundations were homes that 
were burned during the Springfield race riots in 1908. The 
outcry from this terrible event was the catalyst that led to 
the formation of the NAACP that year.
    Given the historic significance, the National Park Service 
has begun the process of designating the site as a historic 
monument. When it is complete, it will be an incredible 
memorial to those events and their aftermath. However, the 
Federal agency processes have led to 4 years of project delays, 
despite widespread community engagement and local stakeholder 
agreement on most of the appropriate path forward.
    There is much more detail in my written statement, and I 
would be happy to answer questions about this project and its 
implications for project management and Federal regulatory 
reviews.
    Lastly, I want to reiterate for the subcommittee the 
important role that firms like Hanson and our colleagues in the 
engineering industry play in helping our clients deliver 
projects in innovative and cost-effective ways. We are trusted 
advisers that bring specialized expertise, professional 
experience, and technological skills that save time and money.
    As you develop your surface transportation reauthorization 
bill, I encourage you to advance policies that reflect and 
promote that partnership. Specifically, please reject any 
provisions that would interfere with the ability of the 
Federal, State, or local agencies to partner with us for 
professional services that they require. Rather, Congress 
should promote contracting practices that ensure that qualified 
firms can compete for work and that incentivizes innovation and 
efficiency.
    I will highlight one contract payment method that is 
currently authorized but underutilized. Lump sum or sometimes 
referred to as firm fixed price, this negotiated payment 
increases the engineer's flexibility to manage a project, and 
incentivizes innovation and creativity. It benefits public 
agencies by placing all costs and inflation risk on the firm 
and streamlining the invoice and auditing process. There are no 
statutory barriers to lump sum, but we would like to see it 
encouraged on federally funded projects, including those 
programs we are discussing today.
    Thank you very much for the opportunity.
    [Mr. Pecori's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Sergio ``Satch'' Pecori, Chief Executive Officer, 
                      Hanson Professional Services
    Chairman DeFazio, Ranking Member Graves, Chair Norton, and Ranking 
Member Davis:
    Thank you for the opportunity to testify before the subcommittee. 
It's an honor to represent my firm and my colleagues in the nation's 
engineering industry to you and the members of the subcommittee today.
    My name is Satch Pecori. I am the CEO of Hanson Professional 
Services. Our firm is headquartered in Springfield, IL, has over 500 
employees, 28 offices in the USA and generated nearly $100M in revenues 
in 2019. Hanson provides engineering, planning and allied services in 
six markets: Transportation Infrastructure, Railway, Aviation, 
Industry, Power and Federal-State Government.
    In addition to my professional work, I am also an active member of 
the American Council of Engineering Companies (ACEC)--the trade 
association representing more than 600,000 engineers and the nation's 
engineering industry. I had the privilege of serving as ACEC National 
Chairman in 2017-2018. While I am testifying today on my own behalf, 
the policy recommendations I will discuss today are consistent with the 
views of my colleagues at ACEC.
    Hanson has experience working with federal land management agencies 
and tribes on transportation infrastructure, flood damage reduction 
projects throughout in Illinois and across the country.
    An example is a project in Devils Lake, North Dakota, where the 
U.S. Army Corps of Engineers hired Hanson to complete the design and 
analysis computations for 12 miles of consistently flooded roadways on 
the Spirit Lake Nation Reservation.
    Portions of the North Dakota and Bureau of Indian Affairs (Spirit 
Lake Nation Reservation) roadways in the vicinity of Devils Lake and 
Fort Totten, North Dakota, were elevated to protect the existing 
transportation system, resources and human life from the rising waters 
of Devils Lake. Some of the roadway sections' culverts were plugged and 
elevated to ``act'' as dams, and others were equalized with water 
existing at near-equal levels on both sides of the roadway. The 
roadways that ``act'' as dams were not constructed to function as long-
term dams and safely impound water. Under Section 1937 of the 2005 
surface transportation act entitled Safe, Accountable, Flexible, 
Efficient Transportation Equity Act (SAFETEA-LU), funding was made 
available to address these roadway sections.
    To ensure that roadways and other embankments constructed for this 
project would safely impound water, the design and construction needed 
to satisfy Federal Highway Administration (FHWA) design criteria as 
stated within Section 23 CFR 650.115 (c). Also involved in the project 
were the Central Federal Lands Highway Division (CFLHD) of the FHWA in 
cooperation with the Spirit Lake Nation, U.S. Bureau of Indian Affairs, 
U.S. Bureau of Reclamation, FHWA North Dakota Federal Aid Division and 
the North Dakota Department of Transportation.
            Federal Lands Funding Needs and Project Backlog
    We are deeply aware of the need to maintain our nation's 
infrastructure, including the roads, trails, historic structures, and 
visitor centers that make safe, memorable, and learning experiences out 
of travelling to America's national parks and other federal lands.
    Unfortunately, after decades of unreliable funding, the National 
Park Service (NPS) has an infrastructure repair backlog estimated at 
$11.6 billion (FY 2017), half of which consists of roads, bridges, and 
tunnels. Deferred maintenance affects almost every national park site 
across the country and includes crucial repairs to aging buildings and 
historical structures, electrical, water, mechanical, and plumbing 
systems, and other infrastructure that is vital to keeping parks 
accessible and safe for visitors. Tribes and territories also have 
significant transportation infrastructure needs as well.
    Increased annual federal funding is certainly necessary to address 
deferred maintenance in national parks and other public lands. Federal 
lands programs should receive additional resources in any potential 
national infrastructure proposal or surface transportation 
reauthorization written by this committee. These investments will help 
to employ thousands of American workers, support continued tourism and 
economic development in hundreds of park communities, and ensure that 
our national treasures are preserved for generations to come.
 Program Management Inefficiencies and the 1908 Race Riots Project Site
    However, additional resources alone are not sufficient. The federal 
agencies responsible for administering these programs should improve 
their interagency coordination and review their project prioritization 
processes to ensure that these funds are spent as efficiently as 
possible. Let me tell the committee about one project in particular 
that sheds some light on some potential areas for improvement: the 1908 
Race Riot Site in Springfield, Illinois.
    In 2010, the City of Springfield initiated a project to consolidate 
three railroad tracks that extend parallel through the heart of the 
city for about six miles. These three tracks are within a 16-block area 
and create vehicular traffic delays, congestion, safety issues, and 
train horn noise to the residents and businesses in Springfield. The 
project will consolidate the two most active tracks into a single 
corridor leaving the third track in place with low train volumes of 
about four trains per day. The project will also construct nine 
railroad grade separations at the highest volume roadways to reduce 
congestion and delays, allow emergency vehicle access, and increase 
safety for pedestrians and vehicles. The project cost is estimated at 
$315 million and scheduled for completion in 2025.
    The project has received four Federal grants to date, including two 
TIGER grants and one BUILD grant totaling over $50 million. Additional 
funding has been received from the Illinois Department of 
Transportation, Illinois Commerce Commission, and the City of 
Springfield. The project is over halfway in committed funding and 
construction of two underpasses is completed with one underway, 
expected to be completed by the end of 2020.
    As part of the National Environmental Policy Act (NEPA), the lead 
federal agency, the Federal Railroad Administration (FRA), prepared an 
Environmental Impact Statement (EIS) for the project which culminated 
in a Record of Decision being signed in December 2012. This allowed 
federal funding for the project and the first segment (the Carpenter 
Street Underpass) began construction in August 2014.
    In the fall of 2014, shortly after construction began, 
archaeologists discovered the former foundations of seven homes within 
the right-of-way required for the rail corridor. Further investigation 
revealed that these foundations were homes that were burned during a 
race riot in August of 1908. The aftermath and outcry from this event--
in which two black men were hanged--soon led to the formation of the 
National Association for the Advancement of Colored People (NAACP).
    The discoveries at the project site resulted in these homes being 
eligible for listing in the National Register of Historic Places 
because their lack of disturbance since 1908 preserved the integrity of 
the structures. Also, the homes were originally built in the mid-1840s 
adding to their historic significance.
    Because of the historic significance of this site, the FRA was 
required to proceed with a review under Section 106 of the National 
Historic Preservation Act. This process began in early 2015 by 
identifying any interested parties with an interest in the outcome of 
this site, called consulting parties. The FRA held two public meetings 
in Springfield to identify these groups in March and May of 2015. The 
first of three consulting parties was held in July of 2015. A second 
meeting was held in August of 2016. The FRA spent the remainder of 2016 
and 2017 preparing a Section 4(f) Alternatives Analysis to avoid and 
minimize impacts to the site.
    In March of 2018, the FRA held their third and final consulting 
parties meeting in Springfield to announce their preferred alternative 
to minimize impacts to the archaeological site. They requested 
mitigation options from the group so that they could draft a Memorandum 
of Agreement (MOA) to proceed with data recovery, or excavation, of the 
archaeological site. A couple of months later, the FRA decided that 
they were not going to participate in funding any site mitigation and 
mitigation was left to the consulting parties.
    The consulting parties, independent of FRA support, created a 
conceptual memorial during the summer of 2018 for the race riot site to 
commemorate the riot and the founding of the NAACP. The proposed 
memorial for this site can be viewed in the following link: https://
youtu.be/2K-is9n7A5M. In December 2018, Congressman Davis proposed a 
bill (H.R. 139) to establish the Springfield Race Riot National 
Historic Monument under the National Park Service.
    This site needs to be preserved and memorialized in a way that 
allows the story of the 1908 race riot and the people affected by it to 
be told.
    The National Park Service conducted a Reconnaissance Survey of the 
site in April 2019 and made a favorable finding in September 2019 that 
the site is suitable for listing with the National Park Service. In 
addition, Dr. Carla Hayden, the current Librarian of Congress visited 
the site in September 2017 and viewed the artifacts recovered from the 
archaeological site. She was very impressed with the artifacts and 
mentioned that the Library of Congress houses the most NAACP artifacts 
in the country, however there are no artifacts from Springfield where 
the NAACP originated. She expressed a great interest in having an 
exhibit from Springfield in the Library of Congress.
    In October 2018, the FRA executed the MOA which allowed for 
excavation of the house sites that were included in the right-of-way of 
the rail corridor. Archaeologists began excavations in the spring of 
2019, after the winter freeze had thawed, and completed the excavations 
on the house sites in October of 2019.
    The process implemented by the FRA caused project delays by taking 
four years to complete the Section 106 and Section 4(f) evaluations. 
The City had identified and evaluated avoidance alternatives and the 
consulting parties had agreed on site mitigation objectives at their 
first meeting in July 2015. The FRA then undertook a separate analysis 
of avoidance alternatives and came to the same conclusions as the City. 
They also decided on the same mitigation objectives that had been 
agreed on by the consulting parties over three years earlier. A process 
that should have taken about one year was extended to four years.
    The federal government should not be an impediment to the 
implementation of infrastructure construction projects, nor should it 
delay decisions on preserving significant historic resources. Over 
three years were lost in our construction schedule for this segment of 
the Springfield Rail Improvements Project by a process that should have 
taken no more than a year. This delay would likely have been much 
longer without the persistent inquiries to the FRA Administrator and 
his staff by our congressional delegation.
    No one wants to lose important resources to construction projects. 
But when the project sponsor, the State agencies, and the consulting 
parties have all agreed on a path forward the federal agencies should 
assist, not delay. The three years lost did nothing to improve the 
project or to preserve any resources.
    We recommend strict project controls and schedules with milestones 
for federal agencies during their review and processing of project 
documents. They need to be accountable for lengthy project delays 
caused by staffing shortages, budget limitations, or unfamiliarity with 
implementation and compliance of federal laws and policies. Better 
utilization of budget resources is an important component of reducing 
project backlogs.
         Other Project Delivery and Procurement Recommendations
    Finally, let me highlight three policy recommendations that impact 
the federal lands programs that are the subject of today's hearing, but 
also have broader implications for all transportation agencies and 
clients.
    First, as you continue to develop your bill to reauthorize federal 
surface transportation programs, I would urge you to oppose policies 
that restrict the ability of public agencies to contract with private 
sector firms. America's engineering firms are trusted advisors to their 
clients, and the industry plays an essential role in helping FHWA, 
other Federal land management agencies, state departments of 
transportation, and local public agencies deliver critical 
infrastructure services to the taxpayer. Engineering firms are involved 
in every phase of every type of transportation project: planning 
solutions to reduce congestion; assessing environmental impacts; 
evaluating and improving the safety and sustainability of roads, 
bridges, and tunnels; designing both simple and complex structures; 
and, monitoring construction to ensure it complies with approved 
designs and materials. Engaging the private sector allows public 
agencies to benefit from the specialized experience, innovation, and 
on-budget and on-time performance that firms like Hanson bring to the 
table to ensure project success.
    We have seen some legislative proposals that would mandate that 
only public employees conduct certain engineering, design, or 
inspection work. These kinds of restrictions would interfere with the 
ability of federal, state, and local officials to acquire the most 
qualified service providers to perform these functions. Such a 
provision would also interfere with the ability of agencies to set 
staffing levels in a way that gives them the flexibility to respond to 
fluctuations in funding. In the end, costs go up, and the ability of 
agencies to efficiently deliver transportation projects to the public 
is compromised. This committee should reject any proposals to restrict 
the ability of federal, state, or local transportation agencies to 
partner with private sector engineering firms.
    Second, I would encourage you to promote contracting practices that 
ensure qualified, innovative engineering services. Federal statutes and 
most state laws require procurement of engineering services through 
Qualifications-Based Selection (QBS), a competitive procurement process 
that puts emphasis on identifying the most experienced and technically 
qualified firms at a fair and reasonable cost. This has been the law of 
the land for nearly 50 years, and it is the gold standard for 
professional services procurement. According to a 2009 study by the 
University of Colorado and Georgia Tech, QBS saves money by reducing 
change orders during construction that inflate project cost. To ensure 
transparency and that taxpayer funds are properly obligated and spent, 
Titles 23 and 49 also provide that engineering and design contracts 
funded with federal highway and transit funds must comply with the 
Federal Acquisition Regulation (FAR) cost principles.
    The surface transportation reauthorization should maintain and 
expand public procurement rules that require the use of QBS to 
emphasize innovation and qualifications to facilitate successful 
project delivery. The bill should also continue to include FAR 36.6 
compliance as a condition of receipt of funding by state and local 
governments for grant, loan, and aid programs. Federal land management 
agencies have a pretty good track record with QBS and FAR compliance, 
and it has served them well. In fact, ACEC awarded the Western Federal 
Lands division of FHWA with our national QBS award last year. They can 
be good models for state and local agencies to follow.
    Third, Hanson and our colleagues at ACEC would like to promote the 
utilization of more lump sum contracting by federal, state, and local 
agencies. Lump sum is a negotiated payment method that provides for a 
fixed price not subject to adjustment because of changes encountered in 
the performance of the work. The consultant assumes responsibility for 
costs over or under the negotiated price assuming there is no change in 
the scope of the project. This payment method increases the firm's 
flexibility to manage the project (relative to a traditional cost-plus-
fixed-fee contract using hourly rates), including the assignment of 
staff and utilization of advanced technologies. It also provides 
incentive to be innovative and creative, finding efficiencies in 
project delivery. Public agencies benefit by placing all cost inflation 
risk on the firm. Lump sum contracts are also much easier to manage, 
especially invoicing and auditing, saving staff time and money for both 
the agencies and firms.
    In Hanson's experience, transportation and federal land management 
agencies have some experience with lump sum contracting. By contrast, 
the Corps of Engineers has been much more proficient and has benefited 
from its use. We would like to see more of this value-based contracting 
in the transportation sector.
    There are no statutory barriers to lump sum; it is an authorized 
payment method under federal regulations. Nevertheless, the 
reauthorization bill could include provisions to encourage its use on 
federally funded projects--both for federal land management agencies 
and territories, and by state and local transportation agencies when 
utilizing federal-aid funds.
    Thank you again for the invitation to testify today. I look forward 
to answering any questions.

    Ms. Norton. Thank you very much, Mr. Pecori, for your 
testimony.
    We will move on to Member questions now. I will begin with 
my own questions. Each Member will have 5 minutes. Mr. Reif, 
could you clarify which portion of that huge number you gave 
us, $17.3 billion in deferred maintenance, what portion of that 
is National Park Service, both their backlog and the 
transportation?
    Mr. Reif. I don't have those specific numbers.
    Ms. Norton. Well, actually, if you don't have that 
breakdown and it wasn't in your testimony, would you get that 
breakdown?
    Mr. Reif. I will absolutely provide it for the record.
    Ms. Norton. Within the next week.
    Mr. Reif, the National Park Service includes important 
tourist destinations, of course, the Nation's Capital I 
represent is one of them, and it affects local transportation 
as well. The Arlington Memorial Bridge in my district is being 
rebuilt. I have been under that bridge to see what happens when 
you defer maintenance and how much more it costs us. The Pew 
Charitable Trust says that the District of Columbia has over 
$500 million in deferred maintenance for transportation 
projects. And when you got that big number like that, I am most 
interested in how the Park Service prioritizes investments 
among equally compelling transportation needs, and I mean 
geographically across the Nation, when you have such a 
tremendous deficit, do you just throw darts against a board 
when all of it is in need, or how do you decide what the 
priorities are? Mr. Reif?
    Mr. Reif. Thank you for that question. The Department of 
the Interior, for all of our construction investments, has a 
long-established, fairly complex process of ranking projects, 
including our transportation projects. The process includes 
factors of asset condition, mitigation of health and safety 
risks, cost-benefit analysis for each project, consequences of 
failure to complete the work, and the mission criticality of 
the asset.
    For transportation projects, there are additional 
requirements to align with our long-range transportation plans 
that we have developed, as well as the statutory requirements 
in title 23 that the project should--pardon me--should inform 
that there are statutory measures to reduce the bridge 
sufficiencies, improve the state of good repair, and reduce the 
improvements to safety needs. So we rank all the projects at 
the regional level through all of those lenses to determine the 
project needs.
    Ms. Norton. A formidable task, I must say.
    Mr. Petty, I was interested, because this may provide some 
guidance for how we proceed with our new transportation 
infrastructure bill. The terrible hurricanes, category 5 
hurricanes repeatedly that you have had in the Virgin Islands, 
and now you are saying that all local roads should meet Federal 
standards, and not just Federal roads. And you stress that. And 
you indicate something we need to understand as well, that the 
roads that were built to Federal standards withstood these 
terrible hurricanes you have gone through. Is there a cost to 
this--what percentage of your roads were Federal and what 
percentage were local? Is there a cost that the Virgin Islands 
is taking into effect? Were you using resilient materials on 
the Federal roads? That is something they are looking at for 
the next bill. Is it just that they were Federal roads and they 
were just better? I would appreciate your guidance on that.
    Mr. Petty. Yes. Yes, ma'am. Yes, Chair Norton. The big key 
with the Federal roads is that the standards are definitely 
higher--or were higher. And drainage, all the critical subbase 
work that has to be done on our roads to make sure that it 
lasts, those are all components of those Federal roads. The 
local roads, many were built many years ago, never had the 
opportunity to get reconstructed in a way that it would make it 
more resilient. So that is why I made that promulgation to 
ensure that when we do rebuild with the FEMA dollars, it is not 
just a surface treatment that a few years later or less, we 
will be back again after the next storm passes. So I think that 
is a critical thing.
    We are still negotiating with FEMA for a final dollar 
figure, because much of that work requires that subbase work 
and that drainage improvement. So once that number is 
finalized, I can give you a better indication of the separation 
of costs.
    Ms. Norton. We certainly would appreciate it, because you 
understand that added cost and you obviously calculated it will 
save you money in the long run, and you have local, Federal, so 
you have something to compare side by side with. So thank you 
very much for that guidance.
    Ranking Member Davis?
    Mr. Davis. Thank you, Madam Chair, and thank you to all the 
witnesses.
    Commissioner Petty, I do want to thank you for sending my 
good friend, Stacey Plaskett, here to be your delegate. She is 
one of the best. So welcome. I wish I had a question for you, 
but I didn't ask her permission first. So next time I will get 
that, all right?
    Hey, I want to speak with you, Mr. Pecori. Thank you for 
your work on the Springfield rail project that you and I have 
been working on together for years. It is a project in 
persistence, a project that really shows the impact of what we 
do here in the Transportation and Infrastructure Committee when 
it comes to funding, when it comes to the bipartisan issues of 
transportation infrastructure that we face here in this 
committee.
    Give me your perspective on the significance of the 
potential race riot site that we saw the wonderful video on, 
and, you know, why it is important for us to address a backlog 
of projects so that we can look ahead at newer projects like 
this. If you could, talk a little bit about the proximity to 
other historic sites that this proposed site is located in.
    Mr. Pecori. Well, it was interesting when we first started 
working on this project, we knew that there could be the 
possibility of finding the race riot site or something left of 
the homes there. And it happened to be on the right-of-way of 
the proposed rail corridor. When it was uncovered, the 
significance became a reality, and the significance to 
Springfield is something that is going to be hard to measure 
right away.
    The proximity of the race riot site is just a few blocks 
away from the National Park Service Abraham Lincoln Home in the 
area encompassing that. So the significance would be tremendous 
linkage. It would bring reality to Springfield of the horrors 
that it suffered back in 1908, and it is bringing back a 
reality so we can teach our children, not only in the 
Springfield area in the State, but nationally, something that 
should never happen again. So the linkage is very important.
    Mr. Davis. The linkage is, and, just a few short blocks 
away, too, is the State of Illinois-run Abraham Lincoln 
Presidential Museum and Library.
    Mr. Pecori. That is correct.
    Mr. Davis. I think this is a unique opportunity when we 
look at how there is interagency communication. Since the 
Department of the Interior runs the Park Service, you know, the 
transportation dollars uncovered the artifacts, we have a 
unique opportunity if we can get through this backlog.
    Mr. Pecori. If I could mention one more thing, Congressman. 
The funding for that project that initiated that very first 
segment was a TIGER grant, so that was right through the 
subcommittee here and the committee in general.
    Mr. Davis. Absolutely. You have been awarded, on that rail 
project, other transportation funding, too, right?
    Mr. Pecori. That is correct.
    Mr. Davis. BUILD grant?
    Mr. Pecori. Pardon me?
    Mr. Davis. BUILD? The BUILD program?
    Mr. Pecori. Two TIGER grants, one BUILD grant.
    Mr. Davis. Absolutely. Persistence pays off when it comes 
to rail relocation.
    Do you remember what year you uncovered the artifacts 
during that Carpenter Street underpass project?
    Mr. Pecori. It was 2014.
    Mr. Davis. So it was 2014. And the process you had to 
follow once those artifacts were uncovered, you immediately 
notified the Illinois Historic Preservation Agency and other 
agencies.
    Give me a little idea of how that interagency cooperation 
worked and possibly how long it took to come up with a 
solution, especially one to maybe display the artifacts at the 
Library of Congress, per se, or maybe eventually at the 
Smithsonian National Museum of African American History and 
Culture?
    Mr. Pecori. That is correct. What occurred initially was a 
decision on who was going to look at the artifacts; how was it 
going to be excavated; if it is going to be excavated, is it 
going to be covered over? There was quite a discussion on what 
was the next step.
    The next step actually was from the FRA, who decided that 
they would take a look at this and proceed with it.
    It took about 3 years since it was uncovered until we were 
able to actually excavate the archeological site, and bring up 
artifacts that were, again, displayed with you, Congressman, 
and Dr. Carla Hayden from the Library of Congress, and her 
interest in possibly showing of it--displaying at the Library 
of Congress. So that was an integral part.
    It took three meetings, over 3 years, to finalize the 
conclusion of what would be done, so the archeological 
excavation was completed at the end of last year, and now a 
report will be prepared on what was found, and, also, where the 
artifacts are going to be displayed.
    Mr. Davis. Thank you, and thank you for your work. My time 
is expired.
    Ms. Norton. I thank the ranking member.
    Chairman DeFazio.
    Mr. DeFazio. Thanks, Madam Chair.
    Councilman Garcia and/or Ms. Clark, you both have 
referenced the idea that now that we have Tribal self-
governance on transportation projects, you now feel that there 
is a necessity to have an office in DOT to oversee or 
coordinate that?
    Could you just tell me what the rationale is there?
    Am I loud enough? OK.
    Mr. Garcia. Thank you, Chairman DeFazio, for the question.
    We were in deliberations on the self-governance initiative 
for the Department of Transportation, and establishing a Self-
Governance Office, we think, in Indian country, is an important 
part of the self-governance initiative for the Department as 
well as for the Tribes, and, to give you an example, the two 
other self-governance initiatives through the BIA have a Self-
Governance Office. The Indian Health Service has a Self-
Governance Office.
    And so, because of the amount of work that is necessary to 
ensure that the initiatives of self-governance are provided 
adequately, and things are run smoothly, you need more 
resources dedicated to implementing the self-governance 
initiative, and the most important piece, Chairman, is the fact 
that, when the rules are published finally in June--and we are 
very positive that that is going to happen in June--and begins 
to get implemented, at that time, out of the 334 or so Tribes 
that are self-governance with BIA and/or IHS or IHS, I think 
greater than 50 percent of those are going to want to enact the 
opportunity for self-governance on transportation.
    And so, we want to be sure that the Department of 
Transportation is ready to move forward with implementing the 
act of self-governance for the Department of Transportation, 
but that is just for the beginning part of it, and so now we 
have got to worry about, OK, now it is moving, so----
    Mr. DeFazio. Uh-huh.
    Mr. Garcia [continuing]. Here we go. We have got to keep 
going with the rest of the Tribes that may want to pursue this 
option, and, so, the resources are going to be almost endless 
in terms of the need to provide support for the Tribes; but, as 
well, provide an opportunity for the Tribes to identify that 
there are any refinements that need to be made in terms of 
operations from the Tribal level and in partnership with the 
Department. That needs to be monitored continuously, and the 
Self-Gvernance Office would allow that to happen.
    And so, right now, we are hoping that the Department of 
Transportation will, in time, short time, enact that the Self-
Governance Office will be put in place, and so it will be a 
positive thing for both the United States Government, 
Department of Transportation, as well as for all of the Tribes 
across the land. Thank you.
    Mr. DeFazio. OK. Thank you.
    Ms. Clark, do you want to add anything?
    Ms. Clark. No. I believe he covered that.
    Mr. DeFazio. OK. Great.
    Deputy Chief French, the Forest Service maintenance 
backlog, $5.2 billion, $3.6 billion attributed to 
transportation alone, and you get a very generous $85 million 
out of the Federal Lands Transportation Program over the life 
of the FAST Act. During the FAST Act, has your maintenance 
backlog grown on transportation issues?
    Mr. French. It absolutely has. You know, if you look at the 
overall needs we have, the FAST Act is helping address maybe 3 
percent----
    Mr. DeFazio. Right.
    Mr. French [continuing]. And the growing backlog we have is 
outpacing that greatly.
    Mr. DeFazio. And some of it, at least I know in my region, 
relates to critical environmental issues where you have 
culverts that have collapsed or otherwise are causing problems, 
erosion and that.
    What are the principal needs that you would point to?
    Mr. French. I know you are an avid user of our national 
forests, and you have probably seen many of these. I would say 
the biggest things we have right now is really a crumbling 
infrastructure around our bridges; our aquatic passages, as you 
mentioned.
    But the other part is just the basic road maintenance, 
sample basic road maintenance, and, as we feel the growth of 
catastrophic fire happening especially in the West, our ability 
to use roads, access those areas, as the importance seems to be 
growing at the same rate as we are seeing some of the risk of 
fire, and our ability to actually go in and keep those roads 
open and well maintained so the roads aren't having 
environmental effects, that is one of our biggest needs right 
now.
    Mr. DeFazio. OK. So environment, disasters, fires, and 
obviously recreation are the three?
    Mr. French. Yes, sir.
    Mr. DeFazio. OK. Thank you.
    Thank you, Madam Chair.
    Ms. Norton. Thank you, Chairman DeFazio.
    Mr. LaMalfa?
    Mr. LaMalfa. Thank you, and welcome, panelists. I 
appreciate your time and attention here.
    I want to zero in on the Forest Service roads, especially 
too. I have northern California, where we have had our share of 
fire as well, and so we are looking at a situation where we 
have about 150 million dead trees in California, as you are 
aware, and, in order to catch up with the backlog of trees that 
aren't dead, we probably need to take the 150 and plus 300 
million more. So access to these lands is going to be extremely 
important, and so, looking at the comparison here of funding 
for service roads versus national park roads, I am seeing that, 
you know, as--Mr. French, you mentioned that--I think Mr. 
DeFazio mentioned the number $85 million over a 5-year period, 
was it?
    Mr. DeFazio. Yeah.
    Mr. LaMalfa. So about $19 million a year, or $17 million? 
So that, in comparison to, I think, National Park Service 
receiving a much bigger number--I think $330 million is what is 
proposed, or in an upcoming year, so the disparity there, 
especially in that there is four times as many miles of public 
road in the forest as there is national parks is the way I have 
it.
    So we have a problem here, and a disparity, and I know Mr. 
Carbajal and I are working on legislation to try and flesh that 
up and even that up, so I appreciate being able to work with 
him on that, and--tell me, Mr. French, you like the movie ``The 
Departed''?
    Mr. French. I do.
    Mr. LaMalfa. OK. Good. I will just leave that there. So--
the issue with the disparity here and how far behind we are on 
forest management anyway, and the other uses we are talking 
about, for access and all the emergency personnel, just how far 
behind do you think we are, and what could we be doing to 
advance our work around here for vegetation management, 
besides, you know, trying to catch up on funding, what are the 
roadblocks you are seeing?
    Mr. French. Thank you for the question.
    You know, if you look over the last 4 years--and, specific 
to your question, yes, we have received about $85 million. You 
compare that, as you did to the Park Service, that is around 
$1.42 billion. So there is a big difference in the way that we 
have looked at the funding. And I think that there is a need to 
look at the overall needs and the relative amounts to see if 
there is a more rational way to look at those. I also think 
that the efficiency that has been mentioned earlier about the 
way the funds are applied, that could be increased in terms 
of----
    Mr. LaMalfa. Any flexibility on that?
    Mr. French. Excuse me?
    Mr. LaMalfa. Flexibility perhaps?
    Mr. French. Flexibility, but also, you know, honestly, 
probably more direct appropriation to the agencies rather than 
the period we go through to receive those. That would bring 
funding locally, more quickly, to address issues, especially in 
terms of disasters and things like that.
    I think the other big thing that is occurring right now for 
us, is that as we are driving what limited dollars we have 
towards really focusing on addressing the increasing fuels and 
fire issue we have, it is actually putting less funds available 
for access to recreation sites and maintaining that, but I 
would say that connectivity of roads that these rural 
communities depend upon.
    Mr. LaMalfa. You are having to rob Peter to pay Paul just 
to keep up with that a little bit, and that takes away from 
some of the management we were talking with, right?
    Mr. French. It does, and roads dollars is one of the 
biggest factors that limits our ability to do active forest 
management. You can't go in and thin forests or reduce fire if 
you can't get the equipment over the bridges to get there.
    Mr. LaMalfa. Right. Right. OK.
    Mr. Reif, do you see a disparity here, too? I mean, you 
probably don't want to knock your own budget here, but do you 
see, in partnership where you have, you know, contiguous issues 
with the Forest Service and the parks? How do you guys come out 
so well on funding?
    Mr. Reif. Well, thank you for the question.
    I would say that I recognize your point about the Park 
Service. It is substantially bigger than the Forest Service. 
Some of our other Bureaus are much closer in line with the 
funding levels that the Forest Service receives, such as the 
Bureau of Land Management receives approximately $6 to $8 
million per year. Bureau of Reclamation is in that range 
somewhere as well. Fish and Wildlife Service is about $30 
million per year.
    So I understand your question. It does appear to be a 
significant difference in funding levels. I will say that the 
maintenance backlogs are equally as significant.
    Mr. LaMalfa. Maybe borrow their lobbyists a little bit, Mr. 
French, on that, when you are getting the funding there, so--I 
would love to come to the Tribes here, but the 5 minutes has 
already flown by, so I yield back, Madam Chair.
    Ms. Norton. Thank you.
    We will hear next from Mr. Huffman.
    Mr. Huffman. Thank you, Madam Chair. And I want to thank 
the witnesses for a very important conversation.
    Serving as both a member of the Transportation and 
Infrastructure Committee and the Natural Resources Committee, I 
see firsthand the importance of fully funding our Federal land 
management agencies and their transportation needs. We hear a 
lot about the maintenance backlog facing our public lands. 
Facilities, campgrounds, water systems, and a lot more than 
that contribute to this deferred maintenance, but we can't 
forget that almost half the backlog is transportation 
infrastructure, paved roads and bridges, and that is why this 
committee's work is so critical for our public lands.
    Mr. Reif, I would like to start with you. In your 
testimony, you outlined the importance of Interior's surface 
transportation network for visitors and users of our public 
lands, including the role of drawing tourists to different 
sites, fostering local economic growth for small businesses and 
nearby communities.
    That is a very important point, and I think it is important 
to remember that our public lands don't exist in isolation; 
they exist alongside gateway communities that depend on them 
for their local economy, and that is why we have this Federal 
Lands Access Program, or FLAP, which is critically important to 
districts like mine.
    My district starts at the Oregon border, goes to the Golden 
Gate Bridge, and so, you can imagine all of the great public 
lands that I am honored to represent, from Redwood National 
Park to Muir Woods National Monument, Point Reyes National 
Seashore, just to name a few.
    But this richness of public lands can also create some 
challenges, such as the importance of planning for wildlife 
crossings in rural areas to avoid unnecessary collisions; 
addressing, in some cases, too much traffic from visitation, 
like the problems we had at Muir Woods; and the negative 
impacts to the local community from that congestion; and also 
ensuring that partnerships between Federal agencies and local 
communities are functional.
    So one of my concerns is we are not doing enough to ensure 
that all agencies involved in FLAP are on the same page. I 
think we need to include FHWA as a partner alongside public 
land agencies, like the National Park Service in working with 
local communities, and this is especially true in places like 
California, where we see labor shortages and the challenge of 
working in remote locations. This can conflict with narrow, 
overly prescriptive designs that might percolate up within 
Federal agencies.
    So an example I have: Portions of my district bleeding out 
into the Point Reyes National Seashore where we have frequent 
seasonal flooding, ongoing erosion, poor pavement, and more. 
And we have seen a bidding and contracting process that is 
moving at a glacial pace and is way over budget. You know, one 
simple road repair job looks like it is going to consume a 
budget that we need to spread among a whole bunch of different 
priorities in that part of my district.
    So, Mr. Reif, as we look at the next surface transportation 
bill, what level of funding do you think is required for our 
land management agencies to keep current assets in good working 
condition, and to prevent a growing deferred maintenance 
backlog?
    Mr. Reif. Sure. Thank you for the question, sir.
    We have done a variety of analysis, from pavement condition 
analysis, pavement condition modeling, cost-benefit analysis, 
and long-range pavement condition surveys, and our analysis is 
that the Department, as a whole, could benefit from $1.1 
billion--our needs as a whole are $1.1 billion, and to return 
our roads and bridges and transportation systems to a good 
condition, keep it at a good condition, modernize the network, 
and provide for multimodal transportation systems.
    Mr. Huffman. I appreciate you pegging that number as the 
real need, because, right now, I understand that we are 
appropriating only about $300 million annually, so we are far 
behind catching up to that need, and I appreciate you putting a 
fine point on it.
    In my remaining time, I want to highlight the importance of 
safe bicycling and walking paths. Currently, our Federal Lands 
Transportation Program does not ensure that any minimum amount 
of funding goes to active transportation, such as walking or 
cycling. I have a bill, the Active Transportation for Public 
Lands Act, which would create a minimum 5 percent for our 
Federal Lands Transportation Program funds for walking and 
biking trails and infrastructure associated with active 
transportation. This is part of my work with several colleagues 
on this committee, including Congressman Pappas and Congressman 
Lipinski, and we are trying to ensure that building active 
transportation networks support healthy, vibrant communities.
    As we work on this surface transportation bill, I hope we 
will not only invest in active transportation, but remember the 
importance of doing that on our public lands as well.
    And, Madam Chair, I thank you for the time and yield back.
    Ms. Norton. Mr. Huffman, I certainly hope I am an original 
cosponsor of that bill. We want to stress alternative modes of 
transportation in our next bill. Nothing could be more--I mean, 
scooters, you name it. Certainly walking this very walkable 
city. So I appreciate what you have just said.
    Mr. Stauber, thank you for yielding your time to the 
ranking member, as I understand it.
    Mr. Davis. Thank you, Mr. Stauber, for that time, and thank 
you for yielding it to me.
    Mr. Stauber. You are welcome, Ranking Member----
    Mr. Davis. I yield it back to you, sir.
    Mr. Stauber. OK.
    Mr. Davis. Thank you for the text, too.
    Ms. Norton. There is some kind of trick here, but I will go 
along with these Republican tricks.
    Mr. Stauber. Thank you, Chairwoman Norton, Ranking Member 
Graves.
    Mr. French, it is great to see you again today, and I have 
got a couple of comments to state here, then some questions at 
the end.
    I want to speak a little bit about the Tribal 
Transportation Program formula funding that took place in MAP-
21 and the FAST Act.
    Rural Minnesota Tribes have expressed a compelling need for 
highway infrastructure funding to develop, improve, and 
maintain the inadequate road systems on Indian reservations in 
the State of Minnesota. Minnesota Tribal leaders are also 
telling me their annual funding was drastically cut over the 
past decade; at the same time, funding to Tribes in some other 
States was increased.
    A decade ago, Tribal funding was distributed among Tribes 
through a needs-based formula that the Tribes themselves had 
negotiated in a Tribal-Federal negotiation rulemaking process 
in the early 2000s. However, MAP-21 and FAST Act replaced this 
formula with a congressionally written formula that more 
heavily weighs population members over road acreage, actual 
road conditions and transportation needs.
    Under the MAP-21 and FAST Act formulas, Minnesota Tribes, 
like the Red Lake Band of Chippewa Indians, whose reservation 
consists of more than 840,000 acres, and 561 miles of roads, 
have lost more than $10.5 million of funding since the changes 
have been implemented.
    I will just ask both of you: What is being done to track 
the impact that the change in the funding formula has had on 
Tribal Governments throughout all of Indian country, region by 
region, and State by State?
    Mr. French?
    Mr. French. Thank you, Representative.
    Actually, the specifics of that question, I would defer to 
my colleague here from the Department of the Interior.
    Mr. Stauber. Mr. Reif?
    Mr. Reif. Thank you for the question.
    I would be honest. I am not sure I know what has been 
tracked at that level. That would be a Bureau-specific issue, 
and I am not aware of what tracking they are doing, but we can 
absolutely provide that for the record.
    Mr. Stauber. And that is what I will ask. Would you please 
provide the specific data to this committee when you get it, 
because we have to know the amount that was taken away from 
certain Tribes and given to others because of the formula 
change, and I think it is important that we recognize that 
there was a diminished funding to certain Tribes.
    And then what has the Federal agency done to address the 
inequities that have resulted from MAP-21 and FAST Act funding 
in Minnesota and throughout Indian country? So we know there 
has been a reduction in some areas, and increase in others. 
What do you have plans for to help reinvest in those areas that 
lost their funding due to the formula change?
    Mr. Reif. Thank you for the question.
    I don't know what we have been doing to mitigate for 
changes in statute.
    Mr. Stauber. Mr. French?
    Mr. French. Yeah. Thank you, Representative. We actually 
don't have oversight in our agency of that, so, again, that is 
why I refer that to the Department of the Interior.
    Mr. Stauber. Thank you.
    Mr. Garcia?
    Mr. Garcia. Yes. Thank you. Thank you for the question.
    First off, I think it is important to realize that the 
transportation funding formula has changed over the course of 
the years, and it may be time to revisit the funding formula, 
because I don't know that the Tribes at that time, the past few 
times, have been as active and as--you might say, have been 
allowed to take part in the development of the funding formula. 
But some of the parameters and some of the variables used in 
the current funding formula may have changed, and, so, it may 
be time to revisit the formula.
    But, if that were to happen, what we would suggest is that 
Indian country also be a part of the group that begins to look 
at first assessing the formula, and then, if there is to be 
developed another formula--and I will give you one example, 
that, if the funding formula is put in place, the bigger 
Tribes, the large, land-based Tribes, are going to fare 
differently than Ohkay Owingeh. We have 12,000 acres of land.
    And so, right off the bat, if there is population or if 
they are land-based and the number of road-miles is a factor--
and it is--the smaller Tribes--the smaller, land-based Tribes 
do not fare as well. So there is a discrepancy in that part of 
it. But the other thing that may have changed are the--what 
would you say--the life changes in this country. One might 
think about--an example might be, right now, we are using gas 
tax as a means to bring revenue for Department of 
Transportation.
    So, as time goes on, we may not have as much gas-using 
vehicles. We will be turning to electric vehicles, so the 
funding amount, revenue stream will tend to go down. But, as we 
speak, the funding that is available for self-governance under 
the FAST Act started out at $465 million for all Tribes, and it 
is up to, I believe, $505 million this year, 2020.
    Mr. Stauber. And I think, Mr. Garcia, my time is up, but 
you made a real good point. We have to factor in the road-
miles, average daily traffic, and the pavement quality index in 
part of that, and so I appreciate it.
    And my time is up. Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Stauber.
    Ms. Brownley?
    Ms. Brownley. Thank you, Madam Chair.
    Mr. French, Los Padres National Forest is in my district. 
In 2017, we had the Thomas fire, which, at the time in 2017, 
was the largest wildfire in California's history. I am just 
wondering--and Los Padres was very much impacted by that fire--
are you aware of any instances at Los Padres National Forest 
where firefighter operations couldn't get to where they needed 
to get due to the roads and access?
    Mr. French. Thank you for the question.
    I mean, you have one of the largest deferred maintenance 
backlogs that we have. It is like $510 million in your area. I 
can't give you some recent--I mean, specifics. We could follow 
up that. But I will share with you, more than 20 years ago, 
when I was a firefighter, I was on the Los Padres, and we were 
hot spotting, trying to get to areas, and, yes, we very much 
ran into that issue where roads that were closed, even for 
administrative uses, we could not get into to access. And, as 
you know, in the Los Padres, those fires are fast, and, the 
quicker that you can get there, the better. But I can certainly 
look into getting you more recent examples than my own 
experience.
    Ms. Brownley. And, just in terms of roads, my 
understanding--you just mentioned the large backlog, but my 
understanding with roads, it is about $17 million of deferred 
maintenance for roads. If that is true, I am just--I am--if you 
could get me the information to just share with my office a 
list of the projects as well as expected completion dates based 
on current funding levels. If you have that, I would appreciate 
getting that.
    Mr. French. Yeah. We have got it throughout the State of 
California, and we can break it down into the specifics of 
roads in California and by district, absolutely.
    Ms. Brownley. Very good.
    Mr. Garcia, first, I want to thank you for your service to 
our Nation. Thank you for that. I noticed your Air Force hat, 
so I want to thank you for your service.
    I recently was in South Dakota and visited two Tribes, the 
Cheyenne River Sioux and Standing Rock Sioux, two of the 
poorest Tribes. I was really there to look at VA and IHS 
healthcare services to our veterans, and access to that, but 
what was abundantly clear to me on the trip was seeing the 
conditions of the roads there, and those conditions are 
impacting our veterans getting to their appointments. Obviously 
there are weather conditions. The land mass is huge, but the 
horrible roads are really impacting veterans to receive their 
healthcare.
    And I am just wondering--I know, in one of the testimonies, 
it was stated that Tribes are not required to report their data 
to the U.S. Department of Transportation on the condition and 
performance of Tribal roads, making it difficult to assess the 
overall conditions of roads nationally.
    Do you believe if we did collect that data--do you think we 
should be required to collect that data, and do you think that 
that is what would help, in any way, making the case?
    Mr. Garcia. First point, I think it is important to 
understand that the data is an important means. I mean, we 
talked about the funding formula. If you have the wrong data or 
you have invalid data or any inadequate data, you are liable to 
provide wrong information that then impacts the amount of 
dollars that flows through the system.
    Well, when you are talking about transportation data, that 
could also be data, such as law enforcement data, for highway 
safety, accidents, and fatality, and all of that. If you are on 
Tribal land, you end up having to deal with at least three 
databases: the Tribal database, the law enforcement database, 
the State and county and State highway database, and then the 
Federal database. And, in this case, the Federal database, 
depending on who you report the data to--sometimes BIA, 
sometimes other places--the data is not consistent, and the 
form of the data is not consistent. The databases are not 
consistent. The collection of the data are not consistent.
    So, if you look at the discrepancies in those systems, you 
are not looking at very accurate data, and, so, I think it is 
an important piece of the puzzle to be resolved, and parts of 
that can be done by providing funding for developing the data 
systems that the BIA uses, that the Tribes use. That could be a 
consistent one, and, if we do it together, the more likely that 
it is going to suffice and work for both entities. And the same 
with when we include the States, then it is important that they 
also be involved in the development of whatever data we have.
    Ms. Brownley. Thank you, Mr. Garcia.
    Mr. Garcia. Thank you.
    Ms. Brownley. I yield back. Thank you.
    Ms. Norton. Mr. Palmer?
    Mr. Palmer. Thank you, Madam Chairman.
    Ms. Clark, what portion of overall transportation funding 
comes from the FAST Act programs?
    Ms. Clark. Pardon? What did----
    Mr. Palmer. What portion of overall transportation funding 
comes from FAST Act programs?
    Ms. Clark. What portion of the funding?
    Mr. Palmer. Yeah.
    Ms. Clark. Well, you mean the allocations of FAST Act, 
which is----
    Mr. Palmer. Of your overall funding, how much of that is 
from FAST Act grants or appropriations?
    Ms. Clark. Well, in 2019, it was $495 million, and this 
year, it is $505 million.
    Mr. Palmer. What is your total expenditure for your 
transportation programs, then? What is your total outlay?
    Ms. Clark. A little----
    Mr. Palmer. How much do you spend annually on your 
transportation programs? It is more than $505 million, isn't 
it?
    Ms. Clark. Correct.
    Mr. Palmer. Do you know how much it is?
    Ms. Clark. That is hard to determine because of the unmet 
needs or the deferred maintenance.
    Mr. Palmer. Yeah, but you know how much money you actually 
have to spend, don't you?
    Ms. Clark. On----
    Mr. Palmer. You have a budget?
    Ms. Clark. Yes.
    Mr. Palmer. How much do you budget?
    Ms. Clark. For my Tribe personally?
    Mr. Palmer. For----
    Ms. Clark. For all Tribes?
    Mr. Palmer. For all Tribes. Do you know?
    Ms. Clark. Oh, for all Tribes, well after the obligation 
limitation, we only had $449,000 in our TTP funds. So your 
obligation limitation takes most of it out.
    Mr. Palmer. All right. I will submit the question in 
writing, and I think it will be a little bit easier to answer.
    Ms. Clark. OK. Thank you.
    Mr. Palmer. Mr. Garcia mentioned a gasoline tax, and I 
think accurately identified the fact that that is a declining 
source of revenue because of increased fuel efficiency and 
conversion to electric vehicles.
    What sources of revenue other than the FAST Act programs do 
you rely on other than the gas tax? Do you have other sources 
of revenues?
    Mr. Garcia. Are you talking about one Tribe, or my Tribe, 
or other Tribes throughout the----
    Mr. Palmer. Well, I would like to know generally all 
Tribes, and what I am trying to find out is, are there other 
ways that we can provide funding? This actually--I am hoping to 
make a point. So you are getting $505 million. Is it just your 
Tribe, Ms. Clark, that gets the $505 million, or is that all 
Tribes?
    Ms. Clark. That is all the--all Tribes.
    Mr. Garcia. That is for all Tribes.
    Mr. Palmer. OK.
    Mr. Garcia. Yes, sir.
    Mr. Palmer. OK. And then you have other sources of funding, 
which, Mr. Garcia, you identified as the gasoline tax, which 
you accurately identified as a declining revenue source. Do you 
have other sources of revenue to fund your transportation 
programs?
    Mr. Garcia. Well, I can answer that in a general way, and 
that is that many of the Tribes--in fact, all of the Tribes 
that are funded through the Bureau of Indian Affairs, through 
the Indian Health Service, those funds are, number one, not 
adequate to meet the needs of the community--the Tribes.
    Mr. Palmer. Let me--I am trying to----
    Mr. Garcia. Transportation is in that same boat, that the 
Tribe supplement, the funding that it--current funding that 
receives--Federal funding that is received----
    Mr. Palmer. OK.
    Mr. Garcia [continuing]. And so that is the same thing that 
would happen with the Department of Transportation funding, is 
that the funding that provided for--I will speak for Ohkay 
Owingeh--will not meet all of the needs in terms of 
transportation, all the projects, the bridges, the----
    Mr. Palmer. OK. I am trying to help you out here.
    Mr. Garcia. So there won't be revenues available that we 
would have to supplement, and so, you know, the revenues are 
just like any Government would have.
    Mr. Palmer. OK. What I am trying to do is identify how much 
we provide through the FAST Act, what other sources of revenues 
that you have, and I think we have already pretty well nailed 
down the fact that all those revenue sources combined with what 
you are getting from the FAST Act are insufficient. You have 
got an enormous backlog.
    So my next question is: The Tribes, nationwide, have 
resources--energy resources--natural gas, oil. And my question, 
Mr. Garcia and Ms. Clark, is: Do the Tribes--first of all, do 
they allow the sale of these resources, and, if they do, do you 
get a portion of the revenues? Do you get all the revenues? Or 
is that even a revenue stream that could help support your 
infrastructure and transportation needs?
    Ms. Clark. I could answer.
    Most Tribes receive field tax funding from the--from what 
they receive in their reservation, and that is spent--well, 
with the Nez Perce Tribe, we spend it on whatever the State 
spends their field tax on.
    Mr. Palmer. Are those taxes revenues from----
    Ms. Clark. Field tax sales.
    Mr. Palmer. No. I am talking about, do you have oil and 
natural gas on Tribal lands that you should own? As a sovereign 
nation, you should own that. Are you allowed to access that for 
oil and gas exploration, and are you allowed to take the 
revenues from that?
    Ms. Clark. Our Tribe, in Nez Perce country, we do not have 
any natural gas lines going through that area. However, other 
Tribes, it is hard for them to get involved in trying to get a 
portion of those fundings, so--they have tried. They have 
worked at it, and so, yes, you are right. Most Tribes don't 
receive those.
    Ms. Norton. The gentleman's time has expired.
    Mr. Palmer. Thank you, Madam Chair. May I just--I am trying 
to be helpful with this, and I am not sure that they fully 
understood, and I take responsibility for that, so I will 
submit some questions in writing, but my intent here is to try 
to identify other funding sources that will help the Tribes 
meet their needs, and I appreciate your indulgence.
    I yield back.
    Ms. Norton. I appreciate receiving that--that is an 
important question--in writing, and we will make sure to submit 
it to the witnesses.
    Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Madam Chair.
    First, I want to thank you, the chair, for holding this 
very important hearing, the first time in decades that we have 
really listened to the transportation needs on Federal lands, 
on Tribal lands, and U.S. Territories. For me, I am going to 
ask some questions, but the most important thing has just been 
listening and understanding, which we haven't had that 
opportunity to do before, and so I would like that message to 
go out.
    Thank you for being here. Thank you for educating us. It is 
very important, because we frequently overlook this, but not 
because it is deliberate; it is just that we have so many other 
needs. Unless somebody takes the time and says, Hey, let's look 
at this issue, so I very much appreciate this.
    I want to talk about to Commissioner Petty--I am interested 
in both climate change and resiliency, how we deal with some of 
those issues, and resilient infrastructure in the Territories, 
and so your testimony, Commissioner Petty, disclosed just how 
important resilient infrastructure is for vulnerable disaster-
prone areas, such as the Virgin Islands. And we have seen the 
challenges that deficient infrastructure can pose in these 
areas in the wake of the recent hurricanes; especially in 
Puerto Rico, we have really seen that directly, where supplies 
stacked up in the port areas, not because of the ports, but 
because we didn't have the infrastructure to get those 
supplies, and we didn't have the surface infrastructure.
    So the question is: Are you concerned that the current 
Federal funding levels for transportation prevent the 
Territories from really constructing resilient infrastructure? 
Are we really--you know, when we talk about infra--but we know 
the impacts that you have and the vulnerabilities. Are we 
building enough resilient, or are we funding enough resilient 
infrastructure?
    Mr. Petty. Currently, no, we are not, and, for us, we have 
been in this catchup mode trying to do the things to sustain 
some sort of infrastructure, and doing it the right way, so to 
speak, is difficult, because you have to address the needs of 
the public right now. But, to do it right, we definitely need 
the appropriate funding to build that type of resiliency.
    Mr. Lowenthal. And maybe you could fill us in just to 
educate us a little bit on how climate change now is affecting 
how the Virgin Islands and other Territories are planning for 
future transportation issues. You are in a unique situation.
    Mr. Petty. Right. So----
    Mr. Lowenthal. Maybe you could share that with us, too.
    Mr. Petty. Yes. So definitely, all of our projects, we 
definitely have to look at sea-level rise, some of the major 
expansion projects in our harbors--we are building new roads 
just for the increasing population and tourism activity, but 
storm surge is a real thing that has impacted our 
infrastructure over many of the last few storms that we have 
had.
    So, when we build these roads--and we have one section of 
roadway where we are building right now--it is probably one-
quarter of a mile, and it is costing us $42 million for just 
that stretch of road, primarily because of those type of 
resiliency type of features that have to go into these types of 
projects.
    Mr. Lowenthal. Thank you. I want to change the subject a 
little bit to talk to Mr. Reif about the National Park 
Services, the backlog that you have on the national--but how it 
is the backlog and the impacts upon the local communities are 
really what I am most interested in. You know, we know, you 
know, the monies that you spend, and we have heard, but, right 
now, at least I am focusing on the importance of the national 
parks, or all of our parks to local economies.
    Can you give us what the impacts to these economies are 
when our parks, our roads, our bridges, tunnels are not in good 
repair? How does that impact the local economies?
    Mr. Reif. Thank you for the question, sir. The deferred 
maintenance backlog does have a significant impact on our local 
gateway communities to all of our Federal lands. The small 
businesses that rely on access to our Federal lands--you know, 
outfitters, guides, ranchers, all of the small businesses in 
the area rely on being able to access their local Federal 
lands. A number of those small businesses----
    Mr. Lowenthal. But you are the engine that drives the local 
economy?
    Mr. Reif. Absolutely, sir. Many, many small businesses only 
have permits to operate in certain locations, and if that 
access is not available because the transportation 
infrastructure is too deteriorated, then they don't have an 
opportunity to succeed. They can't move to the next location 
that maybe have better infrastructure.
    Even in town, the local hotels and restaurants will have a 
much better opportunity to succeed if they have more patrons 
who are able to get into their neighboring Federal resources.
    Ms. Norton. The gentleman's time has expired.
    Mr. Lowenthal. Thank you, and I yield back.
    Ms. Norton. Mr. Woodall?
    Mr. Woodall. Thank you very much, Madam Chair.
    I want to pick up where Mr. Lowenthal left off. I saw in 
your testimony, Mr. French, you were talking about the 
categorical exclusions that you all are moving towards using, 
and how that is dealing with the backlog, and I want to give 
you a chance to expound on that if I have time.
    But, Mr. Reif, let's go to Interior, because we do count on 
those parks, not just as an environmental engine for those 
local communities, but we count on you all to set the standard 
for environmental protection, and I don't even expect a project 
to show up on your list unless it has gone through your own 
rigorous in-house process, to say this is going to fit with the 
environmental stewardship that America counts on us for.
    So I am thinking about, after you all have gone through 
that process to propose a project, that you then have to go 
back on a water project for a 404 approval or if it is a large 
enough project that you are then going to have to go back and 
do a NEPA review, or if it involves historical projects, go 
back for a 106 review.
    Tell me about that. Thinking about ways that we can find 
bipartisan partnership, we disagree on how many reviews are the 
right number of reviews, but, because you all do set a standard 
for protection of America's resources, if we ought to be able 
to start anywhere to consolidate those reviews, expedite those 
reviews, deal with the backlog that Mr. Lowenthal talked about, 
I would expect it to be with you.
    Mr. Reif. Thank you for the question, sir.
    Let me start by saying, I don't work on the environmental 
compliance end of the program. I mostly work on the 
infrastructure engineering side of the program, but my 
understanding is a lot of those reviews happen concurrently 
while they are working through the environmental process.
    Mr. Woodall. And so, what do we find? That the Park Service 
is proposing a project, and then we do a 106 review and find 
out that that would have been destructive to historical 
resources, and you all just didn't know that ahead of time? 
Does the Park Service propose a project, and then we go back 
and do a 404 review concurrently and find out that the project 
you propose was going to be destructive to America's water 
resources?
    I just expect that a project never even makes it past your 
drawing board unless it fits all of these standards that we 
expect from one another and that we expect the Park Service to 
set a standard on.
    So I am--from an engineering perspective, do you find that 
you have proposed something and it has gone through an internal 
review, and then all of these external reviews come into place, 
and you made a mistake when you let it out of an internal 
process?
    Mr. Reif. Thank you for the question.
    So my understanding is that when you propose a project, you 
have a pretty good idea of what kind of hurdles you are going 
to see in those types of projects, and so, you can work to help 
make sure that you avoid those ahead of time. You don't always 
succeed.
    There sometimes are endangered species that you weren't 
aware of, or something along those lines, so it is not perfect. 
We are always looking at ways to improve our process and be 
more streamlined, but, yes, sir.
    Mr. Woodall. I hope we will be able to come back to that, 
Madam Chair, because DOI is a trusted partner, and we do all 
have a reverence for our parks, and we can share a common 
ground on, if we can streamline, if we have a trusted partner 
anywhere that would allow us to streamline it, it should be 
DOI.
    Mr. French, you have a tougher job, because your lands 
actually work for a living, and so, it is a different issue, 
but can you tell me a little bit about how some of those 
categorical exclusions have the potential to deal with backlog 
and make a difference?
    Mr. French. You bet. You know, as an agency, we have been 
in the space with declining resources, mainly because of the 
costs of fire suppression, and so we have been looking really 
hard about the way we do our work so we can drive as much of 
that funding we do have to the ground. We have looked at it in 
a variety of ways, and that is one of them.
    So it can look at our contracting processes, our investment 
processes, how we decide what should be funded. But, on the 
environmental review side, we looked at, over the last 5 years, 
all the environmental reviews we had done on like-type projects 
for roads, let's say, environmental assessments, and, from 
that, we took those actions that, under the CEQ regs, say, are 
routine and not significant, and we have proposed those into 
CEs, and that is based on our administrative record. That 
creates tremendous efficiencies. It can change the timeframe of 
looking at one of these projects from 2 years down to 6 months.
    Mr. Woodall. I don't think there is anyone on this panel 
that wants to dodge our stewardship responsibility----
    Mr. French. Of course not.
    Mr. Woodall [continuing]. But there is a stewardship with 
the environment that can be paired with stewardship of dollars 
so that we can get more projects done for those communities 
that Mr. Lowenthal mentioned. It makes a big difference. So I 
appreciate----
    Mr. French. Yep.
    Mr. Woodall [continuing]. Your leadership in that area.
    Thank you, Madam Chair. I yield back.
    Ms. Norton. Thank you, Mr. Woodall.
    Mr. Carbajal?
    Mr. Carbajal. Thank you, Madam Chair.
    Deputy Chief French, first, I want to thank you and the 
Forest Service for the extraordinary work, especially in 
providing emergency response. I represent the central coast of 
California, which includes the Los Padres National Forest, and 
our forest traditionally has a demanding fire response, as you 
know.
    That is why I am also proud to have initiated the FOREST 
Act, which is a bipartisan legislation, H.R. 5334, that will 
address the disparity in funding between the Forest Service and 
the National Park Service to address the backlog, and to allow 
for the roads to be better maintained, perhaps even expanded, 
to do better fuels management, and to provide better access to 
our first responders, our firefighters. Today, I want to touch 
on that, and also discuss some of the Forest Service needs.
    In your testimony, you discussed that the Forest Service 
transportation infrastructure has fallen behind in its ability 
to meet user needs. The figure on your side is about $3.6 
billion deferred maintenance backlog. What are each of the 
different fundings or resources available to USFS for your 
transportation needs, and how much of that comes out of the 
programs authorized by this committee? And, two, with such a 
significant backlog, how has this impacted your agency's 
ability to do proper forest management or firefighting 
activities?
    Mr. French. Great. Thank you for the question, and thank 
you for your leadership, and Mr. LaMalfa's leadership on 
recognizing this issue. We certainly appreciate it.
    So, if you look at our overall funding that we have in the 
agency, we are getting about $19 million per year. That is our 
current--it has been $18 million in the past, and $17 million 
directly through the FAST Act. If you look at the funds that we 
received through ERFO for disaster-related, that number can be 
up to $50 million, but it is usually in response to maybe a 
landslide after a fire that has occurred in your district.
    Appropriated dollars that are not part of this committee 
that go directly to our road and trails is about $220 million 
that we receive, and that represents, right now, where it is--
we find that the funding that we have right now represents 
about 3 percent of the need of the deferred maintenance we 
have, and our primary issue, as you started to point out, is 
that trying to address those roads to deal with the broader 
active management, the forest-thinning issues that we have, is 
a challenge.
    Now, there is other sources that we do get, and one of 
those is through timber sales. We can receive--we can put--as 
part of our timber sales, we can ask the purchasers to improve 
roads. The issue that we find ourselves in is that what we are 
doing these days is less about high-value commercial timber; it 
is about protecting communities, thinning forests to reduce 
fire. Sometimes we have to pay to get those trees out of the 
woods.
    So we used to rely on timber sales to help fund many of 
these things. That is not there anymore, because we don't 
receive the same receipts that we used to. The value is 
different.
    Mr. Carbajal. Thank you very much. And, again, I really 
appreciate the extraordinary work your agency does in my 
district. Thanks so much.
    Mr. French. Thank you.
    Ms. Norton. I thank the gentleman for yielding back.
    Mrs. Miller?
    Mrs. Miller. Thank you, Chairwoman Norton, and thank you 
all for being here today. As a Representative for a largely 
rural district, I know firsthand how important highway and road 
construction can be, and particularly for connecting our 
constituents to essential needs and goods and services, along 
with bringing economic development to communities who 
desperately need it.
    As a member of this committee for the past year, I have 
learned so much about how many of our States and our districts 
are struggling to meet their infrastructure demands. I know, in 
my district of West Virginia, which is very rural and very 
mountainous, that our bridges can remain incomplete, roadwork 
seems to be never-ending, and our economy suffers from the 
consequences.
    The Highway Trust Fund remains woefully underfunded, and it 
is essential for this committee to find a reasonable solution 
to our Nation's infrastructure needs.
    Mr. French and Mr. Reif, what problems do the U.S. Forest 
Service and the Department of the Interior have with 
maintaining rural access roads? And how can Congress ensure 
that these rural areas continue to be serviced with quality 
roads?
    Mr. French. Thank you very much for the question.
    It is a huge challenge for us. I mean, the primary first 
piece is the overall funding that is available. In West 
Virginia, in the Monongahela National Forest, I think in your 
district, there is at least $17 million in deferred maintenance 
that we are working on right now. We don't even come close to 
being able to have the resources to hit all those, so what we 
end up doing is stopgap measures.
    I mentioned in my testimony about a bridge in Pennsylvania 
that services a community that we can't get firetrucks across 
right now to protect those communities. We have had to put in a 
stopgap temporary fix just to allow that to happen, and that is 
the sort of triage that we find ourselves doing at any time.
    We think there could be a more rational approach to how the 
FAST Act is allocated. I think that we would be open to 
discussing other ways that we could look at funding some of 
these critical needs, and I think that we very much stand up to 
say we should be more efficient and effective in how we use 
those dollars and show you that, and accountable. I think all 
those three things are important in order to resolve this 
issue.
    Mrs. Miller. Thank you.
    Mr. Reif. I will echo my colleague's comments that we are 
drastically underfunded with trying to keep up with all of the 
deferred maintenance in our portfolio. I referenced in my 
testimony a study by the National Academy of Sciences that 
indicates that 2 to 4 percent of an asset value should be 
attributed to maintenance for every year, annually, for 
maintenance, and we are able to contribute about one-half of 1 
percent of our budgets towards maintenance of our assets.
    So we are just having a hard time keeping up. We are 
looking for efficiencies. Within our transportation programs, 
we are trying to spend more of our time and effort and funding 
on low-cost efforts to preserve what good things we have in 
good condition, so that we can slowly build the network back up 
over time by keeping what we have in good condition, and then 
slowly addressing some of the bigger challenges, the bigger 
dollar reconstruction projects as we can, and then, again, to 
keep a little bit of money on them to keep them in excellent 
condition.
    So we are attempting to drive that process, but it is a 
really hard boulder to get out from under with just the roads 
are naturally just deteriorating faster than we can address 
them.
    Mrs. Miller. It is never-ending. I have a farm, and the 
road to my farm goes by a creek and up and down, and it is 
always, always in need of repair, and they repair it, and then 
they repair the repair, and then--it is hard.
    Mr. French, what steps is the U.S. Forest Service taking to 
speed up regulatory hurdles, and are there any regulatory 
burdens mandated by Congress that impair the Service's ability 
to efficiently maintain their infrastructure?
    Mr. French. OK. Thank you.
    As I spoke before, one, we have put together a 
comprehensive capital improvement strategy, a long-term 
transportation strategy, and a deferred maintenance strategy, 
because we don't want to just spread the resources; we want to 
hit the right things in the right places.
    Secondly, we are looking at the processes we use to make 
sure that work happens on the ground, whether it is through 
contracting, whether it is through design, and looking at more 
effective design or through our environmental reviews, trying 
to make sure that we are doing that in expedient ways. It is 
also about project management, having the right resources in 
the right places to get the work done and not just sort of go 
on forever.
    That is what we are doing on our end.
    In terms of Congress, I think many of the ideas that have 
been talked about here, looking at the needs of the agencies, 
and then looking at the way this program essentially is--feeds 
its money through, through Federal Highways, and then the 
amounts is something that is worth taking a look at it. It can 
create some delays, and I would assert that the amounts are 
maybe not commensurate with the needs.
    Mrs. Miller. How does the Forest Service coordinate between 
the local, State, and Federal levels, and what can be done to 
improve those lines of communication?
    Ms. Norton. The gentlewoman's time has expired.
    Mrs. Miller. Thank you.
    Ms. Norton. Mr. Brown?
    Mr. Brown. Thank you, Madam Chairwoman. The Baltimore-
Washington Parkway is an important regional artery for over 
63,000 daily commuters from my district and around the State of 
Maryland. Commuters rely on the BW Parkway to get to work and 
school every day and are more often than not subject to unsafe 
road conditions as a result of years of neglect. The BW Parkway 
has become notorious for its potholes and traffic jams.
    Last March the situation got so bad that the Maryland 
delegation had to appeal to the National Park Service to 
conduct emergency repairs on the parkway, and we are thankful 
that those repairs were made. However, these repairs were a 
Band-Aid and it is only a matter of time until we are back to 
where we were last March.
    Throughout this process, it has been unclear to me how the 
Park Service prioritizes roads that experience high-volume 
traffic within its jurisdiction. Data that my staff received 
from the Park Service back in October indicated that the agency 
assesses the BW Parkway in a state of good repair, with zero 
percent of the miles being in poor condition. Anyone who drives 
down the parkway regularly knows this is an inaccurate 
assessment.
    Between 2015 and 2019, the BW Parkway only received $15 
million in funding from the Federal Lands Transportation 
Program. This is in stark contrast to the $55 million in FLTP 
funding that went to Blue Ridge Parkway, the $52 million for 
Natchez Trace Parkway, and the $26 million that went into 
Foothills Parkway.
    According to NPS data, the BW Parkway carries considerably 
more drivers each day and yet is getting a fraction of funds 
from this program. In an attempt to address this disparity, I, 
along with Chairwoman Norton, and some of our colleagues in the 
National Capital region have introduced the Commuter Parkway 
Safety and Reliability Act. Our bill directs the National Park 
Service, through the Federal Lands Transportation Program, to 
prioritize high-commuter corridors.
    This legislation would ensure that FLTP funds, within the 
National Park Service's jurisdiction, are prioritized based on 
parkway use.
    Mr. Reif, could you please tell the committee how the 
National Park Service currently prioritizes these funds and why 
parkways that see a high number of commuters each day aren't 
receiving a greater percentage of the FLTP funds?
    Mr. Reif. Yes, sir, thank you. The Park Service, with their 
$284 million per year, first distributes those funds to each 
region. And those distributions are based on the inventory 
within each region, the condition of the roads within each 
region, and visitation data within each region. So that 
translates to approximately--oh, and I am sorry--and highway 
crashes in the region.
    Mr. Brown. Let me ask you then, so I hear two criteria--by 
region, highway crashes. Does the Department consider the rate 
of daily traffic when prioritizing----
    Mr. Reif. Yes, I am sorry, I misspoke. It is not 
visitation. It is VMT, vehicle-miles traveled. So, yes, sir, it 
does.
    Mr. Brown. OK. Does the Department have a long-term plan to 
deal with the deferred maintenance backlog of parkways that see 
a high rate of commuters?
    Mr. Reif. Well, the money that gets down to the regional 
level, which, in the National Capital region is approximately 
$23 million per year, about 9 percent of the overall--the 
region then prioritizes within its needs based on asset 
criticality and condition of the assets and a few other 
factors, to determine where they want to put that fairly small 
sum of money.
    Mr. Brown. And then in terms of the allocation to the 
regions, is that based on daily commuter volume?
    Mr. Reif. That is one of the factors, yes, sir.
    Mr. Brown. To go to the regions?
    Mr. Reif. To go to the regions.
    Mr. Brown. And then within the regions that is another 
factor?
    Mr. Reif. Within the region, that is--that is a factor to 
distribute money to the region, and then within the region, 
they look at all of their assets and determine how the----
    Mr. Brown. And with just the little bit of time I have 
left, can you tell me what metrics the Department of the 
Interior uses to determine if a parkway is in a state of good 
repair?
    Mr. Reif. Yes, sir. The pavement condition rating is what 
the Park Service uses for measuring state of good repair. They 
have a vehicle that has a number of sensors on it to measure 
rutting and cracking and roughness and a number of other 
things.
    Mr. Brown. Just a yes or no question.
    Mr. Reif. Yes, sir.
    Mr. Brown. Have you been on the Baltimore-Washington 
Parkway recently?
    Mr. Reif. Not in the last year or so since we have had the 
emergency fix.
    Mr. Brown. OK. I invite you to travel that and see if 
reality matches up with the assessment.
    Mr. Reif. I understand.
    Mr. Brown. I yield back, Madam Chair.
    Mr. Reif. Thank you.
    Ms. Norton. Thank you, Mr. Brown.
    Mr. Stanton?
    Mr. Stanton. Thank you very much, Madam Chair. It has been 
18 years since this committee last had a hearing on Tribal 
transportation needs. It is long overdue. So I want to thank 
you so much for holding the hearing, granting the request of 
Congresswoman Davids and I that we have a hearing focused on 
Tribal infrastructure and transportation needs. It is important 
that we hear directly from Tribal leaders on their needs and 
priorities for reauthorization of the surface transportation 
bill.
    Transportation infrastructure is critical for our Tribal 
communities, including the 22 Tribal Nations in my State of 
Arizona, a modern transportation network that fosters economic 
opportunity, helps Tribal members reach their jobs, aids 
emergency personnel, connects vast distances between Tribal 
communities, and transports children to and from school.
    The transportation infrastructure needs of our Tribal 
Nations are great. Many of the roads and bridges are a barrier 
to greater economic opportunities and our travel communities 
because they need significant improvement or repair.
    This past summer I had the opportunity to visit the Navajo 
Nation and see firsthand the significant transportation 
infrastructure challenges the Nation is facing. The Navajo 
Nation has more than 11,200 miles of roads over 27,000 square 
miles, making the Nation first out of all BIA regions for road-
miles.
    The vast majority of these roads, 86 percent, are unpaved. 
Unpaved roads create numerous challenges, especially in adverse 
weather conditions for members of the Navajo Nation, whether 
getting to school or work or accessing critical services like 
healthcare.
    At current funding levels, the Nation estimates it would 
take approximately 116 years and $7.9 billion to meet their 
current transportation infrastructure needs. Let me repeat 
that--116 years. That is unacceptable to everyone here.
    Like the Navajo Nation, the Salt River Pima-Maricopa Indian 
Community is also experiencing significant infrastructure 
challenges. Years ago, the community was on the outer edges of 
Phoenix, but now it is bordered by our rapidly growing 
communities, impacting traffic throughout Salt River.
    Hundreds of thousands of vehicles travel through the Salt 
River Pima-Maricopa Indian Community each day, placing great 
strain on the Tribe's ability to maintain and keep these roads 
safe. The Federal Government has a trust responsibility to 
Tribal Nations, which includes providing the resources 
necessary to ensure the transportation needs in Native 
Communities are addressed. Yet, despite this trust 
responsibility, Salt River receives only a tiny fraction of the 
Federal funds it needs for maintenance and construction.
    While the FAST Act took important steps to help address the 
significant transportation needs and disparities in Tribal 
communities across the country, more work must be done. We have 
an opportunity in the upcoming reauthorization bill to build on 
the progress in the FAST Act and make sure Tribes do receive 
the resources needed to address these urgent needs.
    Madam Chair, I ask unanimous consent to include in the 
record letters from the Inter Tribal Association of Arizona, 
the Navajo Nation, Salt River Pima-Maricopa Indian Community, 
and the Gila River Indian Community to discuss in more detail 
their individual needs.
    Ms. Norton. So ordered.
    [The information follows:]

                                 <F-dash>
 Letter of January 31, 2020, from Shan Lewis, President, Inter Tribal 
 Association of Arizona, Submitted for the Record by Hon. Greg Stanton
                                                  January 31, 2020.
Hon. Greg Stanton,
U.S. House of Representatives, Washington, DC.

RE: Support for Transportation Infrastructure Needs in Indian Country

    Dear Congressman Stanton,
    This letter is being submitted on behalf of the Inter Tribal 
Association of Arizona (ITAA) regarding the surface transportation bill 
to be reauthorized this year. ITAA is an inter-tribal consortium of 21 
federally recognized Indian Tribes with lands in Arizona, California, 
and Nevada. The Member Tribes of ITAA have advocated together since 
1952 on issues of common interest and concern across Indian Country. 
ITAA is governed by the highest elected Tribal officials from each 
Tribe, including Tribal chairpersons, presidents and governors.
    Improving transportation in Indian Country is critical to ensuring 
Tribes are able to meet the needs of their communities and build 
economic development opportunities on a framework of modern 
infrastructure. Your support for funding programs specifically targeted 
to addressing construction and maintenance of transportation 
infrastructure in Indian Country, such as the priorities listed below, 
is critical in meeting the transportation needs of Tribes. In addition, 
we appreciate your continued support for ensuring that the Department 
of Interior and the Department of Transportation are adequately 
consulting with Tribes and joining with Tribal governments in planning 
and developing projects that benefit ITAA's Member Tribes.
    As a member of the House Transportation and Infrastructure 
Committee, ITAA Member Tribes appreciate your efforts to ensure the 
transportation needs of Tribes in Arizona and beyond are included in 
the reauthorization process. Please find below a list of tribal 
transportation priorities which we seek to have included in the hearing 
of the House Subcommittee for Highways and Transit scheduled for 
February 6, 2020.
    Tribal Transportation Priorities:
    <bullet>  Creating within the Department of Transportation an 
office to consult and coordinate with Tribal governments:
      <bullet>  Establish within the US Department of Transportation an 
Office of Tribal Government Affairs to oversee the Tribal 
Transportation Self-Governance Program (TTSGP), coordinate tribal 
transportation programs and activities in all DOT administrations and 
participate in any negotiated rulemaking that affects tribal projects, 
programs or TTSGP funding.
      <bullet>  Appoint an Assistant Secretary for the Office of Tribal 
Government Affairs.
      <bullet>  Create a joint tribal and federal advisory committee.
    <bullet>  Improving the integrity of the Tribal transportation 
system:
      <bullet>  Increase annual funding for the Tribal Transportation 
Program to $565M in FY21, followed by annual $15M increases through 
FY25.
      <bullet>  Reinstate a stand-alone Tribal Bridge Program with $16M 
for FY21 followed by annual $2M increases through FY25.
      <bullet>  Increase annual funding for the BIA Road Maintenance 
Program to $50M in FY21 followed by annual $2M increases through FY25.
      <bullet>  Remove the annual Obligation Limitation takedown from 
the Tribal Transportation Program and Tribal Bridge Program.
      <bullet>  Authorize $39M annually for the Tribal High Priority 
Project Program.
      <bullet>  Increase the set-aside for Tribal Transportation 
Program safety from 2% to 8%.
      <bullet>  Increase the set-aside for Tribal Transportation 
Program planning from 2% to 5%.
    <bullet>  Improving the delivery of programs, services and funds to 
Tribal governments:
      <bullet>  Restructure the Nationally Significant Federal Lands 
and Tribal Projects Program by reducing the minimum project size from 
$25M to $12.5M, establishing a 50% set-aside for tribal projects and 
increasing the federal share to 100%.
      <bullet>  Streamline approaches for Tribal governments to form 
cooperative agreements with states and local government for highway 
planning, design and safety.
      <bullet>  Allow the transfer of Customs and Border Protection 
funds to the Bureau of Indian Affairs Division of Transportation to 
maintain, repair or reconstruct a road, if Customs and Border 
Protection is the primary road user.
      <bullet>  Complete any approval or review of the safety project 
required under NEPA and the National Historic Preservation Act (NHPA) 
in a timely manner and take final action only after Tribal Consultation 
is complete, allowing a Tribal government to request a 30-day 
extension, if needed.

    I appreciate this opportunity for ITAA to participate in the work 
of the Subcommittee for Highways and Transit by submitting this letter. 
While I regret that I will not be able to attend the subcommittee 
hearing, I appreciate the advocacy that you have shown for Tribes in 
the past and look forward to your support for additional funding and 
reforms to address the transportation needs of ITAA's Member Tribes. If 
you should have any questions, please contact Ms. Maria Dadgar, ITAA 
Executive Director.
    Thank you again for your support.
        Sincerely,
                                   Shan Lewis,
                                           President, Inter Tribal 
                                               Association of Arizona,
                                           Vice Chairman, Fort Mojave 
                                               Indian Tribe.

                                 <F-dash>
  Letter of February 3, 2020, from Jonathan Nez, President and Myron 
Lizer, Vice President, Navajo Nation, Submitted for the Record by Hon. 
                              Greg Stanton
                                                  February 3, 2020.
Hon. Peter DeFazio,
House Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Sam Graves,
House Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.

RE:  Subcommittee on Highways and Transit Hearing on: Assessing the 
Transportation Needs of Tribes, Federal Land Management Agencies, and 
U.S. Territories

    Dear Chairman DeFazio and Ranking Member Graves,
    As the largest land-based Indian Tribe in the country, the Navajo 
Nation encompasses over 27,000 square-miles across three states 
(Arizona, New Mexico, and Utah) and has a registered enrollment of over 
350,000 members. With such a broad land base and areas that lie within 
multi-jurisdictional boundaries, the Navajo Nation encounters some of 
the most challenging obstacles when it comes to meeting its 
transportation and infrastructure needs.
    The Navajo Nation ranks second in population and first in road 
mileage out of all of the BIA regions. The Navajo Nation has more than 
11,200 miles of roads, with over 9,500 miles remaining unpaved. 
Additionally, there are 179 bridges on the Nation; 38 are eligible for 
rehabilitation and 28 are eligible for replacement.
    The Navajo Nation receives about $54 million annually from the 
Federal Highway Administration. Of this amount, 9 percent or $4.9 
million goes to Operations and Planning; over 10 percent or $5.6 
million goes to Road Maintenance and Safety Projects; over 12 percent 
or $6.9 million goes to Preliminary Engineering and Construction 
Engineering; and the remaining over 67 percent or $36.6 million goes to 
Construction. Since it costs nearly $3 million to pave one mile of new 
road, funds appropriated each year allows the Navajo Nation to build 
only 12.2 miles of new road.
    At the current funding level, Navajo Nation transportation 
officials have estimated that it would take approximately 116 years and 
$7.9 billion to meet current transportation infrastructure needs. 
Pavement deficiencies need approximately $1.4 billion in repair and 
upgrades to the remaining roadway system need $6.5 billion.
    Unpaved roads negatively impact school and work attendance, and the 
delivery of health and other community services. Dirt roads are also 
susceptible to damage from snow, floods, and washouts.
    During winter storms and heavy downpour, families can be stranded 
for days due to the inability of accessing paved major roads. This 
results in poor attendance and severe wear and tear on automobiles. For 
example, in 2015, San Juan County canceled 10 days of classes in a 
single semester because of poor road conditions. Ambulances and first 
responders face flooded roads and often ferry with local residents who 
have four-wheel drive vehicles to reach their patients. People with 
chronic medical conditions like kidney dialysis, often miss their 
appointments. Work commutes continue to remain a challenge.
    Paved roads are highly valued and needed for dependable, safe 
travel for families and school buses. The Navajo Nation's roads are 
lifelines and are crucial for planning the development of energy and 
water resources, as well as for community and economic development.
    It is imperative that the Navajo Nation is appropriated funding for 
investment in maintenance and infrastructure of on-reservation 
highways, roads and bridges. Paved roads on the Navajo Nation serve as 
critical corridors for overland freight transported by the trucking 
industry. A significant amount of the traffic which utilizes the Navajo 
Nation Highway infrastructure is pass-through traffic.
    For the reasons stated above the Navajo Nation implores this 
Committee to appropriate funds specifically for utilization towards 
fixing these deficiencies. If you have any questions, please contact 
the Navajo Nation Washington Office Executive Director, Santee Lewis.
        Sincerely,
                                   Jonathan Nez,
                                           President, The Navajo 
                                               Nation.
                                   Myron Lizer,
                                           Vice President, The Navajo 
                                               Nation.

                                 <F-dash>
Letter of February 3, 2020, from Martin Harvier, President, Salt River 
 Pima-Maricopa Indian Community, Submitted for the Record by Hon. Greg 
                                Stanton
                                                  February 3, 2020.
Hon. Greg Stanton,
Member,
House Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
    Dear Congressman Stanton,
    Thank you for the opportunity to provide information for the House 
Committee on Transportation and Infrastructure's upcoming hearing on 
Assessing the Transportation Needs of Tribes, Federal Land Management 
Agencies, and U.S. Territories. On behalf of the Salt River Pima-
Maricopa Indian Community, we deeply appreciate your continued interest 
in ensuring that federal transportation resources are equitably 
distributed across the nation, including in underserved communities 
such as ours.
    Where the Community was once on the outskirts of the Phoenix 
metropolitan area, today we are an integral part of the growing east 
valley of Phoenix. The cities that border our Community including 
Tempe, Scottsdale, and Mesa, are some of the fastest growing cities in 
the country.
    The tremendous growth is best described by the average daily 
traffic counts on the freeways and major roadways in and around our 
Community. Three major freeways--the Loop 101, Loop 202, and State 
Route 87--convey more than 400,000 vehicles through the Community each 
day. Add to that an estimated 250,000 vehicles on some of the larger 
surface roadways--such as McKellips, McDowell, Pima, and Country Club 
roads--there are more than 650,000 vehicles traveling daily through our 
Reservation.
    As you can imagine, this puts a tremendous strain on the 
Community's public safety and public works agencies that are 
responsible for maintaining and keeping roadways safe for travel.
   Insufficient Federal Support for Road Construction and Maintenance
    The bottom line is that federal tribal transportation programs are 
significantly underfunded. For example, on an annual basis our 
Community receives $92,000 from the U.S. Department of Interior, Bureau 
of Indian Affairs (BIA), for road maintenance. This represents 6.5 
percent of the total need. As a result, the Community supplements the 
meager federal funding with nearly $1.4 million dollars each year.
    Further, for the Community's 5-year new-construction plan, BIA 
funding will provide only 3%, or $7 million dollars, of the overall 
budget.
    Clearly, there is not enough money to meet the basic maintenance 
needs of our current roads, let alone the funding necessary to support 
a robust 21st century transportation system. As a result, we believe an 
increase in funds for tribal transportation programs will help tribes 
establish, maintain and perpetuate tribal transportation programs.
    We urge the Committee to support set-asides in federal 
transportation, highway safety, and related programs, as well as reduce 
the local match requirement for competitive grants to ensure federal 
funds reach Indian country.
    Fortunately, the Salt River Indian Community has been uniquely 
successful in applying for competitive U.S.D.O.T. Grants. For example, 
in 2019 our Community was awarded $49 million from the Nationally 
Significant Federal Lands and Tribal Project program. The grant will 
support the Pima Road Redevelopment between the Community and the City 
of Scottsdale. When complete, it will improve safety, decrease cut-
through traffic, and expand opportunities for economic development 
along a major thoroughfare. This is the definition of a major 
infrastructure project that will reshape our Community.
    It is worth noting, however, the grant to the Community was the 
only grant from the program that primarily funded work within Indian 
Country. If the Committee is serious about addressing the needs of 
Native American Tribes, the time has come to ensure that more of these 
transformative grants are awarded for projects on tribal lands.
                         Transportation Safety
    While our connectivity with other jurisdictions encourages economic 
development, it also creates unique negative impacts. Most notably, a 
significant number of vehicles use the Community's surface roads as an 
alternative to regional arteries. This ``cut-through'' traffic 
increases wear and tear on roads and creates the potential for safety 
issues in and around our residential areas.
    Currently our law enforcement and transportation agencies work 
closely with neighboring jurisdictions to address safety issues 
including:
    a.  Reducing cut through traffic
    b.  Reducing severe and fatal crashes
    c.  Speed reduction
    d.  Increasing lighting on secondary roads; and
    e.  Improving pedestrian facilities

    Unfortunately, the tribe cannot take advantage of most federal 
highway safety programs and funding to support these activities. I urge 
the Committee to review and consider the recommendations put forward by 
the Tribal Transportation Safety Working Group to help improve vehicle 
and pedestrian safety on tribal lands.
                            Self-Governance
    As a matter of policy and practice, our Community believes in Self-
Governance. As you know, this philosophy embraces the idea of allowing 
tribal governments to take over the administration of federal programs. 
We are proud to say our experience with tribal self-governance has been 
very successful, and is a perfect example of the most efficient use of 
the federal dollar.
    That is why our Community eagerly supported the effort to expand 
tribal self-governance into all USDOT programs, as authorized by the 
FAST ACT. Our staff proudly served on the Tribal Transportation Self 
Governance Program Negotiated Rulemaking Committee with the Department 
of Transportation. Our Community is strongly supportive of the 
regulation proposed by the Department, and believe it represents a 
significant step in the right direction.
    While we support the rule, there are some shortcomings that the 
Committee can address.
    First, the Salt River Indian Community encourages the Department to 
explicitly authorize the creation of an Office of Self Governance in 
the next surface transportation bill. This office should be modeled 
after the Office of Self Governance at the Department of the Interior, 
and should be a central location for tribes, and our staff, to go when 
interacting with the Department.
    Second, the Committee should clarify that contract support costs 
are an integral part of self-governance funding and direct the 
Department to include these costs in all self-governance agreements. 
This is also consistent with Federal Court decisions that have ruled 
time and again that these costs are a direct component of federal 
contracts and must be included as a part of self-governance agreements.
    Thank you again for the opportunity to provide input on the 
Community's transportation priorities. Should you have any questions, 
please do not hesitate to contact me, or have your staff contact Gary 
Bohnee, Director of the Office of Congressional and Legislative 
Affairs.
        Sincerely,
                                   Martin Harvier,
                                           President, Salt River Pima-
                                               Maricopa Indian 
                                               Community.

cc: SRPMIC Community Council

                                 <F-dash>
   Statement of Hon. Stephen Roe Lewis, Governor, Gila River Indian 
        Community, Submitted for the Record by Hon. Greg Stanton
    Chairwoman Norton, Ranking Member Davis and Members of the 
Subcommittee, I want to thank you for holding this important hearing to 
assess the transportation needs of Tribal Nations. Safe and adequate 
transportation infrastructure is not only critical for our tribal 
citizens and others who utilize our roadways, but also for economic 
development and other governmental functions. We appreciate the 
Subcommittee holding this hearing to ensure that tribal transportation 
needs are considered in the broader conversations occurring nationally 
around transportation reauthorization and infrastructure development.
                  Background on Tribal Transportation
    The latest long-term surface transportation reauthorization, the 
FAST Act, was signed into law on December 4, 2015. This Act provides 
$305 billion in funding for surface transportation infrastructure 
through fiscal year 2020, when it is set to expire. Specific to tribal 
transportation, the FAST Act reauthorized the Tribal Transportation 
program and provided for increased funding for that program from $450 
million in 2015 to $465 million in 2016 with step increases of $10 
million per year, reaching $505 million in fiscal year 2020. The FAST 
Act also placed a focus on tribal safety funding and reporting and 
allocated specific funding for tribal planning and bridge maintenance. 
With this surface transportation reauthorization set to expire in 2020, 
there is a renewed focus on how to build on the gains in the last 
reauthorization and ensure that tribal governments have the resources 
they need to provide safe and efficient transportation for their 
members, residents of surrounding communities, and to promote 
development both on and off tribal lands.
           Gila River Indian Community Transportation Program
    The Community's Reservation abuts the southern boundary of the 
Phoenix Metropolitan Area, and is located in the first and third most 
populated counties in Arizona--Maricopa County (4.3 million), and Pinal 
County (430,000). The Community's Reservation is a 583.7 square mile 
rural island with the Phoenix-Metro to its north and Phoenix-Metro 
exurbs to its south and east. Approximately 15,000 of the Community's 
23,000 members live on our Reservation. The Community's proximity to 
the sixth largest metropolitan area in the country, combined with a 
sizeable land base, require its transportation programs to address 
transportation needs associated with both a rural and a metropolitan 
area. This location also means that planning for tribal transportation 
programs and significant projects must be done in conjunction with the 
local municipalities and the state given that a 20 mile stretch of 
Interstate 10 cross the Reservation and five state highway routes are 
located on the Reservation.
    In 1997, the Community established the Gila River Indian Community 
Department of Transportation (``GRIC DOT'') which has grown to a staff 
of 45. GRIC DOT oversees the administrative, planning, engineering, 
surveying, rights-of-way, construction, operations and maintenance 
activities on the Reservation. GRIC DOT is responsible for the 
Community's road inventory which consists of approximately 420 miles of 
roads and 67 bridges. Of the 420 miles, the majority are Bureau of 
Indian Affairs (``BIA'') roads (306.7), with the rest tribal, county 
and township and state roads.
    In 2003, the Community entered into a self-governance compact with 
the BIA to take over those functions that the BIA was performing. In 
2009, the Community entered into an agreement with the U.S. Department 
of Transportation Federal Highway Administration to take over roads 
activities for all BIA and Community-owned roads within the 
Reservation, including planning, research, design, engineering, 
construction and maintenance of highway, road, bridge, parkway or 
transit facility programs or projects located on the Reservation or 
provide access to the Community's Reservation. This agreement still 
requires a level of coordination with the BIA, but allows the Community 
to determine its own priorities through its five-year transportation 
plan, which is approved by Council. In taking over those programs 
previously performed by the federal agencies, the Community has been 
able to be more strategic and purposeful in its transportation 
planning.
    Although the majority of the Community's funding comes through the 
United States Department of Transportation maintenance of the BIA roads 
within the Reservation is still funded through the BIA. The shortfall 
in maintenance funding for BIA roads nationwide is well documented with 
the current deferred maintenance required estimated at nearly $300 
million. The Community also faces a maintenance backlog on the BIA 
roads within the Reservation. With approximately 307 BIA roads to 
maintain and an annual allocation of $3 million, each mile of BIA road 
receives $9,771 for maintenance.
    This level of funding is highly inadequate to maintain roads that 
are considered in good shape. Unfortunately, the BIA roads on the 
Community's Reservation have been neglected for decades. At the wholly 
inadequate current funding levels all the Community is able to do is 
maintain roads that are in poor shape. It is analogous to putting a 
band aid over a pothole and expecting it to create a safe mode of 
transportation for tribal and non-tribal citizens who utilize those 
roads.
    GRIC DOT also operates Gila River Transit which is funded through 
tribal funds and Rural Transit Program funds administered by the 
Arizona Department of Transportation (``ADOT''). The transit staff 
includes five full-time employees--one administrator and 4 bus 
operators and provides shuttle services in Sacaton which serves 
District 3 and the West End which services Districts 6 and 7. Ridership 
in the transit program has steadily increased from the first grant year 
in 2016 with the Sacaton transit going from 7,800 riders in 2016 to 
16,714 in 2018. The West End ridership increased from 2,277 in 2016 to 
8,346 in 2018. In September of 2018, GRIC DOT received its second two 
year funding award from ADOT's rural transit program and receives 
approximately $304,000 annual to operate the transit system. Given it 
takes approximately two to three years for a transit route to mature, 
the ridership numbers for these two routes is impressive.
    The Community would like to continue to add more routes to its 
transit service, but limited funding directed towards tribal 
governments and increased competition for rural transit funds can bring 
uncertainty when tribes are investing in much needed transit systems 
for their citizens.
                                 Safety
    Transportation safety is a critical issue affecting tribal 
communities. Motor vehicle crashes are the leading cause of 
unintentional death for American Indians and Alaska Natives with 
fatalities more than twice that of other races for adults and eight 
times higher among infants less than one year of age.
    In the FAST Act, 2% of the funding allocated for the Tribal 
Transportation Program is eligible to be used for tribal safety. The 
funds are allocated under a discretionary, competitive grant programs 
for projects that will address prevention and reduction of 
transportation related activities such as motor vehicle crashes. These 
grants can also be used to develop and update transportation safety 
plans, improve collection of, assessment and analysis of crash data, 
and for infrastructure improvements. While this funding is a positive 
step forward, the amount remains seriously deficient for the safety 
needs in Indian Country. Despite acknowledging that tribal citizens are 
the most impacted population by motor vehicle crashes, lack of 
available and accessible data is often cited as the reason more funding 
is not available.
    Therefore, the FAST Act required a report to Congress on Tribal 
Governments and Transportation Safety Data with the goal of improving 
data collection and sharing among to improve transportation policies, 
funding and data collection systems. Some of the major recommendations 
were to bring increased coordination and consistency in how data is 
collected among tribes and federal entities.
    In Arizona, the state encourages all of the law enforcement 
agencies within the state to share data, including tribal governments' 
law enforcement. The Community has been sharing crash data with the 
state and county for the past several years in an effort to ensure that 
those incidents that occur on, or near the Reservation are recorded. 
This allows the Community to identify those roadways and areas that 
require safety features and also offers the opportunity to ensure those 
safety projects are not only on the tribal transportation plan, but 
also have the data to show why the state should provide resources to 
improve safety.
    One example of the Community benefiting from sharing safety data 
with state and local jurisdictions is the project on State Route 87 
which runs through Districts 1, 2, and 4. This route was identified as 
needing additional safety infrastructure based on the number of 
fatalities that have occurred. Following a study of the safety needs, 
and in partnership with ADOT, additional turn lanes were constructed at 
15 intersections on State Route 87 and other measures were taken 
including new signage, surface treatment, a centerline rumble strip and 
new pavement markings.
    The continued collection of crash data determined that there are 
still three areas in need of additional safety measures--the 
intersections of State Route 87 and Gilbert, Sacaton & Olberg roads. 
These intersections are located within the Reservation and have been 
the site of a number of fatal and incapacitating intersection related 
crashes. ADOT has determined that this project is eligible for funding 
under the Highway Safety Improvement Program funding. Therefore, three 
traffic signals will be place at these three intersections. This type 
of project is typical of those that require multi-jurisdictional 
cooperation based on state, county, federal, tribal and BIA roads all 
running through the Reservation, where the at-risk-site is on the 
Reservation, but must be on the State's Transportation Plan in order to 
received funding approvals.
    Aside from allowing for more targeted funding requests, the 
Community's decision to share data with the State also allows for more 
targeted law enforcement in those areas that are highest risk and for 
more strategic educational outreach to the Community on the effects of 
seat belt usage, speeding, drinking and driving, and impaired driving.
Tribal Safety Plan
    The Community was the first tribe in Arizona to prepare a tribal 
safety plan framework. As of 2013, no tribe in Arizona had a safety 
plan which made it difficult for them to collaborate with ADOT and 
local municipalities on tribal safety. In conjunction with the 
Intertribal Council of Arizona, the Community developed a tribal safety 
plan framework that ultimately led to a Tribal Safety Plan approved by 
the Community Council.
    To develop the Tribal Safety Plan Community workshops were 
conducted with other stakeholders including the Federal Highway 
Administration, ADOT, BIA, Intertribal Council of Arizona, Maricopa 
Association of Governments, Arizona Department of Public Safety, Indian 
Health Services, and Community departments such as the police 
department, GRIC DOT, emergency services and injury prevention program.
    The Community also conducted a Multimodal Pedestrian Safety Study 
that evaluated the pedestrian safety needs on the Reservation including 
sidewalks/shared use paths, bus stops/turnouts, and other 
infrastructure. This study was used to provide data for potential 
funding sources and build a comprehensive safety plan for the Community 
and included input from external stakeholders such as federal 
officials, business, the general public and tribal departments such as 
the police department, housing, senior center, school transportation 
department, flood control management task force and the youth council. 
This study ultimately provided recommendations on issues such as 
locations for speed reduction, trails, crosswalks, lighting, sidewalks, 
signage, bike lanes and handicap access.
    The safety plan made recommendations on responses to and prevention 
of crashes and locations deemed in need of safety measures, bicycle and 
ATV safety, child safety seat program, seatbelt usage, driving under 
the influence. The plan was approved by the Community Council in July 
of 2014.
    Together these studies have created a roadmap for safety within the 
Community. This has allowed the Community to prioritize road 
construction and safety projects, work with external partners, such as 
the State and local municipalities, in a more collaborative manner and 
identify funding sources to address the safety needs of tribal citizens 
and non-tribal users of the Community's transportation infrastructure.
                     Improvements to Interstate 10
    One of the issues facing the Community is working with other 
governments on planning and construction of large-scale transportation 
projects. In some cases, tribal governments are left out of the 
planning of large-scale infrastructure projects which hampers their 
ability to integrate into project that occur directly off the 
Reservation but still have significant and long-term effects on the 
transportation needs of the Community. One such case, is the I-10 
project in Arizona.
    Despite projects underway to widen the stretch of I-10 between 
Phoenix and Tucson from 2 lanes to 3 lanes by the end of 2019, there 
remains a 20 mile stretch of the highway within the Reservation left 
unimproved.
    In the past year, ADOT, reached out to the Community for proposals 
for a design concept report and environmental study on the addition of 
lanes to I-10, along with improvements to existing interchanges. The 
study is required for federally funded projects and will have an 
accelerated timeline of 18 months. This study will take into account 
the strategy needed to improve traffic capacity along the I-10 and to 
account for growing needs based on current and future economic 
opportunities along the corridor.
Funding
    The Governor, ADOT, the Maricopa Association of Governments and the 
Community all support funding for the I-10 interchanges. When projects 
of this size are contemplated it is imperative that tribal governments, 
as equal partners, have access to the same type and level of funding 
that state and other governments have. There are few federal funding 
agreement that provide direct funding to tribes for projects of this 
scope and size. One grant that the Community recommends that Congress 
and Appropriators continue to support is the Better Utilizing 
Investments to Leverage Development (``BUILD'') program.
    The Community has determined this program is one of the only 
feasible grants that can provide sufficient funding for projects such 
as the I-10 interchange project. This grant is a competitive grant for 
surface transportation projects and is open to state, local and tribal 
governments for projects like the I-10 that have a significant local or 
regional impact. These grants are split between rural and urban 
projects, but the Community recommends Congress also consider having a 
specific percentage of these grants designated for projects located on 
tribal lands. Despite overwhelming need, few tribal governments have 
been awarded these grants. In 2018 only one tribe received direct 
funding and the other project was a joint application with the state. 
In 2019, no tribes received funding under the BUILD grant and there 
were no planning grants awarded. The Community submitted a planning 
grant for the I-10 study project, but did not receive a grant award 
because no planning grants were funded in the last grant cycle.
    For the Community, direct funding would allow us to begin working 
on this important interchange project. The State could also apply which 
would enable the tribe and state to work as partners on this regionally 
important project. I encourage Congress to maintain this program in the 
next reauthorization and to ensure that tribes are able to secure 
grants in the next phase of this allocation of this grant programs.
                       Office of Self Governance
    The Community was encouraged by the language in the FAST Act that 
culminated in a self-governance rulemaking to expand self-governance 
programs throughout the Department of Transportation. With the 
rulemaking completed, the Community encourages the Department to 
establish an Office of Self-Governance to oversee the program. This 
will ensure self-governance is successful and Tribal Nations are able 
to access those programs that will enable them to provide for the 
transportation and infrastructure needs of their communities.
                               Conclusion
    The FAST Act provided positive incremental improvements in the 
tribal transportation program. It will be important to take those gains 
to crate even more significant programmatic advances in the next 
reauthorization. Aside from increasing funding levels for surface 
transportation, transit and safety programs, Congress should create 
incentives for transportation and infrastructure projects that are 
multi-jurisdiction and have significant benefits both on, and off, the 
Reservation.

    Mr. Stanton. These letters highlight the transportation 
infrastructure challenges and priorities of the Tribes in 
Arizona for your authorization. One of the recommendations I 
have heard from Tribes in Arizona and others across the country 
is the need for an Office of Self-Governance at the Department 
of Transportation to oversee and implement the Tribal 
Transportation Self-Governance Program.
    Mr. Garcia, you addressed this earlier. I make the same 
question then for Ms. Clark. I want to give you an opportunity 
to address this issue. You mentioned the importance of 
establishing an Office of Self-Governance within the Department 
of Transportation. I couldn't agree more.
    In the proposed rule for the Tribal Transportation Self-
Governance Program, the Department stated that it does not 
foreclose the possibility of establishing an Office of Self-
Governance at the Department at some point in the future. The 
Department stated that it also believes that a Tribal Self-
Governance Advisory Committee may provide important information 
to the Department as it implements the program.
    Ms. Clark, could you explain why establishing an Office of 
Self-Governance and a Tribal advisory committee are so 
important to the Tribes for this new program?
    Ms. Clark. Yes. It is important to the programs because it 
is establishing a new self-governance way of working with 
Tribes directly with the U.S. DOT and Tribes. And if half of 
those just all of a sudden when June comes and wants to enter 
into a contract, then U.S. DOT needs to be off and running, and 
right now, it is not. And so that would be very helpful, and 
the advisory could help guide the self-governance.
    Mr. Stanton. Thank you. I am out of time, but I will be 
submitting a question as it relates to funding challenges that 
our Tribal Nations face that may not be directly proportional 
to what State, city, and counties faces as it relates to 
matching funds for Federal programs, and I would like to get an 
answer on the record for that.
    Thank you so very much. I yield back.
    Ms. Norton. Thank you, Mr. Stanton. Ms. Davids?
    Ms. Davids. Thank you, Chairwoman. And I would just like to 
associate myself with Congressman Stanton's comments earlier 
and also say thank you for making sure that this hearing 
happened so quickly after we requested addressing these 
important topics.
    So first of all, I think that listening to my colleagues 
today, it is--and then the testimony that I have heard today, 
it is that much more clear to me that the issue of Tribal 
transportation and the Tribal-Federal, Government-to-Government 
relationship is something that more of us in Congress, and also 
more of our staff, need to understand and have a deeper 
understanding of, and that includes the relationship of 
Territories to the Federal Government-to-Territory relationship 
as well.
    And with that, I would love to--Mr. Reif, earlier you 
mentioned a list of the processes for decisions on investments. 
You mentioned a number of things--cost, the criticality of a 
project, the condition of assets, the consequences of not 
completing a project. I didn't hear you mention the input of 
Tribal Governments in that listing. Can you talk a little bit 
about the role of the conversations that happen between your 
office and that decisionmaking and the Tribes that are impacted 
by those decisions?
    Mr. Reif. Thank you for the question. The Bureau of Indian 
Affairs has that role, so I don't have a lot of direct role 
with interactions with Tribes. We can provide some information 
for the record if that would help.
    Ms. Davids. OK. Because it seems as though when you are 
listing out the various pieces of the decisionmaking--cost, 
criticality--how do the people who are impacted by this 
decision, like, what--that should be a line in there.
    And that actually leads to a conversation about the self-
governance and also self-determination of Tribes. I know I 
already mentioned this, but there is a Tribal Government-to-
Government relationship. There is also a Federal trust 
responsibility that I know my colleague, Mr. Stanton, already 
mentioned as well.
    And when we are thinking about that, earlier, Mr. Garcia, 
you mentioned that if the funding, whether it is formula, 
percentages, no matter what happens with any funding that we 
are doing as the Federal Government with Tribal Governments, 
that that might need to be reevaluated. And when it is 
reevaluated, that Tribes need to certainly be at the table.
    I know that through the long history of the relationship 
between the Federal Government and Tribal Governments, that has 
not always been the case. But could you talk a little bit about 
the role of not just consultation as a method of informing, but 
consultation in the true form of making sure that Tribal 
Governments have a real say in not just projects but also how 
funding happens with the Federal Government?
    Mr. Garcia. Thank you for the request. I sense that English 
is kind of a weird language, and so consultation is just one 
word that has been used more frequently, but I consider the 
other word which starts with a ``C'' as a better word that I 
think is probably more implementing, more partnerships, and 
that is called collaboration.
    And so in this case that any time the Federal Government 
has initiated an effort to improve Indian country, conditions 
in Indian country, funding whatever it may be, healthcare, in 
the past years, the Indian community has been left out. It was 
almost like somebody else knew better what our needs were than 
we did locally.
    And so that piece has changed drastically, and the big 
implementation part of it occurred in 1975 when the Indian 
Self-Determination and Education Assistance Act was passed. 
Therein lies the root for opportunities in terms of the Tribal 
Governments in this country are also Governments, and they know 
better what their needs are. They know better how to implement 
programs. They know how to run the programs more efficiently 
than anyone else would.
    And the conditioning that Tribes had faced prior to that is 
the old format about, OK, the Federal Government knows better 
and the BIA knows better, and so it was proven wrong by virtue 
of implementing the Indian Self-Determination Act, and that is 
what self-governance is all about. So it is extended through 
BIA now and through Indian Health Service, but the extension 
now we see happening is through the Department of 
Transportation.
    Ms. Davids. Thank you.
    Mr. Garcia. So therein lies the root opportunity for Tribes 
to also do something that they know best in their own country, 
in their own land. And so if the resources are then provided by 
virtue of the partnership between the United States Government 
and the Tribe, every Tribal Nation, then we have fixed a large 
portion of the root cause of the problem, and so we are headed 
in the right direction.
    So that is why the Tribes are so adamant about ensuring 
that the FAST Act is reauthorized and that the old FAST Act--I 
call it old because it was passed in 2015--gets implemented and 
gets put in place in June of this year, so thank you.
    Ms. Norton. The gentle lady's time is expired.
    Ms. Davids. Thank you, Councilman.
    I appreciate your indulgence. I yield back.
    Ms. Norton. Of course. Mr. Garcia?
    Mr. Garcia of Illinois. Thank you, Madam Chair Norton, and 
to all of the witnesses that are here today. The plight of the 
indigenous peoples and the dire need for both Federal 
investment in our Tribal Nations is personal to me. That is 
part of why I recently joined the Natural Resources Committee.
    I regret to submit that it has been far too long since this 
committee conducted a meaningful assessment of the 
infrastructure needs of our Tribal Nations and the U.S. 
Territories as well. I want to especially thank Chairwoman 
Norton and Chairman DeFazio for taking up this matter.
    And, Madam Chair, I ask for unanimous consent to enter into 
the record two Government Accountability Office reports that 
explore the dire need for infrastructure investment in our 
Tribes and Territories at this moment.
    Ms. Norton. So ordered.
    [The information follows:]

                                 <F-dash>
Two Reports by the U.S. Government Accountability Office, Submitted for 
              the Record by Hon. Jesus G. ``Chuy'' Garcia
    The reports are retained in committee files and are available 
online:
    <bullet>  ``Tribal Consultation: Additional Federal Actions Needed 
for Infrastructure Projects,'' GAO-19-22, March 20, 2019. https://
www.gao.gov/products/GAO-19-22
    <bullet>  ``Tribal Transportation: Better Data Could Improve Road 
Management and Inform Indian Student Attendance Strategies,'' GAO-17-
423, May 22, 2017. https://www.gao.gov/products/GAO-17-423

    Mr. Garcia of Illinois. Thank you.
    Tribes continue to receive a fraction of Federal Government 
assistance that States get in much needed transportation 
funding. Right now, 574 Tribes compete for the same inadequate 
pots of money. Five hundred seventy-four Tribes compete for 
over $505 million in Tribal Transportation Program funding to 
complete all of their transportation infrastructure needs. The 
same amount of Tribes are forced to divvy up $30 million for 
transit funding. The same amount of Tribes have to work with 
just $15 million in safety grant funds.
    There are over 42,000 miles of Bureau of Indian Affair 
roads and about 14,000 miles, as has been pointed out, are 
Tribally owned roads, most of which are not even paved. These 
are literal dirt roads. We have left our Native brothers and 
sisters high and dry. We must do better.
    President Clark, I understand that even the modest plus-ups 
in funding for some programs are often nullified by the harmful 
effects of the obligation limitation deduction, which 
permanently removes tens of millions of dollars from the 
critical funding programs for Tribes. Can you help me and 
members of this committee better understand the mechanisms of 
this deduction and how we can make changes to best support our 
indigenous brothers and sisters?
    Ms. Clark. Thank you. Yes. In the past 4 years of FAST Act, 
let's say, that was an increase of--what was it--$45 million 
step increases for the past 4 years. Your obligation limitation 
took $147.5 million, so really we are back-pedalling. And so 
the obligation limitation was exempted all the years up to the 
SAFETEA-LU, and then it started implementing the obligation 
limitation.
    So kind of looking at it is, let's say in 2019, we received 
$495 million TTP funding, $49 million of that went to 
obligation limitation. So that left us with $446 million left, 
which is only $12 million more than 2009, after obligation 
limitations, $12 million more. So it does affect the TTP 
funding, and if we get that exempt, we could help put that back 
in the field to help the Tribes. Thank you.
    Mr. Garcia of Illinois. Thank you for that. And what can 
Congress do to improve pedestrian and road safety on Indian 
reservations and in Alaska Native villages? Could we be 
collecting more crash data, enable education grants and 
consider Tribal set-asides in Federal grant programs?
    Ms. Clark. For me?
    Mr. Garcia of Illinois. Yes, Ms. Clark.
    Ms. Clark. Yes. The crash data and data out in Indian 
country is very vague. It is collected by all sorts of means--
the law enforcement, IHS, State, county, Federal. So it is 
scattered, and so it is not a complete database. So we need 
help on getting and collecting data, and plus the education for 
safety. And if we could lower the threshold or even the matches 
for 100 percent Federal funding for safety projects, then that 
would be very helpful out in Indian country so that we could 
have safer roads.
    Mr. Garcia of Illinois. Thank you so much to you and Mr. 
Garcia as well. I wonder if we are related, Mr. Garcia. And, of 
course, to all of the panel that is here to shed light on the 
Tribal communities as well as the Territories. Thank you so 
much, Madam Chair.
    Ms. Norton. Thank you, Mr. Garcia. Time is expired.
    Ms. Plaskett.
    Ms. Plaskett. Thank you very much, Madam Chair.
    Commissioner Petty, you mentioned in your testimony the 
severe cuts that the Territorial Highway Program has endured 
since 1998, when the formula for apportionment for the 
Territorial Highway Program was scrapped.
    Instead of continuing to receive a percentage of the 
highway funding, the allocation for the Territories was frozen 
at a flat dollar amount, and that continues to this day. As a 
result, the Territorial Highway Program share of overall 
Federal-aid Highway Program funding has progressively declined 
and, as you said, by 50 percent.
    Would you share with us some more details on the impact 
that has had on the state of repair of transportation 
infrastructure in the Virgin Islands, how far have road repairs 
in the Virgin Islands fallen back, and what has been the impact 
on the local government's finances?
    Mr. Petty. OK. Yes. It has definitely had a negative impact 
on our finances. We have had to use our Federal funding in 
creative ways like floating GARVEE bonds which then has a 
negative impact because that debt service comes directly from 
those same transportation funds. So right now we have a 15-year 
debt service on one of our projects that basically cuts our $16 
million allotment in half.
    Ms. Plaskett. That is tremendous.
    Mr. Petty. Yes.
    Ms. Plaskett. And when you talk about road repairs and the 
need, how long has it been that you have actually created a new 
road, done more roadwork?
    Mr. Petty. Since I have been--a brandnew road, we haven't 
built any new roads. We have been reconstructing old roads. No 
new roads have been built.
    Ms. Plaskett. And how long have you been there?
    Mr. Petty. I have been there 22 years, and we have never 
done that.
    Ms. Plaskett. So no new roads in the 22 years that you have 
been there, just repairing?
    Mr. Petty. Just repairing. There was one project that was a 
30-year project that actually got built on St. Croix which was 
the Christiansted Bypass.
    Ms. Plaskett. OK, great. Well, not great, but thanks for 
the information.
    It is not just residents of the Virgin Islands that use our 
transportation infrastructure. There are certainly many 
visitors to the islands. So when we talk about the usage of our 
roads, it is not just the 100,000 people in the Virgin Islands 
that use it. How many tourists on average at our highest point 
of tourist visits would there have been?
    Mr. Petty. We have peaked at 2 million passengers a year in 
cruise passengers alone. So the tourist activity can go 
anywhere between 2 to 3 million just by the overnights as well.
    We also have a very heavy trans-shipment activity that goes 
on, that definitely impacts our infrastructure as far as the 
amount of heavy equipment on the roads.
    Ms. Plaskett. So when you talked about that trans-shipment, 
you mentioned in your oral testimony to us that of the U.S. 
exports, outside of oil and gas, the Caribbean is the fifth 
largest exporter that the U.S. does. And so that means that a 
large amount of that is actually trans-shipped through the 
Virgin Islands, correct?
    Mr. Petty. That is correct.
    Ms. Plaskett. And so that then is heavy equipment, barging, 
other kinds of issues?
    Mr. Petty. Yes, exactly.
    Ms. Plaskett. So, you know, when we think about how we 
allocate this funding, it is interesting because among the 
Territories, we are split equally. But the division, and not to 
cast aspersions or try to fight--Madam Chair, I hate that the 
Territories seemingly always have to fight over crumbs among 
themselves, and we end up in a competition with each other, but 
our needs are very different.
    Mr. Petty. Yes.
    Ms. Plaskett. And one of the other things you talked about 
is the fact that we are a ferry system location, right? People 
live on multiple islands and it takes--between St. Croix and 
St. Thomas, let's say, we know that we have ferries between St. 
John and St. Thomas. What is the distance and how long does it 
take, and what is the kind of vessel that is needed to go 
between these islands?
    Mr. Petty. Well, we need a very seaworthy strong vessel. 
The waters between St. Croix and St. Thomas are very deep, one 
of the largest trenches in the world, and it takes right now 
probably 2\1/2\ hours for one of our private companies to get 
interisland in a boat.
    Ms. Plaskett. So--and that is a Federal highway, correct?
    Mr. Petty. It is a Federal route, yes.
    Ms. Plaskett. So I know that I am cosponsoring with the 
Dean of the House, Don Young, on legislation with regard to 
ferry systems. And how will that impact individuals' lives if 
you do have a ferry system? What are the kinds of things that 
you would have going between the islands, and how does it 
affect the economy?
    Mr. Petty. Definitely boosts our interisland commerce. The 
activities that happen interisland on a governmental basis as 
well. On a daily basis I travel almost interisland on one 
service provider that is not able to supply the needs of the 
community in a way that a ferry service could.
    Ms. Plaskett. Thank you. And, Mr. Reif, if you could very 
quickly, what are some of the causes of deferred maintenance in 
the National Park Service? The Virgin Islands has a total of 
$46 million in deferred maintenance costs.
    Mr. Reif. Thank you for the question. Well, I briefly 
mentioned earlier that only one-half of 1 percent of our 
appropriations are attributed to maintaining our roads, rather, 
or all of our infrastructure. As you are probably aware, as 
infrastructure is sitting out in the elements, it deteriorates 
over time on its own, even if we don't do anything to it, it 
will destroy itself, or the weather will destroy it. And as 
infrastructure ages, it is more expensive to repair back to the 
original condition.
    Ms. Plaskett. I am beyond my time, but what would be the 
percentage then that you think it should be, you should be 
utilizing? And then I would yield back.
    Mr. Reif. The study that I referenced in my testimony from 
the National Academy of Sciences indicates 2 to 4 percent is 
recommended for Federal facilities.
    Ms. Plaskett. Thank you.
    Ms. Norton. I thank the gentlewoman. This 50-percent 
reduction she indicated is particularly outrageous, to have a 
formula, you know, nobody got increases, but the notion of 
allocations going down, particularly in perhaps the most 
vulnerable part of our country, parts of our country surrounded 
by water. So I want to assure the gentlewoman that the 
committee is looking closely at that.
    Ms. Plaskett. Thank you for your leadership on that as 
well.
    Ms. Norton. The last--oh, no, it is not. We have two more 
Members. And next will be Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Madam Chair. I was 
looking at the Trail of Tears. I googled the Trail of Tears, 
and I saw where, you know, untold numbers of Native Americans 
were driven out of the Southeast United States pursuant to an 
act passed by Congress, the Indian Removal Act in 1830. And I 
don't know how many Native Americans lived in the country in 
1607, but I am told it was around 30 million or so.
    But today we are dealing with 5.2 million people who 
identify as American Indian or Alaska Native, 570-some-odd 
Tribes stretched across 100 million acres of land which we 
refer to as Indian country. Scattered among 34 States, I 
believe, and roughly 157,000 miles of roads providing access to 
Indian land.
    Native Americans have been handled, yeah, very badly in 
this country, treated very badly since 1607. And 1830, when the 
Indian Removal Act was passed, that was during the height of 
the slavery period in this country. And so we have a lot to 
atone for, a lot to do right by those who had been done wrong 
by.
    But I want to ask you, Councilman Garcia, under the 
Nationally Significant Federal Lands and Tribal Projects 
program, the minimum cost of projects is $25 million, with 
priority given to projects that cost over $50 million, or have 
a higher percentage of matched funds.
    Tribes have indicated that the minimum cost is often too 
great for them to meet and many projects go unfunded. In your 
experience as a councilman, what is the average price for a 
Tribal project?
    Mr. Garcia. Well, first of all, thank you for the question, 
and I am kind of hard of hearing, but I think what I 
understand, what is the price of a Tribal project for----
    Mr. Johnson of Georgia. Yeah, what is the average cost of a 
Tribal project?
    Mr. Garcia. Well, the cost varies from location to 
location. It is just the--you might say the regional parts of 
the United States. For instance, if you want to do a project in 
Alaska, where projects of everything are so high, everything 
that is related to the project follows that reality. If you are 
elsewhere in the country, you follow the rules of the local 
economy, if you will, in terms of pricing.
    Mr. Johnson of Georgia. I understand.
    Mr. Garcia. And so with that, the other factor, important 
one, sir, really important, is the location of the Tribe and 
where the project is being held.
    Mr. Johnson of Georgia. Well, I am going to run out of time 
in a second. I want to ask you, the problem is with the 
threshold being so high for projects that get priority, it 
leaves out a lot of smaller projects that really need to be 
done. And is the $25 million threshold for funding Tribal 
projects more of an impediment than it is helpful?
    Mr. Garcia. They--if that number were a little bit larger, 
it would be helpful. If it stays at $25 million, then you are 
limited in what you can progress with. And so the number of 
projects that are available with that amount go down with the 
cost of the project, so----
    Mr. Johnson of Georgia. Correct. OK, thank you. Let me ask 
this question of Mr. Reif. Mr. Reif, Georgia has over $48 
million in transportation-related deferred maintenance needs at 
sites managed by the National Park Service; $1.2 million of 
that total is at the Martin Luther King, Jr. National 
Historical Park in Atlanta, which honors the life and work of 
Dr. Martin Luther King, Jr. This unmet need translates into 
diminished visitor access at this cherished site. Can you tell 
me what your Department is doing to improve visitor access so 
that the public can view these historic landmarks and 
appreciate the history contained within them?
    Mr. Reif. Thank you for the question. I don't have that 
information in front of me, but I can provide something for the 
record.
    Mr. Johnson of Georgia. Thank you. With that, I yield back.
    Ms. Norton. Our last Member to ask questions, we will hear 
from at this time, Mrs. Napolitano.
    Mrs. Napolitano. Holding up the rear. I have sat through 
this a little bit. I didn't hear all of it. I have been on the 
Committee on Natural Resources for 21 years, so I have an idea 
of how the Tribes are treated as well as the Territories, and 
they are second-class citizens, as far as Congress goes, 
unfortunately. I am wondering whether--the BIA talks to each 
other, all the agencies that handle Indian affairs, do they 
talk to each other about how to address the shortcomings in 
funding of needs?
    Mr. Reif. The needs are provided by Congress, so I don't 
know that there is a lot of discussion about how to, amongst 
the various agencies about how to address different numbers.
    Mrs. Napolitano. How many agencies cover Indian affairs?
    Mr. Reif. I am aware of the Department of the Interior has 
Bureau of Indian Affairs. Bureau of Indian Education is a 
separate Bureau. Department of Transportation has agencies that 
deal with----
    Mrs. Napolitano. Transportation?
    Mr. Reif [continuing]. Not a separate agency that deals 
with Indian affairs, but they have components that deal with 
the Indian Tribes. Health and Human Services has Indian Health 
Service. That is the only ones I am aware of. There may be 
others.
    Mrs. Napolitano. Well, do they ever talk to each other? Do 
they ever meet to find out how they cover the needs of the 
Tribes?
    Mr. Reif. Yes, ma'am. My understanding is they do meet 
together to talk about----
    Mrs. Napolitano. How often?
    Mr. Reif. I don't know that.
    Mrs. Napolitano. Well, it is just unfortunate that we are 
only dealing with this part in transportation here where you 
need other agencies. But we need to make the Tribes aware, if 
the Tribes are not able to get the funding because larger 
Tribes get a major part of the funding, maybe there has got to 
be a way of getting all the small Tribes together, medium-sized 
Tribes, and large, and have the same seat at the table, to be 
able to advocate for their needs.
    Mr. Garcia?
    Mr. Garcia. Well, I have 2 minutes to answer. Thank you for 
the question. Have you heard of the Tribal-Interior Budget 
Council?
    Mrs. Napolitano. No.
    Mr. Garcia. That is an organization that was formed by 
efforts of the Tribal Nations of this country whereby we knew 
that we were not being consulted and we were not discussing the 
true needs of Indian country. And so the Tribal-Interior Budget 
Council was formed some time ago. I think it was in 2001, 2002.
    Mrs. Napolitano. What do they discuss?
    Mr. Garcia. We talk about the funding elements for all 
programs within the Department of the Interior that is related 
to Tribal funds----
    Mrs. Napolitano. It is only Interior. Why not 
transportation and health?
    Mr. Garcia. We do that for Department of the Interior, and 
we do that for the Indian Health Service through the HHS.
    Now, we have not done that similar thing for Department of 
Transportation. But I think now that the--that was another 
reason for requesting that the Office of Self-Governance be 
formed as part of the Department of Transportation, then there 
would be another element that would help us to discuss more 
closely, collaboratively, the needs of Indian country in terms 
of infrastructure and what the Department of Transportation can 
do. And that leads back to the funding sources which is 
congressional, so----
    Mrs. Napolitano. Well, time is short, but I would ask----
    Mr. Garcia [continuing]. I think that is where we are 
headed.
    Mrs. Napolitano [continuing]. Ms. Plaskett and the chair to 
maybe do a joint hearing, including the Territories, because 
they are just as hurting from funding. And when I look at the 
report that Mr. Petty submitted, it is criminal.They are 
ignoring the needs of the Territories, as well as the Native 
American pueblos.
    And I think that we ought to start focusing, maybe we can 
get the research bureau to give us information so we can talk 
intelligently and get other agencies to come in and do their 
part.
    Madam Chair, I yield back. I am too upset.
    Ms. Norton. We will be glad to consider Mrs. Napolitano's 
request.
    Are there any further questions from members of the 
subcommittee?
    Seeing none, I would like to thank all our colleagues, but 
especially our witnesses for your very helpful testimony today.
    I think you could hear from the responses of members of the 
committee that members were often hearing what they have not 
heard before. Your contribution to today's discussion has been 
very enlightening and very helpful to us.
    I, therefore, ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing from the members of this subcommittee.
    And unanimous consent that the record remain open for 15 
days for any additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    This hearing is adjourned.
    [Whereupon, at 12:49 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Norton, for holding this hearing, and thank you to 
our witnesses for being here today.
    Today's hearing focuses on the transportation needs of tribes, 
territories, and Federal Land Management Agencies.
    Each of these types of entities face unique transportation 
challenges.
    The perspectives expressed today will be valuable in helping us 
shape or modify these tools as part of a long-term surface 
transportation reauthorization.
    In order to be successful, we must work together to develop a bill 
that has robust bipartisan support.
    We must work together to sustain our core highway programs so that 
they can continue to deliver the resources needed for our communities 
and a national system.
    Federal lands and tribal areas, much like rural areas, need 
dedicated resources as well as flexibility to address their specific 
transportation needs.
    We must also work to provide adequate resources to our Federal Land 
Management Agencies so Americans can enjoy Federal lands.
    Thank you to our witnesses for coming today, and thank you again 
for holding this hearing.

                                 <F-dash>
  Letter of February 6, 2020, from the National Parks Second Century 
   Action Coalition, Submitted for the Record by Hon. Eleanor Holmes 
                                 Norton
                                                  February 6, 2020.
Hon. Peter DeFazio,
Chairman,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Eleanor Holmes Norton,
Chairwoman,
Committee on Transportation and Infrastructure, Subcommittee on 
        Highways and Transit, U.S. House of Representatives, 
        Washington, DC.
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Rodney Davis,
Ranking Member,
Committee on Transportation and Infrastructure, Subcommittee on 
        Highways and Transit, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairman DeFazio, Subcommittee Chairwoman Holmes Norton and 
Ranking Member Graves and Subcommittee Ranking Member Davis:
    Our 100+ year old National Park Service (NPS) is challenged by 
aging infrastructure, visitation pressures, and decades of inconsistent 
funding for maintenance needs. As a result, the agency cannot keep pace 
with repairs at its more than 400 park units across the country, which 
has led to a maintenance backlog estimated at $11.9 billion (fiscal 
year 2018).
    On behalf of our organizations, members, and supporters, we 
respectfully request that you include the following provisions in a 
national infrastructure proposal or surface transportation 
reauthorization to stem the backlog of repairs at our parks and public 
lands.
                    National Infrastructure Proposal
    The National Park System accommodates hundreds of millions of 
visitors annually and contains infrastructure that you would find in 
many small cities and towns: roads, tunnels, bridges, parking lots, 
electrical and water systems, wastewater systems, and visitor 
amenities. In addition, the Park System includes campgrounds, historic 
structures, iconic memorials, thousands of miles of trails, 
battlefields and cemeteries, marinas and seashores. Over half of these 
park assets--which provide for visitor safety and access, among other 
uses--need repair.
    When the Transportation and Infrastructure Committee crafts its 
part of a national infrastructure package, we request that the 
Committee supports the inclusion of H.R. 1225, the Restore Our Parks 
and Public Lands Act, in the final proposal. The legislation seeks to 
address priority repairs within our national parks and other public 
lands, as well as Bureau of Indian Education schools. It would direct 
up to $6.5 billion over five years to a deferred maintenance fund and 
provide parity between transportation and non-transportation related 
projects.
                 Surface Transportation Reauthorization
    The Fixing America's Surface Transportation (FAST) Act includes 
mandatory funding for NPS transportation projects--this consistent and 
reliable funding helps park managers better plan for and carry-out 
projects. However, it is not nearly enough to address crucial repair 
needs. Transportation assets within the National Park System--paved 
roads, parking lots, tunnels, and bridges--account for over half of the 
total backlog, or $6.15 billion (fiscal year 2018). This number does 
not include adjacent trails and seawalls that could be eligible for 
funding under Title 23 of the Act.
    As the Committee works on the FAST Act reauthorization, our groups 
request that it include dedicated funding of $4.7 billion to address 
deferred maintenance at NPS' highest and high priority transportation-
related assets (Figure 1).

                                          Figure 1: NPS Highest and High Priority Transportation Needs--FY 2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
                            Priority                                Parking Lot      Road Bridge      Road Tunnel         Roads           Grand Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Highest\\.......................................................    $243,283,487      $540,979,361     $20,349,480     $2,463,777,470     $3,268,389,798
High\\..........................................................    $239,161,463      $196,852,200      $1,979,258     $1,061,178,143     $1,499,171,064
                                                                 ---------------------------------------------------------------------------------------
  Highest + High................................................    $482,444,950      $737,831,562     $22,328,738     $3,524,955,612     $4,767,560,862
--------------------------------------------------------------------------------------------------------------------------------------------------------
\*\ Source: National Park Service.
\**\ Transportation-related assets include all road bridges, all road tunnels, and any roads and parking lots classified by NPS as ``paved'' or ``paved
  & unpaved''. Roads and parking lots classified as ``unpaved'' are not included

                      Transportation Mega Projects
    The Nationally Significant Federal Lands and Tribal Projects 
(NSFLTP) program addresses transportation ``mega projects'' within NPS, 
Bureau of Land Management, United States Fish and Wildlife Service, and 
Tribal lands, and are defined as those projects that go beyond the 
scope of core agency funding. The FAST Act authorized this program at 
$100 million per year. Agencies and Tribes compete for program funds, 
which are appropriated annually. Transportation projects eligible for 
funding must have a price tag of at least $25 million, with those 
costing $50 million or more given priority. The first phase of the 
current grant cycle has received 39 grant applications that would have 
a total of $2.26 billion in NSFLTP program costs, far exceeding the 
existing authorized and appropriated amounts.
    We urge the committee to fund the NSFLTP program at no less than 
the Senate Environment and Public Works Committee-passed level of $350 
million in annual funding. From that amount, we ask that at least $200 
million be designated as mandatory spending. This will better address 
the significant discrepancy that exists between transportation 
maintenance and construction and core funding levels and provide 
managers with consistent, reliable funding they need to plan projects.
    Our national parks and public lands generate billions of dollars 
for local economies in tourism dollars, jobs and tax revenue. Repairing 
and maintaining them is a smart investment, and will create additional 
infrastructure-related jobs, as well as preserve visitor access and 
resources.
    Thank you for your consideration of these requests.

American Hiking Society.
American Society of Landscape Architects.
Appalachian Trail Conservancy.
Atomic Heritage Foundation.
Coalition to Protect America's National Parks.
Evangelical Environmental Network.
Friends of Acadia.
Friends of Fort McHenry.
Friends of Hawai'i Volcanoes National Park.
International Inbound Travel Association.
National Park Hospitality Association.
National Parks Conservation Association.
National Tour Association.
National Trust for Historic Preservation.
North Cascades Institute.
Outdoor Industry Association.
Outdoor Recreation Roundtable.
RV Industry Association.
Scenic America.
Southeast Tourism Society.
The Corps Network.
The Friends of Dyke Marsh.
United States Tour Operators Association.
Washington's National Park Fund.

                                 <F-dash>
 Statement of Harold C. Frazier, Chairman, Cheyenne River Sioux Tribe, 
         Submitted for the Record by Hon. Eleanor Holmes Norton
    Chair Norton, Ranking Member Davis, and Members of the 
Subcommittee, my name is Harold Frazier and I am the Chairman of the 
Cheyenne River Sioux Tribe (CRST). I am pleased to provide this 
testimony to the subcommittee illustrating the desperate need for 
investments in transportation infrastructure at the Cheyenne River 
Reservation and in other Tribal communities across the country and 
needed changes to federal transportation programs serving Tribes. The 
Cheyenne River Indian Reservation is one of the largest reservations in 
the United States. Our Reservation is 2.8 million acres or 4,375 square 
miles and includes Dewey County and Ziebach Counties, South Dakota. At 
2.8 million acres, our land base is more than three and half times the 
size of Rhode Island (776,000 acres) and in between the size of 
Delaware (1.6 million acres) and Connecticut (3.5 million acres).
    The Cheyenne River Sioux Reservation is home to four bands of the 
Teton Sioux--the Mnicoujou, Siha Sapa, Sans Arc, and Oohenumpa--and is 
in a rural area of north-central South Dakota. Roughly 35 percent of 
the population is under 20 years of age and with an extraordinarily 
high unemployment rate, ours are among the poorest counties in the 
United States.
    As you can imagine, on a rural reservation of this size roads are 
absolutely critical to all aspects of everyday life linking our people 
with schools, jobs, medical services and commerce. Central 
thoroughfares that become impassable lead to much longer commutes for 
our citizens to get to school or work, complicate the delivery of goods 
to market and creates a life-threatening situation by lengthening 
response times for our emergency responders. Our roads are in such bad 
shape that one of my Councilmen, showing a bit of grim humor, recently 
said to me, ``You know Mr. Chairman, in England they drive on the left 
side of the road, but here at Cheyenne River we drive on what's left of 
our roads!''
    For several years now, our annual allocation from the Department of 
Transportation's Tribal Transportation Program (TTP) has hovered around 
$2.2 million. The Bureau of Indian Affairs road division on our 
reservation also gets about $500,000 that is dedicated to maintenance. 
Because the BIA dollars are so small, we are forced to use $600,000 
(the maximum allowable) of our DOT funds to supplement the BIA 
maintenance funds. This leaves only $1.6 million remaining to try and 
address a backlog of $100 million in immediately identifiable road 
repair projects that we have determined to be emergency in nature. For 
a 2.8 million acre reservation, this is an absurdly low number. This 
level of funding means that our Tribe simply does not have the 
resources to ensure even the most basic maintenance and safety on our 
roadways.
    While the comparison is admittedly not a valid one due to the large 
number of roads and much larger populations of the states I referenced 
above, it may be at least somewhat illustrative to do some comparisons. 
Connecticut gets $553 million a year from the Highway Trust Fund and 
recently announced a $12 billion 5-year capital transportation budget. 
Delaware gets $186 million from the Highway Trust Fund (HTF) and has 
announced a $4 billion capital budget for transportation over the next 
7 years. Again, we get only $2.2 million from the HTF. We have no 5- or 
7-year capital budget because on a reservation with rampant poverty 
there is no tax base or ability to issue and pay off municipal bonds or 
set aside capital funds over multiple years as states like those 
referenced above can do.
    There are 550 miles of county roads on our reservation and Ziebach 
and Dewey Counties do try and take care of those roads but as I 
mentioned those are two of the poorest counties in the United States 
and they do not have a revenue stream capable of generating sufficient 
funds for their roads and it should not come as a surprise for you to 
know that county roads on Indian reservations are often not the 
counties highest priorities. There are 367 miles of official BIA and 
Tribal roads that are in the National Tribal Transportation Facility 
Inventory (NTTFI) (see discussion below) and another 800 to 1,000 miles 
of gravel or dirt roads that are not in the NTTFI and for which we do 
not get a penny from either the county or the DOT. We could endeavor to 
add those roads to the NTTFI but it would be to no avail as the formula 
is frozen and will not generate money even if we could add those miles.
    Pedestrians on Indian reservations die at rate that is 80% higher 
than pedestrian deaths off reservation. Why? Generally, speaking we 
have no sidewalks, no shoulders, no crosswalks, no guardrails and no 
overpasses. For motor vehicle deaths. Indian people die at twice the 
national average and in the Rocky Mountain and Great Plains regions 
that figure is three to four times the national average.
    Last year storms and flooding led to the failure of culverts and 
the washout of several roads. In addition to a lack of funds for basic 
maintenance and repair we have also had great trouble in qualifying for 
and accessing U.S. Department of Transportation programs designated for 
such emergencies, including the Emergency Relief for Federally Owned 
Roads (ERFO) Program and we've run into other obstacles trying to 
secure help from the Federal Emergency Management Agency (FEMA). Madam 
Chair, how will we ever get sufficient funds to repair our roads? What 
do we tell our people about how this situation can ever be resolved?
     Unsafe roads pose a grave to danger to our children and first 
                               responders
    To illustrate the dangers posed by crumbling and substandard roads 
at CRST and the lack of resources to fix them I would like to tell the 
subcommittee about a road known as BIA Route 11. It leads to the Takini 
School, which houses Kindergarten through 12th grade students. Route 11 
is hilly and has so many problems that during winter weather, the bus 
driver stops at the bottom of steeper stretches of Route 11 and unloads 
the children. He then guns the bus to the top of the hill. The children 
walk up the hill and get back on the bus again and he repeats this same 
routine at the next hill. He doesn't do this because the bus lacks the 
power, he does it because he is fearful the bus will slide off the side 
of the road, a road with almost no shoulders and drop offs on either 
side. His theory is that if the bus slides off the road and flips over, 
it is better that he be the only passenger. Because of poor shoulders, 
flip-overs are common in Indian country. In inclement weather, vendors 
often refuse to deliver their products--including food for lunches--to 
this school because they are fearful of driving on the road. On those 
days, they will leave their product in the town of Howes, which is 32 
miles away, or the town of Faith, which is 40 miles away. School 
employees will then have to undertake a 64- or 80-mile round trip to 
retrieve vendors' products.
    The Government Accountability Office has found that road conditions 
adversely affect student attendance and rough road conditions can also 
increase maintenance needs for school vehicles (see GAO Report 17-423). 
Including targeted funding in the next surface transportation 
reauthorization bill for improvements to school bus routes on Indian 
Reservations would be one way to help us ensure that our children can 
make it to school safely and in a timely manner. Senator Tom Udall has 
been pushing this idea for a few years.
    Bad roads lead to death and injury among our Indian people; they 
disrupt education; on bad days they make getting to work impossible; 
they greatly delay or prohibit emergency response vehicles from 
responding in a timely basis and they serve as a major disincentive to 
economic development and make it impossible to entice businesses to 
locate on such lands. Chairman Norton and Committee Members, we 
appreciate the discussions that the Congress has undertaken in trying 
to figure out what to do about the employment picture in much of Indian 
country. These discussions have led other congressional committees to 
enact tax credits as a means of encouraging economic development. While 
appreciated and used by a few fortunate tribes, I must respectfully 
ask--even with tax credits--what business is going to locate on a 
reservation lacking in this most basic aspect of infrastructure?
    We already are lacking in nearby hospitals or clinics throughout 
much of Indian country but when ambulances endeavoring to retrieve and 
deliver a person injured in an auto accident or medical emergency have 
to traverse roads like Route 11--which in the best of circumstances 
greatly slows them down and in the worst circumstances makes access 
nearly impossible--you can imagine what effect that has on the ability 
to save a badly injured resident. Engineering estimates are that it 
will cost around $12 million to rebuild Route 11 to safe conditions. 
That is many times what we receive annually through the TTP for our 
total road budget for the entire reservation; and Route 11 is only one 
of several roads that are in dangerous condition and in dire need of 
immediate repairs.
    Compounding the problem of lack of funding through the TTP is the 
fact that funding for BIA and Tribal road ``maintenance'' has largely 
remained stagnant and not even kept up with inflation in recent years. 
Despite that fact the Bureau of Indian Affairs admits that only 16% of 
BIA roads are in ``acceptable'' condition funding for the road 
maintenance program, which is funded on a discretionary basis each year 
by Congress through the Interior Appropriations bill, saw only a 
nominal increase in FY2020 to $36.06 million. As a result of years of 
underfunding, there is a huge backlog of repair and maintenance needs 
for BIA and Tribal roads. Large land-based tribes are forced to 
transfer our TTP dollars to Tribal road maintenance, with the result 
that our Tribes are falling farther and farther behind on Tribal road 
preservation and improvement programs. In recent years, tens of 
millions of TTP construction dollars were repurposed for road 
maintenance but the figures are still so low that Indian tribes and the 
BIA spend less than one-tenth of the amount per mile for maintenance 
than states and counties do. The attached chart shows that if you 
combine BIA owned and Tribally owned roads together they get $400 per 
mile for maintenance. Compare this County roads across the US which 
average $16,600 per mile for maintenance and roads in metropolitan 
counties that get nearly $30,000 a mile for maintenance. Is there any 
wonder why only 16% of BIA roads are in acceptable condition? See the 
more detailed discussion on page 4 in the testimony presented at this 
hearing by the Inter-Tribal Transportation Association on this point.
                   Road Maintenance Spending Per Mile
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                Sources: *Federal Highway Administration
 **1997 USDA Report: Rural Roads and Bridges_Financing Local Roads and 
                         Bridges in Rural Areas

             Tribal Transportation Program Funding Formula
    The current statutory TTP funding formula found at 23 USC 202(b) 
which is used to determine tribal shares from the TTP program is not 
working for large land base tribes like CRST with predominantly BIA and 
Tribal road miles in our inventories. Initially, the primary goal of 
the TTP was to focus on planning, design, and construction of BIA and 
Tribal roadways on Indian Reservations. TTP formula shares were 
supposed to support BIA and Tribal road miles owned and maintained by 
Indian Tribes. However, flaws in the current formula have allowed a 
large share of the funds to be diverted as routes in the official BIA 
National Tribal Transportation Facility Inventory (NTTFI) eligible for 
funding were opened to allow significant increases of roadways under 
other jurisdictions. This resulted in the NTTFI ballooning to 162,000 
miles of roadways, of which only 31,386 miles are BIA roads and 27,466 
are tribal roads, with the remaining being county, state, and municipal 
roads. This change caused a major shift in funding, bringing increases 
to places with little to no BIA or Tribal road mileage leading to 
county, state, and municipal road mileage to generate funding shares at 
the same rate as BIA and Tribal road miles. This is grossly unfair and 
an injustice as county, state and municipal roads can access funding 
through other sources while the TTP is the sole source of funding to 
support our BIA and Tribal roads.
    This is in great part because the Bureau of Indian Affairs has 
allowed the distribution formula to be manipulated and gamed. It is 
inconceivable for instance that the Cherokee Nation of Oklahoma with 
ZERO miles of BIA or Tribal roads that they are responsible for, is 
getting $13 million dollars a year from the TTP or a Tribe in 
California with only five miles of road in the NTTFI is receiving over 
$4.3 million, when the large land based Tribes in the Great Plains 
Region and others, with hundreds and even thousands of miles of roads 
in the BIA Roads Inventory are receiving so much less! It is pure 
politics and a manipulation of the system that allows tribes in 
Oklahoma with no BIA or Tribal roads that they are responsible for 
getting figures as high as $13 million while we receive $2.2 million. 
It is further manipulation when the distribution formula includes 
population figures that include people that are distantly related to 
those found in early 1900 Dawes Rolls. An aspect of tribal sovereignty 
includes each tribe determining its own membership criteria and the 
history of how the US treated the tribes in Oklahoma is both horrific 
and part of the problem. However, when that tribal member enrollment 
system leads to the type of inequity in allocating roads money as 
described above, it is impossible for us to not point this out. Our 
only source of money for BIA and Tribal roads is the TTP or the BIA 
maintenance budget. Roads in Oklahoma that are fully owned and operated 
by the state and counties receive millions of dollars from the state 
and counties and those roads then get another $74.8 million from the 
TTP. Congress should not perpetrate this inequity. It should also be 
observed that tribes in Oklahoma generate over $4 billion from their 
many casinos and while the federal government's commitment to Indian 
country should never be means tested, the reality is that the tribes in 
Oklahoma would be just fine without the $74.8 million in TTP money and 
the state of Oklahoma and its counties, just like every other state, 
should take care of its roads and not be taking money set aside for BIA 
and Tribal roads and using it on it state and county roads. We are 
quite sure that South Dakota would love to get tens of millions of 
dollars from the TTP every year for its roads but that is not what 
those funds are intended for.
    We also don't have hundreds of miles of ``proposed'' roads that 
stay in proposed status year after year, generating money through the 
BIA Inventory, even though the road in question will never be built. 
Other Tribes manipulated the system by adding hundreds of miles of 
roads ``accessing'' their reservation without proper limits on what is 
included and then further include the vehicle miles driven by the 
mostly non-Indians who travel those roads. The existing formula also 
freezes in place the roads that were identified in the BIA inventory in 
2012, not allowing us to add real BIA and Tribal roads while also 
freezing in place the state and county roads disingenuously claimed by 
other Tribes in their inventories. Because of this inequity, even 
though funding for the TTP (and formerly, and more correctly, known as 
the Indian Reservation Road (IRR) program) increased from $300 million 
in FY2005 to $505 million in FY2020, our allocation has barely changed. 
This must not continue! The basis of the formula must focus on BIA and 
Tribal roads (not state and county roads) and on total road miles on 
our homelands, not populations where reservations do not even exist.
    During the hearing Congressman Pete Stauber of Minnesota asked how 
the statutory changes made to the formula (via MAP 21 and the FAST Act) 
for allocating money among tribes had impacted things and he referenced 
the fact that tribes in Minnesota did not do well by those changes. 
There is a long and complicated answer to his question that the 
witnesses didn't really respond to. To try and summarize what has 
occurred we offer the following. TEA 21 (the 1998 Highway bill) 
authorized the creation of a negotiated rulemaking committee to 
determine an allocation methodology for Indian country funds. That 
committee took four years and finally issued the Indian Reservation 
Road (IRR) funding rule in 2004. A major problem was that after the 
committee issued the draft rule but before it was published and 
finalized, the then Assistant Secretary for Indian Affairs, who was 
from Oklahoma, made changes that the committee had not recommended. 
Those changes ended up benefitting tribes in Oklahoma and allowed for 
the abuse of the formula that we have described previously. One change 
was to Question 10 in the negotiating rulemaking which ultimately 
allowed tribes to the claim 100% of state and county roads in IRR 
Inventories of their Cost to Construct and Vehicle Miles Traveled. That 
was not supposed to be the case nor were the inclusion of perpetually 
``proposed roads'' that will never be built or extensive ``access 
roads.'' After years of tribes from Minnesota as well as most other 
large land based tribes in the Dakotas, Montana, Utah, Idaho, New 
Mexico, Arizona and elsewhere complaining, Senator Baucus, then Chair 
of the Senate Subcommittee, decided that the BIA was incapable of 
standing up to the pressure from tribes who had been abusing the 
formula and determined that the Congress had no choice but to fix the 
formula statutorily. At the time, his ranking member was Senator Inhofe 
of Oklahoma, who was determined to protect allocations going to 
Oklahoma. Their attempt at fixing the formula contained some changes 
that were helpful but ultimately, particularly with Inhofe's insistence 
that it continue to rely on population counts (see discussion about the 
Dawes Act and the fact that the Cherokee Nation, while having no roads, 
has close to 300,000 enrolled members), resulted in the formula not 
benefitting tribes with significant road mileage to the extent those 
tribes had hoped a statutory formula might do.
    Specifically, we ask that you amend the formula found in 23 U.S.C. 
202(b)(1)(B) so that 80 percent of the funds go toward BIA and Tribal 
roads and/or that you change the existing formula so that 60 percent of 
the funding is associated with road miles, 20 percent with population 
and 20 percent be allocated to the various BIA regions. We also request 
that you amend the basis for the formula found at 23 U.S.C. 
202(b)(3)(A) to eliminate the 20 percent funding share allocation using 
the former Tribal Transportation Allocation Methodology (TTAM) formula 
from the IRR by fiscal year 2023, while also reducing the 30 percent 
supplemental allocation set-aside found at 23 U.S.C. 202(b)(3)(C)(I) to 
approximately 10 percent. These changes would greatly increase the 
share of funds being distributed to BIA and Tribal roads via the new 
TTP formula. We also ask that you open up the NTTFI to allow Tribes to 
add BIA and Tribal road miles to their respective inventories.
                         Obligation Limitation
    We request that you support exempting the TTP from the annual 
Obligation Limitation. As you know, the obligation limitation is a 
financing mechanism that effectively deducts a certain percentage of 
funds each fiscal year from the TTP Program, including the TTP Bridge 
Program and the TTP Safety Program Funds. In FY2019 alone over $49 
million was withdrawn from the TTP program due to operation of the 
obligation limitation deduction--this is nearly ten percent of the 
total funding allocated to the TTP! Prior to passage of the 
Transportation Equity Act for the 21st Century (TEA-21) in 1998, the 
then Indian Reservation Roads Program was appropriately exempt from the 
obligation limitation annual deduction. The inclusion of the TTP 
Program in the obligation limitation results in the loss of tens of 
millions of dollars of otherwise authorized and much needed funding for 
Tribal transportation projects every year. Reinstating the exemption 
for Tribal transportation programs would thereby assure that the TTP 
Program is funded at its full and authorized levels. The deduction for 
the obligation limitation has a profound impact on the overall TPP but 
is such a small amount in the larger context of the more than $40 
billion Federal Aid Highway Program that it wouldn't even be missed. 
Finally, tribes, unlike states, do not get any of Obligation Limitation 
back in August when the HTF funds are recalculated each year.
         New funding needed to address culverts on Tribal lands
    Many culverts on Indian reservations are over half a century old 
and are falling apart, when culverts fail (and this is happening 
frequently) they can and have taken the road with them. Last July two 
people drowned on the Standing Rock Indian Reservation in North Dakota 
when culverts failed, and a road collapsed sending vehicles into the 
body of water below. Miraculously, two others were saved. Deaths like 
these due to poor and dangerous road conditions are sadly occurring all 
too frequently on our nation's Indian reservations. At Cheyenne River 
we have dozens of culverts that have either washed out last year due to 
storms or flooding or remain at-risk. Yet, there is no dedicated source 
of funding available to Tribes to repair and upgrade culverts. We urge 
Congress to include funding in the next highway bill for improvements 
to culverts along BIA and Tribal roads.
    During the hearing, Congressman Gary Palmer repeatedly asked the 
tribal witnesses if there were other sources of funding that tribes 
could use to supplement their funding from the TTP. The answer varies 
widely from tribe to tribe and is entirely dependent on the wealth or 
lack thereof of any given tribe. Tribes with income from oil and gas 
might have sufficient resources to supplement the meager allocation 
from DOT and BIA and tribes with resources from casinos, such as the 
Cherokee of Oklahoma and many casino tribes in California, most 
certainly do (although as explained earlier, the Cherokee do not own 
roads nor are their BIA roads, that they are responsible for). Other 
tribes may have revenue sharing with their states on state gas taxes, 
but the tribal share of those funds rarely amounts to enough money to 
undertake much serious road construction. Certainly, most tribes with 
some source of independent revue likely are supplementing their TTP 
dollars to at least some nominal extent but impoverished tribes such as 
the Cheyenne River Sioux, do not have revenue that would allow us to do 
so.
Flexibility in Tribal Access to U.S. Department of Transportation Grant 
                                Programs
    While Congress has certainly been well intentioned when dedicating 
funding to national infrastructure programs like the Better Utilizing 
Investments to Leverage Development (BUILD) Transportation 
Discretionary Grants (formerly known as TIGER Grants) and the 
Nationally Significant Federal Lands and Tribal Projects Program 
(NSFLTP), few tribes have been able to access these programs due to 
onerous matching requirements, restrictions on use of the funding and 
the lack of tribal set-asides. For example, of the 55 BUILD Grants that 
DOT awarded funding for in FY2019 only one was a Tribal project. We 
would urge Congress to make changes to these programs by waiving the 
requirement for Tribes to provide matching funds, allowing design and 
engineering costs to be an eligible use of grant funds and creating a 
Tribal set aside of funding to give Tribes a fair shot at accessing 
funding through these critical infrastructure programs.
    Thank you again for holding this important hearing and for allowing 
us to submit testimony outlining the many needs at Cheyenne River. We 
look forward to working with the Transportation and Infrastructure 
Committee on reauthorization of surface transportation legislation.

                                 <F-dash>
 Statement of the Federal Forest Resource Coalition, Submitted for the 
                  Record by Hon. Eleanor Holmes Norton
    The following testimony is submitted on behalf of the Federal 
Forest Resource Coalition (FFRC) for the record of your February 6th 
hearing on Assessing the Transportation Needs of Tribes, Federal Land 
Management Agencies, and U.S. Territories. The Federal Forest Resource 
Coalition is a unique national coalition of forest products companies, 
loggers, trade associations, local governments, and conservation groups 
who support better management of our Federal lands, particularly the 
National Forests, BLM O&C and Public Domain timberlands.
    Your Committee has rightly identified increased funding for the 
Forest Service through the Federal Lands Transportation Program (FLTP) 
as a high priority for the 2020 highway bill. We strongly endorse this 
approach.
                      Forest Service Roads Funding
    The Forest Service uses timber receipts, discretionary appropriated 
funds, and mandatory spending from the Federal Lands Transportation 
Program to maintain over 380,000 miles of roads on the National Forest 
System. Overall, the Forest Service has a $5.7 billion maintenance 
backlog (Roads, Trails, and Facilities), of this, 70 percent, or $3.99 
Billion, is road maintenance. 22 percent of this road system is usable 
by low-clearance passenger vehicles (cars). This is 83,600 miles. Just 
more than half is open and available for ``high clearance'' vehicles 
(i.e.--off road capable SUV's, etc.).
                            Timber Receipts
    The road system on the National Forest System was essentially built 
using timber receipts. From 1962 until 1988, the National Forest System 
sold well over 10 Billion Board Feet of timber annually, with gross 
timber receipts frequently exceeding $1 Billion annually. 10 percent of 
the gross funds were made available for road construction, maintenance, 
and repair. Beginning in 1990, however, timber sales from the National 
Forests declined precipitously, falling from 8.4 Billion Board Feet in 
1989 to 1.5 Billion Board Feet in 2002.

------------------------------------------------------------------------
                                      Gross Timber    Roads Funding ($m)
       Federal Fiscal Year:          Receipts ($m)
------------------------------------------------------------------------
1980.............................             $1,948             $194.80
1985.............................               $558              $55.80
1990.............................             $1,609             $160.90
1995.............................               $369              $36.90
2000.............................               $187              $18.70
2005.............................               $248              $24.80
2010.............................               $136              $13.60
2015.............................               $200              $20
2019.............................               $186              $18.60
------------------------------------------------------------------------

    Available timber revenue for road work dropped by more than 90 
percent over this 40 year period. With the Forest Service concentrating 
its harvest efforts on lower value, smaller diameter second growth 
timber, timber receipts are not going to consistently produce the 
revenue needed for much of the road work on the National Forest System.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         Discretionary Funding
    The other funding stream available for maintenance and repair of 
the National Forest System roads is discretionary spending. 
Discretionary funding for roads has stagnated since 2010. The Roads 
program was funded at $235 million in FY 2009. By FY 2017, funding had 
dropped to $175 million. In Fiscal Year 2018, the $40 million ``Legacy 
Roads & Trails'' program was folded into the CI&M-Roads line. Adjusting 
for inflation, discretionary funding for road repair, maintenance, and 
reconstruction is down by almost 38 percent since FY 2009 (assuming the 
$40 million for Legacy Roads & Trails still focuses mostly on 
decommissioning and fish passage).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           Mandatory Spending
    The Federal Lands Transportation Program provides annual mandatory 
funding to five Interior agencies and the USDA Forest Service. The 
below table shows the Forest Service only receives about 7 percent of 
these funds, even though its road system is considerably larger than 
the other Federal land management agencies.
    The National Forest System roads, as noted, includes over 83,000 
miles of passenger vehicle accessible roads. This is almost ten times 
as many miles of roads as the National Park Service, which receives 80 
percent of Federal Land Transportation Program funding. Overall, 
according to the National Parks Conservation Association, Roads, 
Bridges, and Parking areas account for 52 percent of the overall Park 
Service Maintenance Backlog; this amounts to $6.24 Billion. The Forest 
Service Roads backlog of $3.99 Billion is 64 percent of this total.

----------------------------------------------------------------------------------------------------------------
                                                      FY2016    FY2017    FY2018    FY2019    FY2020     Total
----------------------------------------------------------------------------------------------------------------
NPS................................................     $268M     $276M     $284M     $292M     $300M    $1.420B
FWS................................................      $30M      $30M      $30M      $30M      $30M      $150M
USFS...............................................      $15M      $16M      $17M      $18M      $19M       $85M
BLM, USACE, BOR, and IFAs..........................      $22M      $23M      $24M      $25M      $26M      $120M
                                                    ------------------------------------------------------------
  Total............................................     $335M     $345M     $355M     $365M     $375M    $1.775B
----------------------------------------------------------------------------------------------------------------

    The FLTP expires at the end of 2020. FFRC and our partners are 
under no illusion that the FS would achieve parity with the Park 
Service in the this program: however, at least a tripling of the 
available funding could begin to address the disparity and meet public 
needs for recreational, firefighting, and resource management access.
 The Need for Better Road Maintenance Far Outstrips Available Resources
    With limited timber receipts and discretionary appropriations, the 
current level of funding through the Federal Lands Transportation 
program is inadequate to the needs on our National Forests. This 
includes the need for better resource protection and management, the 
need for timber access, and the need for wildfire suppression access.
    Frequently, the Forest Service will leave a failing road in place 
when proposing to manage an overstocked forest; FFRC has hosted field 
tours in Oregon where the Forest Service required a company to employ 
helicopter logging rather than repair one culvert which would have 
enabled the sale to be harvested using ground based equipment. That 
means the Forest left a failing culvert in place while treating a fire 
prone stand. The reduced fuel load is certainly good news, however, a 
failing culvert can threaten water quality over the long term. 
Requiring helicopter logging limits the amount a company is willing to 
pay, thus reducing receipts to the government, payments to counties, 
and funds available for resource improvement (Knutsen-Vandenberg funds, 
for instance).
    Deteriorating road access harms sportsmen, hikers, anglers, and 
others who want to access our public lands. Reduced road access 
increases the costs and risks associated with search and rescue 
operations on already-remote and hard to access National Forests. And 
lack of road access stymies firefighting efforts, forcing the Forest 
Service to rely more heavily on expensive aviation resources.
 Increased Funding for the Forest Service through the FLTP is Broadly 
                               Supported
    As you saw in the attached February 4th letter, there is broad 
support from conservation groups, industry, and State governments for 
increased funding for the Forest Service through the FLTP. It is not 
often that groups as diverse as the Nature Conservancy and National 
Wildlife Federation endorse the same priorities as the National 
Cattlemen's Beef Association and the public lands timber industry. We 
urge you to leverage this broad support to meaningfully increase the 
funding available for the Forest Service FLTP.
    Attachment--Letter of February 4, 2020, Referenced in Previous 
                               Paragraph
                                                  February 4, 2020.
Hon. Peter DeFazio,
Chairman,
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves:
    As the Committee works to assemble a highway bill that modernizes 
our transportation infrastructure, the undersigned groups are writing 
to urge you to address a pressing issue that is vital to the millions 
of Americans who benefit from the many uses and products that healthy, 
well managed national forests can provide. A sound road system is 
needed to help prevent damage to vital water provisions and to provide 
recreation, forestry and fire fighting access that are key to rural 
economies and downstream urban citizens.
    The recently released ``Moving Forward Framework'' acknowledges the 
need to ramp up funding for the Federal Lands Transportation Program. 
As the Committee crafts the bill, we urge you to direct a more 
equitable portion of the Federal Land Transportation Assistance Program 
to the extensive National Forest System (NFS) road network. The road 
system managed by the USDA Forest Service has over 370,000 miles of 
roads. The agency estimates its backlog at $3 billion just for the 
approximately 65,000 miles of passenger car accessible roads, which 
only represents under 18 percent of the entire NFS road system.
    Much of the current road system was built and maintained from 
timber receipts, a model that was viable when the Forest Service sold a 
much larger and much more valuable timber program. This timber sale 
program generated more than $50 million a year in funding for road 
construction, maintenance, and repair, and many years produced well 
over $100 million. In more recent years, these funds have usually been 
well below $20 million annually.
    The other funding stream available for maintenance and repair of 
the NFS roads is discretionary appropriations. Discretionary funding 
for roads has stagnated since 2010. The Roads program was funded at 
$235 million in FY 2009. By FY 2017, funding had dropped to $175 
million. In Fiscal Year 2018, the $40 million ``Legacy Roads & Trails'' 
program was folded into the CI&M-Roads line. Adjusting for inflation, 
discretionary funding for road repair, maintenance, and reconstruction 
is down by almost 38 percent since FY 2009.
    As you know, the Federal Lands Transportation Program provides 
annual mandatory funding to five Interior agencies and the USDA Forest 
Service. The Forest Service only receives about seven percent of these 
funds, even though it's road system is considerably larger than the 
other federal land management agencies combined. The NFS roads, as 
noted, includes 65,000 miles of passenger vehicle accessible roads. 
This is almost six times as many miles of roads as the National Park 
Service, which receives 80 percent of Federal Land Transportation 
Program funding. Overall, according to the National Parks Conservation 
Association, roads, bridges, and parking areas account for 52 percent 
of the overall Park Service Maintenance Backlog; this amounts to $6.2 
billion. The Forest Service maintenance backlog is $5.2 billion and the 
roads backlog of $3 billion only for under 18 percent of the NFS roads 
system. The backlog would be significantly bigger if the agency were to 
include the remaining more than 305,000 miles of system roads and 
60,000 miles of unclassified roads.
    The undersigned groups urge you to use the upcoming highway and 
infrastructure legislation to significantly increase the available 
funding for the Forest Service in this program to address the disparity 
and meet public needs for recreational, firefighting, and resource 
management access.
        Sincerely,
                                 Federal Forest Resource Coalition.
                                            The Nature Conservancy.
                                              Public Lands Council.
                       Theodore Roosevelt Conservation Partnership.
                                      Forest Resources Association.
                                      National Wildlife Federation.
                           National Association of State Foresters.
                             National Cattelmen's Beef Association.

                                 <F-dash>
Letter of February 7, 2019, from Emily Douce, Director, Operations and 
 Park Funding, National Parks Conservation Association, Submitted for 
                the Record by Hon. Eleanor Holmes Norton
                                                  February 7, 2019.
    Dear Chairman DeFazio, Ranking Member Graves and members of the 
Committee,
    On behalf of our more than 1.3 million members and supporters 
nationwide, the National Parks Conservation Association (NPCA) 
appreciates the opportunity to provide our views regarding the needs of 
the National Park System as the Committee on Transportation and 
Infrastructure works to address our nation's infrastructure and 
reauthorize the Fixing America's Surface Transportation Act. Since 
1919, NPCA has been the leading voice of the American people in 
protecting and enhancing our National Park System.
    In summary, we make the following recommendations:
    <bullet>  Provide investments to national parks in any 
infrastructure package, particularly to address deferred maintenance 
projects and water infrastructure in and near parks. Investments should 
include funding for both planning and permitting as well as 
construction dollars;
    <bullet>  Increase the Federal Lands Transportation Program funding 
to $920 million per year and dedicate $25 million a year from that 
allocation for transit;
    <bullet>  Increase the Federal Lands Access Program funding to $300 
million per year and consider program modifications for a more 
equitable allocation;
    <bullet>  Increase the Nationally Significant Federal Lands and 
Tribal Projects program funding to $350 million per year, with $200 
million per year designated as mandatory spending;
    <bullet>  Establish a competitive wildlife crossing pilot program 
to reduce the number of wildlife-vehicle collisions and improve 
wildlife habitat connectivity; require relevant agencies to conduct a 
study of methods to reduce collisions; implement new workforce 
trainings; standardize the collection of wildlife collision data 
nationally; and integrate wildlife-vehicle collision reduction;
    <bullet>  Preserve the protections and public involvement provided 
by our nation's environmental laws, including the National 
Environmental Policy Act, Clean Water Act, Clean Air Act, Endangered 
Species Act;
    <bullet>  Prioritize projects that improve energy efficiency and 
climate mitigation and resiliency needs.
                   National Park Service Investments
    For more than a century, our national parks have remained America's 
favorite places, important pieces of our natural, historical and 
cultural heritage set aside for future generations to explore and 
enjoy. But as record crowds enjoy our national parks, they find the 
facilities in the parks have become worn and inadequate to meet the 
demand.
    Fixing our national park infrastructure is a good economic 
investment for our country. National parks are an important part of the 
tourism economy and extremely popular with Americans. National parks 
received more than 331 million visits in 2017 that generated $35 
billion for the U.S. economy. For every dollar Congress invests in the 
National Park Service, $10 is returned to the American economy, with 
much of that money directly benefiting parks' gateway communities. With 
national parks supporting nearly 300,000 private-sector jobs annually, 
these economic engines are worthy of a robust infrastructure investment 
in 2019 and beyond.
       Infrastructure Repair Challenges Facing our National Parks
    The National Park System is second only to the Department of 
Defense in the amount of federal infrastructure it manages. In total, 
the agency is responsible for protecting and managing over 75,000 
assets which include roads and bridges, trails, historic buildings, 
employee housing, wastewater and electrical systems, military 
fortifications, monuments and memorials, and seawalls.
    Needed repairs range from deteriorating water systems to crumbling 
roads and trails to antiquated visitor centers that are in desperate 
need of updating. For instance, nearly 40% of the 10,000 miles of park 
roads are in poor to fair condition.
    The backlog of infrastructure projects at our national parks now 
totals $11.9 billion, a rise of over $300 million since last year (see 
chart below). These projects are not cyclical repairs that parks attend 
to constantly, but the more serious repairs that have been awaiting 
action for more than a year because of inadequate funding. The National 
Park System is a clear example of what happens when nothing or not 
enough is done to maintain infrastructure.
National Park Service Asset Inventory

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Source: https://www.nps.gov/subjects/infrastructure/upload/NPS-Asset-
              Inventory-Summary-FY18-Servicewide_2018.pdf

Examples of Deferred Maintenance in National Parks (from FY17 data):
    <bullet>  Mount Rainier National Park (Washington): Trails in Mount 
Rainier National Park are heavily used by visitors and are in dire need 
of upkeep. Without maintenance funding, the park uses recreation fees 
to complete critical projects and address unexpected needs but is 
unable to tackle the larger projects and complete critical assessments. 
The price tag for trail rehabilitation totals more than $10 million for 
the park.
    <bullet>  Cuyahoga Valley National Park (Ohio): Paved roads and 
bridges comprise about $2 million of the parks deferred maintenance 
such as Brandywine Falls road and bridge.
    <bullet>  Denali National Park Road (Alaska): Among Denali's most 
pressing needs is maintenance on the 92-mile Denali Park Road that is 
the only way to access the heart of the park.
    <bullet>  Mesa Verde National Park (Colorado): Over $6 million is 
needed to rehabilitate historic buildings in the Chapin Mesa National 
Historic Landmark District at Mesa Verde National Park.
    <bullet>  Kalaupapa National Historical Park (Hawaii): Kalaupapa 
National Historical Park tells the story of Hawaiians banished by King 
Kamehameha V to the north shore of Molokai for contracting leprosy. 
Over $7 million is needed to replace historic buildings.
    <bullet>  Yellowstone National Park (Wyoming and Montana): For the 
past three decades the National Park Service has been working to 
upgrade the park's 254-mile Grand Loop and entrance roads from 1940's 
standards that are woefully inadequate for modern day tour busses and 
recreational vehicles. Due to insufficient funding, only half of the 
loop and entrance roads have been reconstructed. To complete upgrading 
of the remainder of the roads in the park will cost anywhere from $800 
million to $1.2 billion because the most challenging stretches of road 
remain to be rebuilt. At the current pace of funding it will take more 
than 75 years to complete the work.
    <bullet>  Yosemite National Park (California): Yosemite National 
Park is home to some of our country's most breathtaking cliffs, domes 
and waterfalls. However, the park suffers from $582 million in needed 
repairs. For example, more than $20 million is needed to rehabilitate 
trails including the Yosemite Bike Path, the Stubblefield Canyon Trail, 
and the Clark Point Spur, a path that leads to the famous Vernal Falls.
    <bullet>  Golden Gate National Recreation Area (California): Golden 
Gate National Recreation Area will require $9.5 million in wastewater 
treatment repairs to remedy all problems. The systems of the Marin 
Headlands and Fort Mason are some of the most expensive projects to be 
undertaken. Current repairs, such as the Muir Woods Water and 
Wastewater Service Rehabilitation project, have been stuck in the 
planning stage due to the lack of funding.
    <bullet>  Appalachian National Scenic Trail (Maine to Georgia): The 
world's longest contiguous footpath is conservatively estimated to have 
a $20 million repair backlog. More than 6,000 volunteers currently 
maintain the 2,200-mile Trail, contributing 250,000 annual hours of 
mostly physical work, saving the U.S. government more $6 million each 
year. Still, funding is needed to support volunteer work, complete 
major deferred projects and cover expenses for materials.

        Request: As Congress sets out to repair and rebuild our 
        nation's declining infrastructure, national park roads, 
        bridges, trails, campgrounds and other facilities need to 
        benefit from that investment. A dedicated investment of $6.5 
        billion to NPS deferred maintenance over five years would 
        address most of the highest priority projects. This includes 
        park roads, visitor facilities, trails and other structures.

        Any strategy that includes the parks needs to focus on 
        addressing long overdue repairs. Funding should include 
        investments for planning and permitting, in addition to 
        guaranteed construction dollars. This will ensure projects with 
        the greatest need can be addressed, both those that are 
        ``shovel-ready'' and those that require multi-year planning and 
        implementation.
                          Water Infrastructure
    NPCA also supports greater investments in water infrastructure in 
and beyond the boundaries of national park sites. Within the boundaries 
the NPS operates assets that provide drinking water to the 331 million 
visitors and treat waste and storm waters, a service critical to 
protecting the waterways upon which park flora and fauna depend. A 
greater investment is needed to protect water quality and manage the 
ever-increasing number of park visitors.
    In addition, the country needs a significant investment in water 
infrastructure beyond the boundaries of National Park Service managed 
sites. The Environmental Protection Agency estimates that waste and 
storm water systems alone need over $271 billion in the next 20 years. 
This is a significant challenge that not only impacts communities 
across the country, but also puts our national parks at risk. Many 
sites downriver and along our coasts are threatened by untreated urban 
and agricultural runoff in addition to untreated human and industrial 
waste, toxic substances, debris, and other pollutants stemming from 
combined sewer overflows. Greater federal support is needed in these 
efforts as paying for these projects often falls on communities that 
cannot afford it.

        Request: As part of an infrastructure investments, we urge the 
        committee to triple the funding for the Clean Water and 
        Drinking Water State Revolving Funds in the US EPA to help 
        address the untreated water from urban and agricultural runoff 
        and human and industrial waste.
     Reauthorizing the Fixing America's Surface Transportation Act
    If the committee decides to focus on the reauthorization of Fixing 
America's Surface Transportation (FAST Act) rather than a broader 
infrastructure package, we request additional resources for national 
parks. The National Park Service received a total of $1.4 billion over 
five years in the Fixing America's Surface Transportation (FAST) Act 
through the Federal Lands Transportation Program (FLTP). In addition, 
national parks are eligible to apply for funding from the National 
Significant Federal Lands and Tribal Project program authorized for 
$100 million to be spent on projects costing at least $25 million.
    The national parks received one half of one percent of the entire 
funding package in the FAST Act, but the need is much more than that. 
In the National Park Service's National Long-Range Transportation Plan, 
the agency estimates the funding needed to address all transportation 
needs throughout the service will need to be $1.5 billion a year over a 
period of 6 to 10 years. This amount includes all activities in the 
transportation asset lifecycle, from planning through construction, 
operation, maintenance and rehabilitation. According to an estimate 
calculated in 2016, annual funding for transportation asset needs 
totals an estimated $394 million, which is $1.1 billion below what is 
needed.
    This funding shortfall is the main contributor to the growth of the 
maintenance backlog, totaling $11.9 billion. A little over a half of 
that amount ($6.3 billion) relates directly to transportation assets. 
That amount includes paved and unpaved roads, tunnels, bridges and 
parking lots. Of that amount, $4.6 billion is categorized as highest 
and high priority transportation-related NPS assets (see chart below). 
Also, nearly a third of overall backlog is for mega projects, such as 
the reconstruction of Yellowstone's Grand Loop road. Mega projects are 
transportation projects that require an amount of funding beyond what 
is available on an annual basis.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Source: Pew Charitable Trusts, Restore Our Parks Campaign, FY17 data

    In addition, our parks continue to face increased vehicle 
congestion that reduces the visitor experience and threatens the 
natural resources. Prior to the FAST Act, there was a specific program, 
Paul S. Sarbanes Transit in Parks Program, that provided funding for 
alternative transportation such as shuttle buses, rail connections and 
bike trails. That program was subsumed into the Federal Lands 
Transportation Program with passage of the FAST Act, but the need is 
still there. For instance, the Zion National Park shuttle buses are 20 
years old and need to be replaced.
    In our recently designated national parks and those in urban areas, 
the NPS-owned assets are fairly small within a larger park boundary. 
Infrastructure may be limited to buildings and parking lots with roads 
owned and maintained by states and city governments. The Federal Lands 
Access Program (FLAP) is a critical funding source that provides 
incentive to state and local entities to improve roads and transit to 
and from national parks.

        Requests: To address the highest and high priority 
        transportation-related NPS funding needs, NPCA requests $4.6 
        billion over 5 years in the Federal Lands Transportation 
        Program to address those needs. In addition, we request $25 
        million a year be set aside specifically out of the FLTP 
        allocation for transit projects. We also request dedicated 
        funding for the Nationally Significant Federal Lands and Tribal 
        Projects program at a level of no less than $350 million a year 
        to address mega projects, with $200 million of that being 
        designated as mandatory spending.

        To address improvements to transportation and transit to and 
        from national parks, NPCA requests $300 million over 5 years in 
        the Federal Lands Access Program to address those needs. In 
        addition, we request that program criteria be modified from its 
        current formula based on road mileage, number of bridges, land 
        area, and visitation.
                         Additional Provisions
National Park Visitor and Wildlife Protections
    We also support Congress addressing the issue of wildlife-vehicle 
collisions. The most recent data from the Federal Highway 
Administration estimates over 1 million wildlife-vehicle collisions and 
26,000 motorist injuries as a result yearly. The associated costs to 
motorists from wildlife-vehicle collisions is $8.3 billion yearly in 
medical and vehicle damage. Efforts must be made to minimize these 
collisions for both human safety and wildlife conservation. Visitors to 
America's national parks many times travel to view iconic park 
wildlife. We want to be sure both park visitors and wildlife are 
protected.

        Request: 1) Establish a competitive wildlife crossing pilot 
        program that provides grants to states, land managers, and 
        communities that work to reduce the number of wildlife-vehicle 
        collisions and improve wildlife habitat connectivity; 2) 
        require relevant agencies to conduct a study of methods to 
        reduce collisions, an updated and expanded report of the 2008 
        Wildlife Vehicle Collision Reduction Study; 3) implement new 
        workforce trainings; 4) standardize the collection of wildlife 
        collision data nationally; 5) and integrate wildlife-vehicle 
        collision reduction into all relevant sections of the 
        legislation where transportation projects could utilize 
        wildlife-vehicle collision mitigation technologies.
                       Additional Considerations
    As Congress works to address infrastructure and reauthorize the 
FAST Act, Congress must preserve the protections and public involvement 
provided by our nation's environmental laws, including the National 
Environmental Policy Act, Clean Water Act, Clean Air Act, Endangered 
Species Act, etc. According to the Council on Environmental Quality 
(CEQ), 95 percent of federal projects that require environmental review 
advance under a Categorical Exclusion (CE), and therefore are exempt 
from the most detailed types of environmental review.
    In addition, a 2016 U.S. Department of the Treasury report 
identified 40 economically significant transportation and water 
projects whose completion had been slowed or put in jeopardy. The 
report found that ``a lack of public funding is by far the most common 
factor hindering the completion of transportation and water 
infrastructure projects.'' Further, the report found that delays 
resulting from environmental review and permitting were acknowledged as 
a challenge to completing less than 25% of the projects.
    The National Park Service should also continue to develop 
innovative, cost-effective and sustainable strategies for constructing 
and managing its assets. NPCA supports prioritization of projects that 
improve energy efficiency and address climate mitigation and resiliency 
needs. Projects should be avoided that undermine existing 
infrastructure, or perpetuate or worsen the threat of fire, erosion, 
flooding, wildlife habitat loss and fragmentation.
                               Conclusion
    For too long, the national parks have been undergoing 
infrastructure decline. If Congress fails to fix the infrastructure in 
our national parks, it will cause the gradual loss of our natural and 
cultural heritage and the ability of the American public to enjoy and 
be inspired by it as preserved in our national parks.
        Thank you for considering our views,
                                               Emily Douce,
                             Director, Operations and Park Funding,
                           National Parks Conservation Association.
                                 <F-dash>
    Statement of Julian Bear Runner, President, Oglala Sioux Tribe, 
         Submitted for the Record by Hon. Eleanor Holmes Norton
                              Introduction
    Thank you Chair Norton, Ranking Member Davis, and Members of the 
Subcommittee for the opportunity to submit written testimony on behalf 
of the Oglala Sioux Tribe (``OST'' or ``Tribe'') for the record on the 
recent hearing entitled ``Assessing the Transportation Needs of Tribes, 
Federal Land Management Agencies, and U.S. Territories.'' My name is 
Julian Bear Runner and I serve as the President of OST. Improving 
tribal transportation infrastructure, transit, highway safety, and road 
conditions on our Reservation is a top priority. We look to you to spur 
necessary congressional action to improve and modernize tribal 
transportation infrastructure on our Reservation and across the nation.
                               Background
    Our Reservation covers approximately 3 million acres (roughly the 
size of the State of Connecticut) and has more than 45,000 enrolled 
citizens. Thus, our Tribe is responsible for a large area over which we 
have authority and control. Our Tribe is one of 16 sovereign nations in 
the Great Plains Region. We are also a part of the Oceti Sakowin (Seven 
Council Fires, known as the Great Sioux Nation). Our treaty rights, the 
United States' obligations to us, and our unique political relationship 
with the United States are set forth in a series of treaties through 
1868, including the Fort Laramie Treaty of 1851 (11 Stat. 749) and the 
1868 Sioux Nation Treaty (15 Stat. 635). These treaties establish the 
United States' obligations to our Tribe.
    Due in part to our remote location, there are few job opportunities 
for our people. The lack of good roads, reliable communications 
systems, and other necessary infrastructure further impedes economic 
development, job creation, and a good quality of life on our 
Reservation. These circumstances also contribute to the many social 
challenges that our people currently face, which include extreme 
poverty, alcohol and substance abuse, inadequate health care, and high 
crime rates.
    Oglala Lakota County, which is located entirely within our 
Reservation, is among the poorest counties in the United States with 
approximately 54% of individuals below the poverty line, per capita 
income around $10,148, unemployment in the 80% range, and a high school 
dropout rate of over 60%. A modernized infrastructure would 
significantly improve these conditions, help revitalize our economy, 
expand opportunities for our people, and improve the quality of life on 
our Reservation.
    The winter storm that hit our Reservation in 2019 illustrates the 
poor condition of our transportation infrastructure. This storm caused 
severe flooding and snowfall that made roads impassable and cut off 
access to food, water, and medicine. Many citizens were displaced from 
their homes by floodwaters, exacerbating the shortage of adequate 
housing that already existed on Pine Ridge before the storm. The 
infrastructure within our Reservation is not in a position to handle 
another severe weather storm. We already struggle each year with snowy 
and muddy conditions. Snow and ice removal can consume up to 65% of our 
annual budget each winter.
    According to the BIA-approved Road Maintenance Survey generated by 
the Oglala Sioux Tribe and the Great Plains Region in the Tribal-
Interior Budget Council, the major work components for roads 
maintenance in the Great Plain, Rocky Mountain, and Northwest Regions 
include snow and ice control, interior pavement sealing, pavement 
maintenance, gravel maintenance, and remedial work on improved earth 
roads. We need to make sure these categories are adequately funded so 
tribes, like ours, can have and enjoy sufficient roads. Significantly, 
nineteen responses to the Survey from the Great Plains Region 
identified snow and ice removal as their top priority. Congress must 
appropriate the necessary funds for this activity.
          Transportation Infrastructure is Desperately Needed
    Transportation infrastructure is critical to connecting families, 
strengthening communities, and furthering economic development on our 
Reservation. OST's Road Maintenance maintains 519 miles of Bureau of 
Indian Affairs (``BIA'') roads and bridges yet receives approximately 
$565,000 in roads maintenance funding. This pales in comparison to the 
roads funding comparison to the roads funding of state and local 
governments.
    According to the 24th Annual Highway Report, the nationwide average 
maintenance disbursement per state controlled mile is $11,929 and the 
average for South Dakota is $3,917 per state controlled mile. 
Maintenance disbursement refers to costs to perform routine upkeep, 
such as filling in potholes and repaving roads. The Tribe, however, 
receives only $1,113 in BIA Road Maintenance funding per BIA roadway 
mile, which includes maintenance for BIA bridges on the National Bridge 
Inventory (``NBI''). $1,113 is a fraction of the weighted average that 
states, including South Dakota, have access to.\1\ The Tribe, thus, 
incurs significant costs in maintaining BIA roadways whose needs far 
exceed available federal funding.
---------------------------------------------------------------------------
    \1\ 24th Annual Highway Report, Baruch Feigenbaum, M. Gregory 
Fields, & Spence Purnell (Aug. 2019), https://reason.org/wp-content/
uploads/24th-annual-highway-report-2019.pdf.
---------------------------------------------------------------------------
 Increase BIA Roads Funding to Connect Tribal Communities to Essential 
                                Services
    Funding for the BIA Road Maintenance program has been under-
resourced for several fiscal year cycles, despite the accumulation of 
over $60 million in backlogged maintenance needs in the Great Plains 
Region and almost $300 million nationwide. We are often forced to 
expend our limited tribal funds to cover the difference in roads 
maintenance needs--a financial strain that is compounded by the fact 
that efforts to control snow and ice our roadways can consume up to 50% 
of our annual budget each winter.
    Funding is so tight that routine bridge maintenance is not 
performed until it reaches a critical state. Consequently, our members 
must confront unsafe road conditions every time they drive their 
children to school, commute to work, or try to access emergency 
services in Pine Ridge and nearby urban centers. This is unacceptable. 
The BIA should receive and distribute adequate funding to tribal 
nations so that we can maintain safe transportation networks in our 
communities.
    Such dire circumstances require bold solutions. One bold solution 
is a drastic increase in the BIA Road Maintenance account so tribal 
nations, such as ours, can receive a funding amount that is actually 
viable to get the much needed maintenance work done adequately. Another 
solution is to create a new BIA roads maintenance account that targets 
backlogged road and bridge projects by taking mile inventory, 
remoteness, and weather conditions into consideration. An influx of 
funding for road construction, maintenance, and equipment would 
increase public safety, facilitate economic development, decrease 
costs, and alleviate the hardships our members currently endure. We 
request Congress provide $60 million for the BIA Road Maintenance 
program and an initial amount of $15 million to establish a targeted 
BIA roads improvement program that accounts for a tribe's geographic 
size, location, and mile inventory.
    Further, to diversify the federal toolbox of programs and funding 
sources targeting roads infrastructure, we urge Congress to re-
establish and fund the Tribal High Priority Project Program within the 
Department of Transportation and create a Tribal Set-Aside from the 
Highway Safety Implementation Program. Both of these programs would 
offer tribes access to critical resources and funding for implementing 
tribal roads projects.
    Last, as for priorities for tackling roads issues in the Great 
Plains Region, please see the attached document entitled, ``Land Based 
Tribes Coalition for Maintaining and Improving BIA and Tribal 
Roadways.'' This is an informative document that lays out seven 
priority solutions for addressing the severe tribal transportation 
needs in the Great Plains. We ask this Committee, and Congress overall, 
to take the necessary steps to implement these priorities.
                               Conclusion
    Thank you for the opportunity to provide written testimony on the 
critical topic of tribal transportation. We have presented only some of 
our infrastructure needs in this testimony. Your work in addressing 
these needs is part of the United States' fulfilling its solemn treaty 
obligations and trust responsibility to the Oglala Sioux Tribe. The 
Subcommittee's recent hearing on this important issue is a positive 
step in that direction. We look forward to working with the Members of 
the Subcommittee to build, improve, and maintain the infrastructure 
that we need on our Reservation. As explained above, infrastructure is 
one of our top priority issues since functioning, well-maintained 
infrastructure will facilitate economic, and community development, 
which we urgently need to improve the lives of our citizens. Please do 
not hesitate to contact me if you have any questions or would like 
additional information to assist you in this work.
                               attachment

   Land Based Tribes Coalition for Maintaining and Improving BIA and 
                            Tribal Roadways

                               Background
    The Indian Reservation Roads Program (IRR) was created as part of 
the Surface Transportation Assistance Act of 1982 and was administered 
by the Bureau of Indian Affairs (BIA) and the Federal Highway 
Administration (FHWA). The TTP program currently provides funding to 
the 567 Federally recognized Tribes and Alaska Native Villages.
    Initially, the main focus of this program was on planning, design, 
and construction of BIA and Tribal roadways on Indian Reservations and 
Indian Lands.
    In 2012, under the Moving Ahead for Progress in the 21st Century 
Act (MAP-21), the program was changed to the Tribal Transportation 
Program (TTP).
                                Problem
    The federal funds that have been made available to support 
maintenance and improvements to BIA and Tribal roadways are not 
sufficient and are currently being diverted to improvements on roadways 
under other agencies' jurisdiction and to address maintenance needs. 
This is resulting in a deterioration of these federal roadways.
    While the funding for the TTP program has increased in recent years 
to the $495,000,000 that is allocated today, the use and distribution 
of these funds has undergone a significant transformation. These funds 
in the past were primarily used to maintain and improve BIA and Tribal 
Roadways. With the transition to the TTP Program, the routes in the 
official BIA National Tribal Transportation Field Inventory eligible 
for funding were opened to allow significant increases of roadways 
under other jurisdictions. This resulted in the inventory ballooning to 
162,000 miles of roadways of which only 31,386 miles are BIA and 27,466 
are Tribal Roads, with the remaining being county, state, and local 
roads. This change along with changes in the Congressionally Mandated 
Formula for how funds are distributed has led to a shift that has seen 
nearly all the increase in TTP funds going to locations with little or 
no BIA or Tribal road mileage, but rather significant county road 
mileage, higher traffic volumes, or higher documented population.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The TTP funds are the main, and in many cases the only funding 
available for BIA and Tribal routes and these changes have resulted in 
a lack of attention to the BIA Roadways that are part of the Federal 
Governments Trust Responsibility.
    In addition to the Tribal Transportation Program not adequately 
funding the BIA and Tribal Roadways, the funding available from the 
Department of Interior that is specifically designated for BIA routes 
has grown minimally to $34,000,000. This has resulted in a huge backlog 
of maintenance needs and forced large land-based tribes with 
significant BIA road miles to transfer larger portions of their TTP 
dollars to cover routine maintenance. This has further reduced their 
ability to fund preservation and improvement projects and led to Tribes 
falling significantly behind states in both overall spending and 
maintenance spending per mile.
    As a result, TTP has had to supplement maintenance needs, meaning 
construction dollars are being spent on maintenance in the following 
amounts:
    <bullet>  FY2016: $34M
    <bullet>  FY2017: $47M
    <bullet>  FY2018: $46M
                               Solutions
Priority #1: Increase TTP/IRR allocation annually.
    <bullet>  FY2021 $520M
    <bullet>  FY2022 $530M
    <bullet>  FY2023 $540M
    <bullet>  FY2024 $550M
    <bullet>  FY2025 $560M
    <bullet>  FY2026 $570M
    <bullet>  FY2027 $580M
Priority #2: Tribal Transportation Program Formula Reform (insert TTP/
        IRR definition and description)
    This consortium of Tribes requests that a minimum of 80 percent of 
TTP/IRR funding be restricted to the construction and improvement of 
BIA and Tribally owned roadways only. The proposed restriction would 
not apply to the remaining 20 percent of distribution amounts, however, 
if these funds are distributed to non-Tribal and non-BIA roads, a 
requirement should be implemented that this must be done via cost 
share.
    In addition to the new restriction on TTP funding expenditure, the 
proposed solution should also include modifying the method in which 
funds are distributed through TTP to include the cost to construct, 
inclusion in NTIFF, and the volume of BIA/Tribal roadway miles.
    Since there are major discrepancies with Census on NAHASDA 
population numbers, these should not be a consideration in allocating 
funds. Recommendation: distribute TTP on the cost to construct for BIA/
Tribal road miles, remove population and vehicle miles traveled numbers 
from the formula.
    Funding available for the Tribal Safety Transportation Program 
Safety Fund should be increased from 2 percent to 5 percent.
Priority #3: Remove obligation limit for TTP/IRR and road maintenance. 
        IRR used to be exempt from the obligation limit. This change 
        would allow a greater share of the TTP allocation be 
        distributed to Tribes.
Priority #4: Reinstate the Tribal Transportation Bridge Program/IRR as 
        a standalone program instead of a 2 percent carve out in the 
        Tribal Transportation Program and increase the amount in the 
        standalone bridge program to be equivalent to 3 percent of the 
        TTP. The standalone program should give priority to BIA/
        Tribally owned bridges.
Priority #5: Modify road maintenance distribution methods
    To modify road maintenance distribution methods, $46 million should 
be authorized for the Bureau of Indian Affairs (BIA) Road Maintenance 
Program, with increases of $2 million per year to address the national 
maintenance backlog, which is currently nearly $400M.
    BIA road maintenance funding should continue to be distributed 
through United States Department of Interior as its own separate line 
item and exempt from the obligation limit.
Priority #6: Modify USDOT discretionary grant programs with a Tribally 
        designated portion of funding
    Programs such as BUILD, INFRA, and Nationally Significant Federal 
Lands and Tribal Projects require significant engineering investment 
prior to grant request and matching funds that make it difficult for 
Tribes to compete. A Tribally designated portion of funds should be set 
aside for planning (i.e. environmental, right-of-way, engineering 
design) and construction, and the requirement of nonfederal investment 
should be excluded for Tribal projects.
Priority #7: Direct BIA law enforcement to use one standard crash 
        report form, specifically TRAMS.
                                 <F-dash>
  Statement of The Pew Charitable Trusts, Submitted for the Record by 
                       Hon. Eleanor Holmes Norton
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee, thank you for holding a hearing on the transportation needs 
facing Tribes, federal land management agencies, and U.S. territories. 
The Pew Charitable Trusts (Pew) asks that this written statement, and 
accompanying documents, be included in the hearing record.
    Pew applies a rigorous, analytical approach to improve public 
policy, inform the public, and invigorate civic life. Pew's Restore 
America's Parks campaign seeks to conserve the natural and cultural 
assets of the National Park System by providing common sense, long-term 
solutions to its multi-billion dollar repair backlog. Our statement 
will focus specifically on the transportation needs of the National 
Park Service (NPS).
                    The National Park Repair Backlog
    The NPS is responsible for more than 75,000 assets, second only to 
the Department of Defense in the number facilities a federal agency 
must maintain. Over half of these assets require repairs, at an 
estimated cost of $11.9 billion (based on FY2018 NPS data). Even if the 
agency were to tackle just those repairs it considers to be of the 
greatest priority, that cost totals $9.1 billion. It is difficult for 
NPS managers to keep up with the repairs, due to several factors:
    Our National Park System is over 100 years old and much of its 
infrastructure--roads, trails, historic structures, water and sewage 
systems, electrical systems, campgrounds, memorials, battlegrounds, 
seawalls--is aging and deteriorating. Over 90% of the estimated cost to 
address the backlog of repairs is attributed to park facilities that 
are 40 years old or more. High visitation numbers at many park sites 
brings additional pressures on aging park assets, and inconsistent 
annual funding for maintenance requires NPS managers to triage the 
repairs it undertakes. As a result, unattended maintenance needs become 
worse and, more extensive repairs are needed and become more expensive, 
and the maintenance backlog compounds.
National Park Service Transportation Assets and Repair Needs
    It is an accurate estimation that America's national parks would 
never have become the popular attractions they are today without 
extensive, reliable transportation to carry visitors to, from, and 
through the parks. From the railroads built in the late 1800s and early 
1900s to serve the first western parks to the early carriage paths and 
roads that followed, transportation infrastructure has been vital to 
visitors' access and enjoyment of our park sites. Today, NPS' 
transportation infrastructure portfolio is significant: 5,500 miles of 
paved roads, 4,100 miles of publicly accessible unpaved roads; 1,442 
bridges; 63 publicly accessible tunnels; and more than 5,000 miles of 
paved trails (https://mylearning.nps.gov/library-resources/park-roads-
parkways-program-handbook/).
    But a significant portion of these transportation assets are 
showing their age. Many park roads were constructed decades ago when 
cars were smaller; as a result, routes often are narrow and lack 
shoulders--an issue for today's larger and heavier cars and 
recreational vehicles. Also, increased visits at many park sites lead 
to overflowing parking lots, forcing visitors to park on roadsides, 
which can be a safety hazard and harm natural resources. Addressing 
inadequate and deteriorating park roads, tunnels, bridges, and trails 
is important to ensure safe visitor access and the continued protection 
of wildlife, natural, and cultural resources.
    Transportation-related repair needs within national park sites 
across the country total $6.2 billion, over half of the FY2018 backlog. 
To address the highest and high priority repairs, an investment of $4.8 
billion is needed (see figure 1).

                                          Figure 1: NPS Highest and High Priority Transportation Needs--FY 2018
--------------------------------------------------------------------------------------------------------------------------------------------------------
                            Priority                                Parking Lot      Road Bridge      Road Tunnel         Roads           Grand Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Highest\\.......................................................    $243,283,487      $540,979,361     $20,349,480     $2,463,777,470     $3,268,389,798
High\\..........................................................    $239,161,463      $196,852,200      $1,979,258     $1,061,178,143     $1,499,171,064
                                                                 ---------------------------------------------------------------------------------------
  Highest + High................................................    $482,444,950      $737,831,562     $22,328,738     $3,524,955,612     $4,767,560,862
--------------------------------------------------------------------------------------------------------------------------------------------------------
\*\ Source: National Park Service.
\**\ Transportation-related assets include all road bridges, all road tunnels, and any roads and parking lots classified by NPS as ``paved'' or ``paved
  & unpaved''. Roads and parking lots classified as ``unpaved'' are not included

    Examples of specific NPS transportation-related infrastructure 
needs include:
    <bullet>  George Washington Memorial Parkway
       A sink hole opened on the aging George Washington Memorial 
Parkway in May 2019 and required several months to fix. The entire 
parkway needs $649 million for transportation-related repairs.
    <bullet>  Yellowstone National Park
       Road repair in Yellowstone National Park represents a 
significant portion of its repair backlog. The Grand Loop Road, the 
main transportation corridor through the park, is over 100 years old 
and the original road didn't have any shoulders. The park needs $369 
million to address all transportation-related deferred maintenance.
    <bullet>  Shenandoah National Park
       Aging rock walls line the historic Skyline Drive in Shenandoah 
National Park. NPS needs $51 million to repair Shenandoah's 
transportation network.
    <bullet>  Great Smoky Mountains National Park
       The Foothills Parkway provides breathtaking views of the Great 
Smoky Mountains. NPS needs $43 million to repair the scenic park 
thoroughfare.
Recommendations for Reauthorization of the Surface Transportation Act
    As the Subcommittee works with the full Transportation and 
Infrastructure Committee and other Committees to craft a proposal to 
reauthorize the Fixing America's Surface Transportation Act (FAST Act), 
we urge that robust funding for national park assets be included.
    The current FAST Act provides $268-$300 million annually, over its 
five-year authorization, for NPS transportation projects that have 
helped ensure visitor access within our national parks and it also 
established the Nationally Significant Federal Lands and Transportation 
Projects (NSFLTP) program. NSFLTP addresses transportation 
``megaprojects''--those projects that go beyond the scope of core 
agency funding--within NPS and other public and Tribal lands (to view a 
list of compliant-ready megaprojects, visit the NPS website: https://
www.nps.gov/subjects/transportation/megaprojects.htm).
    While the FAST Act has helped the Park Service begin to address its 
vast transportation repair needs, unfortunately, the funds simply have 
not been enough. To ensure national park sites across the country 
remain accessible to and safe for visitors, and to prevent the 
degradation of cultural and natural resources, Pew recommends the 
following provisions be included in a Surface Transportation Act 
reauthorization measure approved by Congress:
    1.  Dedicated funding of $4.8 billion for highest and high priority 
transportation-related assets within the National Park System.
    2.  Investment in the NSFLTP program at no less than the Senate 
Environment and Public Works Committee-passed level of $350 million in 
annual funding. Of that amount, the designation of $200 million as 
mandatory spending.

    Thank you for your consideration of these views and for the 
Subcommittee's recognition of the role that infrastructure plays within 
our public lands and national parks. Included with this statement is a 
factsheet on NPS transportation repair needs and several joint letters 
to Congress urging increased investment in park infrastructure.

Contact: Marcia Argust, Director, Restore America's Parks campaign, The 
Pew Charitable Trusts
                        Attachment A--Fact Sheet
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Attachment B--Letter
                     Re-Building our National Parks
                                                     March 5, 2018.
    Dear Member of Congress:
    As engineers, architects, planners, landscape architects, and trade 
and professional associations, we are deeply aware of the need to 
maintain our nation's infrastructure, including the roads, trails, 
historic structures, and visitor centers that make safe, memorable, and 
learning experiences out of travelling to America's national parks.
    Unfortunately, after decades of unreliable funding, the National 
Park Service (NPS) has an infrastructure repair backlog estimated at 
$11.6 billion (FY 2017), half of which consists of roads, bridges, and 
tunnels. Without these amenities, visitors would be hindered in getting 
to special places like Old Faithful in Yellowstone National Park, 
Cadillac Mountain in Acadia National Park, and Little Round Top at 
Gettysburg National Military Park. Deferred maintenance affects almost 
every national park site across the country, and includes crucial 
repairs to aging buildings and historical structures, electrical, 
water, mechanical, and plumbing systems, and other infrastructure that 
is vital to keeping parks accessible and safe for visitors.
    A recent study indicates that investment in NPS' maintenance 
backlog has the potential to create or support over 110,000 quality 
jobs in the infrastructure industry. These jobs could likely benefit 
contractors, manufacturers, and tradespeople located in communities 
adjacent to national parks and in surrounding areas. We urge you to 
provide dedicated annual federal funding to address deferred 
maintenance in national parks and to ensure that NPS receives 
significant resources for deferred maintenance in any potential 
national infrastructure proposal.
    Rebuilding and fixing the National Park System will help to employ 
thousands of American workers, support continued tourism and economic 
development in hundreds of park gateway communities, and ensure that 
our national treasures are preserved for generations to come.
        Sincerely,

National Signatories
Air Conditioning Contractors of America.
American Coatings Association.
American Concrete Institute.
American Concrete Institute Foundation.
American Concrete Pipe Association.
American Concrete Pressure Pipe Association.
American Concrete Pumping Association.
American Council of Engineering Companies.
American Foundry Society.
American Institute of Architects.
American Planning Association.
American Segmental Bridge Institute.
American Shotcrete Association.
American Society of Civil Engineers.
American Society of Landscape Architects.
American Supply Association.
Associated General Contractors of America.
Association of the Wall and Ceiling Industry.
Concrete Foundations Association.
Concrete Reinforcing Steel Institute.
Construction Industry Air Quality Coalition.
Construction Industry Coalition on Water Quality.
Construction Specifications Institute.
Ductile Iron Pipe Research Association.
Engineering Contractors Association.
Independent Electrical Contractors, Inc.
International Brotherhood of Electrical Workers.
Land Improvement Contractors of America.
Mechanical Contractors Association of America.
National Asphalt Pavement Association.
National Association of Minority Contractors.
National Association of Women in Construction.
National Electrical Contractors Association.
National Precast Concrete Association.
National Utility Contractors Association.
Painting and Decorating Contractors of America.
Portland Cement Association.
Precast/Prestressed Concrete Institute.
Professional TrailBuilders Association.
Sheet Metal & Air Conditioning Contractors National Assoc.
Tilt-Up Concrete Association.
United Steelworkers (USW).

State Signatories
Arizona:
American Council of Engineering Companies of Arizona
American Institute of Architects--Arizona Chapter
American Planning Association--Arizona Chapter
American Society of Landscape Architects--Arizona Chapter
Arizona Construction Trades
Associated General Contractors of America--Arizona Chapter
National Electrical Contractors Association--Arizona Chapter
National Electrical Contractors Association--Southern Arizona Chapter

Arkansas:
National Utility Contractors Association--Arkansas Chapter

California:
American Council of Engineering Companies--California Chapter
American Institute of Architects--California Council
California Asphalt Pavement Association
California Construction and Industrial Materials Association
California Forestry Association
California Nevada Cement Association
National Association of Minority Contractors--Southern California 
Chapter
United Contractors--California

Colorado:
American Planning Association--Colorado Chapter
Associated General Contracts--Colorado Chapter

Connecticut:
Utility Contractors Association of Connecticut

Florida:
American Institute of Architects--Florida Chapter
American Planning Association--Florida Chapter
American Society of Landscape Architects--Florida Chapter
Asphalt Contractors Association of Florida, Inc.
Associated Builders & Contractors--Florida Chapter
Florida Engineering Society
Florida Refrigeration and Air Conditioning Contractors Association
Florida Surveying and Mapping Society
Florida Transportation Builders' Association
National Association of Women in Construction--Greater Palm Beach
National Association of Women in Construction--Tampa Chapter #36
Suncoast Utility Contractors Association

Hawaii:
National Utility Contractors Association--Hawaii Chapter

Indiana:
American Institute of Architects Indiana

Kentucky:
American Institute of Architects Kentucky

Louisiana:
American Council of Engineering Companies--Louisiana Chapter
American Institute of Architects--Louisiana Chapter
American Institute of Architects--New Orleans Chapter
Associated Builders and Contractors--Bayou/New Orleans Chapter
Concrete and Aggregates Association of Louisiana
Louisiana Associated General Contractors

Maine:
Associated General Contractors--Maine Chapter
Boston Society of Landscape Architects--Maine Section

Massachusetts:
Boston Society of Landscape Architects

Michigan:
American Institute of Architects--Michigan Chapter
Laborers' Local Union 1191

Minnesota:
American Institute of Architects Minnesota
Associated General Contractors--Minnesota Chapter
Minnesota Asphalt Pavement Association
Minnesota Transportation Alliance

Montana:
American Council of Engineering Companies--Montana Chapter
Montana Building Industry Association
Montana Contractors' Association
Structural Engineers Association of Montana

New Mexico:
American Institute of Architects New Mexico

New York:
American Institute of Architects--Brooklyn Chapter
American Institute of Architects New York
General Contractors Association of New York
International Brotherhood of Electrical Workers Local 325
Laborers' Local 1010
National Association of Minority Contractors--Tri-State Chapter
National Electrical Contractors Association--Finger Lakes Chapter
National Electrical Contractors Association--Hudson Valley Chapter
National Electrical Contractors Association--Long Island Chapter

North Dakota:
Associated General Contractors of North Dakota

Ohio:
American Council of Engineering Companies--Ohio Chapter
American Institute of Architects--Ohio Chapter
American Planning Association--Ohio Chapter
Associated Builders and Contractors of Northern Ohio
Ohio Cast Metals Association

Oklahoma:
American Institute of Architects--Oklahoma Chapter

Oregon:
American Council of Engineering Companies of Oregon
American Institute of Architects--Portland Chapter
American Planning Association--Oregon Chapter
Asphalt Pavement Association of Oregon
Cement Masons Local 555--Oregon, SW Washington, and Southern Idaho
International Union of Elevator Constructors Local 23
International Union of Operating Engineers Local 701
International Union of Painters & Allied Trades District Council 5
Ironworkers Local 29
Laborers International Union of North America Local 737
Oregon Contractors Association
Oregon and Southern Idaho District Council of Laborers
Pacific Northwest Regional Council of Carpenters
Sheet Metal, Air, Rail, and Transportation Local 16
Teamsters Council Local 37
United Union of Roofers, Waterproofers, and Allied Trades Local 49

Pennsylvania:
American Institute of Architects--Pennsylvania Chapter
National Electrical Contractors Association--Pennsylvania, Delaware, 
New Jersey Chapter
National Electrical Contractors Association--Western Pennsylvania 
Chapter

South Carolina:
American Institute of Architects South Carolina

South Dakota:
American Institute of Architects South Dakota
Associated General Contractors--South Dakota Chapter

Tennessee:
American Institute of Architects--Tennessee Chapter
American Planning Association--Tennessee Chapter
American Society of Landscape Architects--Tennessee Chapter
Associated Builders and Contractors--Tennessee Chapter
Associated General Contractors--Tennessee Chapter
Tennessee Recreation and Parks Association
Tennessee Road Builders Association
Tennessee Solar Energy Industries Association

Texas:
American Planning Association--Texas Chapter
American Society of Landscape Architects--Texas Chapter
Associated General Contractors: Highway, Heavy, Utilities & Industrial 
Branch--Texas Chapter
Associated General Contractors: Building Branch--Texas Chapter
Associated Plumbing-Heating-Cooling Contractors of Texas
Central Texas Subcontractor Association
Independent Electrical Contractors of Texas
Mechanical Contractors Association--Texas Chapter

Virginia:
National Association of Women in Construction--Richmond Chapter
National Electrical Contractors Association--Atlantic Coast Chapter
National Utility Contractors Association--Virginia Chapter

Washington:
American Council of Engineering Companies--Washington Chapter
American Institute of Architects--Seattle Chapter
American Institute of Architects Washington
Cement Masons and Plasterers Local 528
Central Washington Building Trades Council
International Brotherhood of Boilermakers Local 104
International Union of Operating Engineers Local 286
Laborers International Union of North America Local 238 (Spokane)
Laborers International Union of North America Local 1239 (Seattle)
National Electrical Contractors Association--Puget Sound Chapter
Operative Plasterers and Cement Masons International Association Local 
72
Pierce County Building Trades Council
SMART Union Transportation Division/United Transportation Union
Washington Asphalt Pavement Association
Washington Building Trades
Washington & Northern Idaho District Council of Laborers

West Virginia:
American Institute of Architects--West Virginia Chapter

Wisconsin:
American Institute of Architects--Wisconsin Chapter
Heat & Frost Insulators Local 127
International Brotherhood of Electrical Workers 494
International Brotherhood of Electrical Workers Local 498
International Union of Operating Engineers Local 139
International Union of Painters & Allied Trades, District Council 82
Laborers' Local 113
Milwaukee Building & Construction Trades Council, AFL-CIO
NorthEast Wisconsin Building & Construction Trades Council
Sheet Metal Workers (SMART) Local 18
Teamsters Joint Council 39
The United Association Union of Plumbers, Fitters, Welders, & Service 
Techs Local 111
Wisconsin Counties Association
Wisconsin Laborers District Council
Wisconsin State AFL-CIO

Wyoming:
Wyoming AFL-CIO
Wyoming Federation of Union Sportsmen
                                 <F-dash>
 Letter of February 24, 2020, from Joe Mello, President, Professional 
 Engineers in California Government, Submitted for the Record by Hon. 
                         Eleanor Holmes Norton
                                                 February 24, 2020.
Hon. Eleanor Holmes Norton,
Chairwoman,
Subcommittee on Highways and Transit, U.S. House of Representatives, 
        Washington, DC.
Hon. Rodney Davis,
Ranking Member,
Subcommittee on Highways and Transit, U.S. House of Representatives, 
        Washington, DC.
    Dear Chairwoman Norton and Ranking Member Davis:
    On behalf of the Professional Engineers in California Government 
(PECG), we are pleased to submit this statement for the record of the 
Subcommittee on Highway and Transit's February 6, 2020 hearing on 
``Assessing the Transportation Needs of Tribes, Federal Land Management 
Agencies, and U.S. Territories.''
    PECG represents 13,000 state-employed engineers and related 
professionals responsible for designing and inspecting California's 
highways and bridges, ensuring that schools and hospitals are safe 
during earthquakes, and protecting our air, water and beaches. We are 
dedicated to ensuring that taxpayers receive safe, high quality 
transportation and other infrastructure services at the best possible 
price.
    PECG fully supports the committee's efforts to advance legislation 
addressing the significant underinvestment in the Nation's surface 
transportation infrastructure, including the major backlog of deferred 
maintenance and capital investment needs of tribal and Federal lands 
and territories. While addressing the infrastructure deficit must be a 
top priority for surface transportation authorization, it is just as 
critical to ensure that federal infrastructure dollars are invested in 
safe and cost-effective projects that serve the public interest.
    To that end, we strongly support the inclusion of policies to 
require public employees to perform the construction inspection on all 
federally-funded surface transportation projects. Public sector 
inspectors ensure that construction standards are met, that projects 
meet safety requirements and that the materials used will stand the 
test of time. Inclusion of this common sense provision will end the 
troubling practice of private contractors overseeing the work of other 
private contractors.
    During the Subcommittee's hearing, Sergio Pecori from Hanson 
Professional Services, testified in opposition to including provisions 
in surface transportation reauthorization legislation that restricts 
the ability of public agencies to contract with private sector firms. 
PECG does not oppose the appropriate use of outside engineering 
consultants where an agency identifies a unique lack of capacity with 
in-house staffing and after the agency undertakes and makes publicly 
available a comprehensive cost comparison analysis. We do, however, 
have serious concerns about the use of outside consultants when there 
is not a defined need and there is no comprehensive analysis undertaken 
demonstrating that contracting these services out is the most cost 
effective means of carrying out these activities while delivering 
maximum public benefits.
    Construction inspection is one area where it is critical to 
maintain appropriate public sector oversight. As we saw with the tragic 
March 2018 collapse of the pedestrian bridge under construction at 
Florida International University (FIU), which killed one construction 
worker and five motorists, the need for independent public sector 
construction inspectors on federally-funded projects is critical to 
ensuring public safety is the primary focus of this critical oversight.
    The Occupational Safety and Health Administration's (OSHA) report 
on the collapse found that the magnitude of the cracks warranted the 
immediate closure of the roadway running under the bridge and required 
steps be taken to shore up the concrete truss with additional supports 
until further evaluations and remedial measures could be taken. Yet the 
private sector engineering and construction firms involved in the 
design, construction and inspection of this project ``failed to 
recognize the bridge was in danger of collapsing when it inspected it 
hours before the collapse.'' OSHA specifically called out the private 
consulting firm responsible for carrying out construction inspection on 
the project for failing ``to exercise its own independent professional 
judgement . . . regardless of the opinion'' held by the private 
engineering and construction company who was the engineer of record on 
the project.
    Similarly, the National Transportation Safety Board (NTSB) report 
on the bridge collapse found that the construction engineering and 
inspection firm hired by FIU to provide construction oversight of this 
project documented serious concrete cracks in the main span beyond any 
level of acceptability, yet the private construction inspection firm 
did not utilize its authority to ``direct or authorize partial or 
complete road closures as necessary.'' The NTSB also stated that the 
private firms involved in the design, construction and inspection of 
this bridge `` . . . absolved themselves of responsibility by 
rationalizing that if the EOR [engineer of record--Figg Bridge 
Engineers] says it's OK, it must be OK, and if anything bad happens--
it's on him. That is not the intent of peer review or safety oversight, 
and certainly fails the system of checks and balances in place to 
prevent catastrophes like these.''
    Based on these findings, the lack of any public sector engineers in 
decision making related to the construction inspection of this bridge 
meant that protecting the public interest and public safety was not the 
primary focus of that oversight. The lack of strong public sector 
inspection and oversight on the construction of the FIU bridge 
contributed to the conditions that led to this tragic collapse and the 
failure to ensure a safe construction work zone.
    In addition to ensuring the best use of public resources and 
placing the primary focus on delivering public safety, requiring public 
inspection also provides an effective way to stretch available Federal-
aid highway funds. In recent years, studies in Tennessee, California, 
Utah, Louisiana, and Ohio have found that outsourcing these engineering 
and design services such as inspection can cost two to three times as 
much as using in-house staff. Looking to find ways to bring some or all 
of these activities back in-house can increase the amount of resources 
dedicated to building transportation projects.
    An example of this occurred when the Tennessee DOT decided to hire 
state employees to do the vast majority of construction inspection work 
in that state instead of using consultants. The Department made this 
decision after it found that expenditures for consultants went from $71 
million in 2007 to $127 million in 2012 while delivering relatively the 
same volume of construction projects. By increasing the Department's 
staff, the agency achieved a net savings after employee expenses of $43 
million per year. According to former Tennessee Commissioner of 
Transportation John Schroer, every dollar of the $43 million in annual 
savings went back into projects. Similarly, the Ohio State Auditor 
recently found that the Ohio Department of Transportation (ODOT) could 
save upwards of $21 million per year if they utilized in-house staff 
for construction inspection services. We recognize that every state is 
unique and manages its programs differently, but at a time when policy-
makers are seeking solutions to address a projected shortfall in the 
Highway Trust Fund and to increase infrastructure investment, decisions 
to insource construction inspection activities would be an effective 
way of stretching available revenues and ensure the safe construction 
of infrastructure projects.
    Finally, in his testimony Mr. Pecori raised the need for the 
Subcommittee to include language in its reauthorization proposal 
encouraging the use of lump sum or fixed price contracting by federal, 
state and local agencies on federally-funded projects. The need for 
this provision is not clear to us, since--as Mr. Pecori states in his 
testimony--firm fixed price payment is currently an authorized Federal 
Highway Administration procurement method.
    Based on use of this contracting method by other Federal agencies, 
such as the Army Corp of Engineers, lump sum contracting is only 
appropriate under very specific conditions--projects with limited risk 
factors, minimal technical and administrative complexity, and a low 
likelihood of changes in scope. Use of this contracting method requires 
an appropriate level of project and contract oversight and cost 
controls. It seems that the decision to use of this procurement method 
should remain with state DOTs and be based on the size and type of 
contract, as well as the duration and degree of risk involved in the 
work to be carried out under the contract. We would encourage the 
committee to exclude any language encouraging the use of a specific 
procurement method.
    Thank you for the opportunity to submit this statement for the 
record of this hearing. We appreciate your consideration of policies 
that recognize the important role that public employees play in the 
planning, design, and construction of the nation's surface 
transportation network. We look forward to working with the 
Subcommittee as it develops a surface transportation reauthorization 
bill.
        Sincerely,
                                   Joe Mello,
                                           PECG President.



                                Appendix

                              ----------                              


 Questions from Hon. Peter A. DeFazio to Hon. Nelson Petty Jr., P.E., 
        Commissioner, Virgin Islands Department of Public Works

    Question 1. Your testimony notes that highway funding to the Virgin 
Islands has barely increased over the past 20 years. Specifically, the 
2015 FAST Act allocated $16.8 million annually to the Virgin Islands, 
which is barely more than the $14.5 million annually allocated to the 
Virgin Islands through TEA-21 over two decades ago.
    Commissioner Petty, given the diminishing purchasing power of the 
dollar and increasingly frequent natural disasters, how has this small 
amount of funding impacted your ability to build 21st-century 
infrastructure?
    Answer. The lack of adequate funding over the years has definitely 
impacted the USVI's ability to build and maintain our infrastructure. 
The remoteness of the islands also plays a role in the diminishing 
power of the dollar, more so than other jurisdictions. For example, the 
cost of asphalt, the primary road building material, costs anywhere 
from $85 to $150/ton nationwide--while in the USVI the average price is 
around $400/ton. We have recently received bids as high as $600/ton!
    As I stated in my verbal testimony, we have been forced to utilize 
other funding mechanisms to be able to build our larger more impactful 
projects. We recently utilized GARVEE bonds to construct much needed 
reconstruction and project expansion of infrastructure that has been 
neglected for more than 30 years. However, using GARVEE funds has 
handicapped our ability to maintain the rest of our infrastructure, 
because our current GARVEE debt service payments account for 
approximately half of our $16 million allocation.
    Often, projects are delayed until adequate funding is accumulated 
over several years of allocation; further lending to our inability to 
adequately manage our assets.
    So in essence, the lack of funding over the last 20 plus years, has 
led to deferred maintenance and a situation where we are so far behind, 
that at the current rate of funding, we would never be able to build 
21st century infrastructure.

    Question 2. What level of funding do you recommend Congress 
consider for the U.S. Territorial Highway program?
    Answer. For the USVI to regain control of infrastructure, it is 
recommended that the territory receive a minimum of $35-$40 million per 
year over the next 10 years. That is why we agree with Congresswoman 
Stacey Plaskett's request to increase the annual Territorial Highway 
Program funding to one-fifth of one percent of the total annual Federal 
Aid Highway Program appropriation. Applying this formula under the FAST 
Act for FY 2020, it would amount to $37.85 million for the USVI. If the 
total Federal Aid Highway Program appropriation is further increased 
according to Chairman DeFazio's Moving America Forward framework, the 
formula would amount to over $50 million annually for the USVI. This 
amount will allow us to transform the infrastructure to a level that 
will enable us to stand up a preventative maintenance program during 
the rebuild. A properly ran preventative maintenance program will 
reduce the need for high levels of funding, as well as allow funding to 
be utilized for new expansion and other innovative transportation 
initiatives, rather than cyclically replacing or reconstructing the 
same infrastructure.

    Question 3. Are there additional changes you recommend to the 
program to support territories' transportation needs going forward?
    Answer. As the territories are essentially islands, separate 
funding for ferry boats and other maritime services would be 
appropriate. Americans in the USVI live and work on several islands 
(mainly St. Croix, St. Thomas, and St. John) that cannot be connected 
by bridges. The primary choice for inter-island transportation is by 
air, which is relatively expensive, on a limited schedule, and subject 
to strict weight limits. Ferry service is currently limited to mostly 
between St. Thomas and St. John, without service to/from St. Croix, the 
largest island by size and population. Two routes have been in the 
process of being developed: a route that in the past served St. Thomas 
and St. Croix, and a new route in downtown Charlotte Amalie.
    Although the Virgin Islands received Federal Highway Administration 
ferry program funding in the past, it has been locked out of such 
funding since the 2015 enactment of section 1112(c)(2) of the FAST Act. 
This prohibits federal participation in the construction or purchase, 
for private ownership of a ferry boat, ferry terminal facility, or 
other eligible project. 23 U.S.C. Sec. 129(c)(3). While the government 
of the U.S. Virgin Islands owns the ferry terminals, it cannot afford 
to own or operate the ferries. As a result, the ferries themselves are 
privately owned and operated.
    Amending the law to exempt the Territorial Highway Program island 
areas from the restrictions on private ownership and operation would 
make the USVI ferry systems once again eligible for Federal Highway 
Administration ferry program funding; and thereby allow for a 
reasonably-priced ferry system, thus growing the economy.

 Questions from Hon. Peter A. DeFazio to Christopher B. French, Deputy 
Chief, National Forest System, U.S. Forest Service, U.S. Department of 
                              Agriculture

    Question 1. Deputy Chief French, as noted in your testimony the 
U.S. Forest Service has a maintenance backlog of $5.2 billion with $3.6 
billion attributed to transportation-related maintenance. The Forest 
Service received a total of $85 million out of the Federal Lands 
Transportation Program over the life of the FAST Act. States and 
counties have additionally undertaken projects benefiting Forest 
Service roads with Federal Lands Access Program funds.
    How much do you currently spend, from all sources of funding, on 
USFS transportation assets annually, including maintenance?
    Answer. Currently we have two sources of funding that we can 
directly manage: the Federal Highway Administration (FHWA) Federal 
Lands Transportation Program (FLTP) which authorizes approximately $19 
million annually to the Forest Service; and the Forest Service 
Construction & Maintenance-Roads Program that allocates approximately 
$222 million annually to operations and maintenance of roads and 
bridges. Funding from timber receipts, Emergency Relief for Federally 
Owned Roads, Collaborative Forest Landscape Restoration Program, and 
other internal and external partners varies from year to year.

    Question 2. How does this compare to your needs?
    Answer. Beyond the $222 million received annually from the 
Construction & Maintenance-Roads Program for operations and regular 
maintenance of the Forest Service transportation infrastructure, the 
Forest Service has an estimated unmet annual need of $445 million, for 
ten years, for maintenance, rehabilitation and major reconstruction of 
deteriorated transportation assets.

    Question 3. How much did you receive, on average, on an annual 
basis under the Forest Highway Program prior to program consolidations 
in MAP-21? Were roads on Forest Service land eligible for funding under 
this program?
    Answer. About $19 million per year was allocated to Forest Service 
administered Forest Highways between 2005 and 2012 from the Surface 
Transportation Authorization (SAFETEA-LU). Prior to MAP-21, FHWA, the 
Forest Service, and state Departments of Transportation jointly 
designated roads as Forest Highways eligible for Forest Highway Program 
funding. These roads may have been administered by states, counties, or 
the Forest Service. On average, about ten percent of Forest Service 
roads open to passenger cars were designated as Forest Highways.

     Questions from Hon. Eleanor Holmes Norton to Aron Reif, P.E., 
  Transportation Program Manager, Office of Acquisition and Property 
              Management, U.S. Department of the Interior

    Question 1. Mr. Reif, your testimony highlights that the Department 
of Interior has $17.3 billion in deferred maintenance and repair needs, 
approximately one half of which is related to transportation assets.
    What portion of this deferred maintenance and repair needs is 
attributed to National Park Service assets, both total backlog and the 
portion attributed to transportation assets?
    Answer. Interior reported approximately $17.3 billion in total 
deferred maintenance at the end of FY 2019, including more than $8.5 
billion in transportation-related deferred maintenance. The National 
Park Service (NPS) has both the largest share of total deferred 
maintenance, approximately 75%, and the largest share of 
transportation-related costs, approximately 90%, among DOI bureaus.

    Question 2. Your testimony also notes that NPS has identified over 
$2.6 billion in future transportation ``mega projects.''
    Can you confirm that this $2.6 billion in future needs is in 
addition to the figure you just provided for the backlog?
    Answer. The $2.6 billion figure identified for transportation 
``mega projects'' is not entirely in addition to the Deferred 
Maintenance backlog number but does eliminate the DM for the specific 
project. This is because ``mega projects'' are large and complex 
transportation projects that address deferred maintenance through the 
recapitalization of roads and bridges that are at the end of their 
service lives. Cost effective design and construction calls for 
modernization of a facility during recapitalization to address today's 
safety requirements, functional needs and construction standards. 
Deferred maintenance estimates do not address these investment items.

    Question 3. Mr. Reif, the National Park System includes important 
tourist destinations, but it also manages critical assets that affect 
local transportation, such as the Arlington Memorial Bridge in my 
district. According to the Pew Charitable Trusts, the District of 
Columbia has over $500 million in deferred maintenance for 
transportation projects.
    How does NPS prioritize investments among equally compelling 
transportation needs, and geographically across the nation, when you 
have such a tremendous deficit?
    Answer. To prioritize annual funding allocations, the NPS uses 
several layered strategies to maximize investment decisions, stretch 
limited funding, and reach performance-based goals on condition of 
roads and bridges. Generally, this includes:
    <bullet>  Focusing the majority of available Federal Lands 
Transportation Program funding on projects that address existing paved 
roads and bridges. Bridges are given priority to ensure the safety of 
the traveling public from a catastrophic bridge failure. Additionally, 
Alternative Transportation Program, which includes all the other modes 
of transport throughout the park, are provided a set aside of $15 
million annually;
    <bullet>  Reviewing projects for strict eligibility criteria 
established by Title 23 and NPS policy which focus funding towards 
improving the existing NPS transportation systems, discourage ancillary 
improvements, and allows only limited capital improvements, such as 
road realignments. Funding is focused on the mainline park roads and 
parkways--which carry the majority of the visitors--and towards 
activities such as resurfacing, repairing, and rehabilitating roads and 
bridges; and
    <bullet>  Taking individual parks and Regional priorities into 
account when projects are prioritized during the NPS Service-wide 
Comprehensive Call.

    In addition, under applicable statutory authority, NPS is required 
to develop a long-range transportation plan and establish management 
systems for pavement, bridges, congestion and safety to influence 
project selection and priorities.
    Finally, resources under jurisdiction of the NPS are to be 
protected and impacts on resources and park operations are to be 
minimized. These dual mandates require creativity, sensitivity to both 
missions, and an innovative balanced approach.

 Questions from Hon. Jared Huffman to Aron Reif, P.E., Transportation 
 Program Manager, Office of Acquisition and Property Management, U.S. 
                       Department of the Interior

    Question 4. What level of funding would the Federal Land Management 
Agencies require to complete new transportation projects that the 
agencies have identified to increase access and safety?
    a.  Could you please identify any of those proposed projects in 
California, with a highlight on projects in California's 2nd district.
    Answer (4. & 4.a.). The Department has identified annual 
transportation-related needs of approximately $1.1 billion per year to 
improve and maintain its transportation infrastructure in good 
condition, increase access to our Federal lands, improve safety on our 
facilities, meet modernization needs, and develop a multi-modal 
transportation system that can accommodate future needs and welcome all 
Americans.
    More than $553 million in total project costs have been identified 
within the State of California. Example projects that focus on 
improving access or safety include:
    <bullet>  Construction of Multi-Modal Transportation Connections in 
San Pablo Bay, National Wildlife Refuge, including the construction of 
acceleration and deceleration lanes on Highway 37 at a refuge entry 
point and improvements to the construction materials of trails to allow 
for bicycle use;
    <bullet>  Rehabilitation of the Entry Road and North & Central 
Parking Areas, Stinson Beach, Golden Gate National Recreation Area to 
reduce sensitive resource impacts, create a turnaround for transit 
buses, and replace deteriorated curb and sidewalks to meet current ADA 
requirements;
    <bullet>  Rehabilitation of Glacier Point Road, Yosemite National 
Park, including improvements to formalized pullouts and removal of 
informal pullouts in areas with insufficient sight distances, and the 
addition of curve widening on short radius curves to better accommodate 
shuttles and other large vehicles;
    <bullet>  Rehabilitation of Big Oak Flat Road, Yosemite National 
Park, including improvements for safety and repairs to poor condition 
road sections due to subgrade failures and settlement, which will 
significantly improve the condition of only paved access to the town of 
Foresta.

    Question 5. What are the individual figures for the maintenance 
backlog at each of the agencies within Interior?
    Answer. Interior manages an infrastructure asset portfolio valued 
at more than $300 billion, ranging from large dams and canals in the 
West to iconic national landmarks. As discussed at this hearing, at the 
end of FY 2019 the Department reported $17.3 billion in deferred 
maintenance and repair needs, across its bureaus including the National 
Park Service, the Bureau of Land Management, the US Fish and Wildlife 
Service, the Bureau of Indian Affairs and the Bureau of Indian 
Education.

    Question 6. Does the Department of the Interior have any proposals 
for legislative changes to the FLTP, FLAP, or other DOT programs that 
are authorized to provide transportation opportunities for the Federal 
Land Management Agencies?
    Answer. The Administration does not have any legislative proposals 
related specifically to the FLTP, FLAP or to other DOT programs to 
share at this time.
    For the second year, the Administration has proposed with the 
budget a Public Land Infrastructure Fund (Fund), which would provide up 
to $6.5 billion over 5 years to address the infrastructure backlog 
needs at the NPS, BLM, FWS, BIE, and at the USDA Forest Service. The 
President has called on Congress to enact this important legislation. 
Moneys from the Fund would not replace the Federal Lands Transportation 
Program and the Tribal Transportation Program, both key funding sources 
for major capital investments on Interior and tribal transportation 
facilities. Instead, this would be an additional Fund, working in 
tandem with existing programs, to help tackle the large balance of 
transportation-related deferred maintenance, recapitalization, and 
repair needs.
    The Department looks forward to working with Congress on the Public 
Lands Infrastructure Fund, and on specific proposals for the surface 
transportation reauthorization as that legislation moves forward.

   Questions from Hon. Peter A. DeFazio to Hon. Joe A. Garcia, Head 
                    Councilman, Ohkay Owingeh Pueblo

    Question 1. Head Councilman Garcia, your testimony calls for 
significantly increasing Federal investment for public transportation 
on Indian reservations.
    How important is public transportation to tribal nations?
    Answer. Public transportation systems are critical to American 
Indians and Alaska Natives. The majority of the nation's Indian 
reservations and Alaska Native villages are located in rural, remote 
areas, which are predominantly low-income and which have limited access 
to healthcare and other essential services. With inadequate 
transportation infrastructure, public transportation plays an important 
role to help Tribal citizens and non-Indian residents who live on 
Indian reservations and Alaska Native villages, and who need reliable, 
all-year access to get to health services (e.g., medical appointments, 
dialysis, physical therapy, substance abuse and other treatment 
programs), job centers (on and off-reservation), social service 
programs, and governmental offices.
    Access to health services is very important to Tribal citizens. 
According to the U.S. Commission on Civil Rights' 2018 report, American 
Indians and Alaska Natives receive health services from 46 hospitals, 
344 health centers, 105 health stations, and 150 Alaska village clinics 
which are operated directly by the Indian Health Service (IHS), or by 
Tribes and tribal organizations under authority of the Indian Self-
Determination and Education Assistance Act (ISDEAA), Pub. L. 93-638, 25 
U.S.C. Sec.  5301 et seq., supplemented by 34 Urban Indian 
Organizations that provide health services to the American Indians and 
Alaska Natives living in urban areas. See U.S. Commission on Civil 
Rights, Briefing Report, Broken Promises: Continuing Federal Funding 
Shortfall for Native Americans, December 2018, Ch. 2: Health Care, pp. 
64-65, https://www.usccr.gov/pubs/2018/12-20-Broken-Promises.pdf. The 
report noted that between 2005 and 2014, every racial group--except 
Native Americans--experienced a decline in infant mortality, and that 
depression, substance abuse, and suicide are all too common among 
Native youth. Yet despite the great need for increased health services 
and programs, poor levels of access to quality health care exacerbate 
the situation in Indian country.
    Congress appropriates nearly $1 billion for purchased/referred 
care, which are funds appropriated by Congress for the Indian Health 
Service (IHS) and Tribes/Tribal organizations carrying out health 
programs under the ISDEAA, to cover the costs for out-patient health 
services that are not otherwise available to a Tribal patient at their 
primary IHS- or Tribally-operated health facility. The Tribal patient, 
however, must often arrange their own transportation to get to an off-
reservation health provider or facility for such referred care 
services. Such non-IHS/non-Tribal facilities are often located in 
larger urban areas which are a significant distance from the 
reservation or village clinic. Without public transportation, or funds 
to cover ambulance service costs for the more seriously ill, many 
American Indian and Alaska Native patients must arrange their own 
transportation or, in some cases, simply don't follow up and miss these 
out-of-town referred care appointments.
    According to the Federal Transit Administration (FTA), in general 
and across the country: ``Lack of transportation access can create a 
barrier for treatment and screening, with an estimated 3.6 million 
Americans missing or delaying non-emergency medical care each year 
because of transportation issues.'' See https://www.transit.dot.gov/
ccam/about/initiatives. The lack of public transportation is especially 
true in Indian country.
    Public transportation in Indian country also ties Tribal 
communities together, by allowing reservation populations in 
neighboring districts to visit friends and relatives, attend Tribal 
cultural events, elder and youth events, and other social gatherings.
    Public transportation is also a safety measure. By using buses and 
other public transit systems, Tribes are providing a safe means of 
travel for reservation residents. Public transit removes pedestrians 
who may otherwise hitchhike or walk on the side of roads that often do 
not have sidewalks, lighting, or broad shoulders to allow for safe 
pedestrian travel.
    Finally, public transportation promotes economic development. 
Having a mobile workforce which can easily get from residential areas 
to places of employment ensures that employers can count on their 
employees to show up for work and perform their duties each day. 
Affordable and reliable public transit is a key factor to attract 
businesses in Indian country and spur economic growth.

    Question 2. What are the Tribes' existing public transportation 
funding needs, and how does that figure compare to the funding Tribes 
have received?
    Answer. It is a challenge to quantify public transportation needs 
that are largely not being met on most reservations and Alaska Native 
villages throughout the United States. What is clear, however, is that 
Indian tribes are woefully underfunded when it comes to public 
transportation needs.
    In my written testimony, I noted that the total land mass under 
Tribal jurisdiction is about 100 million acres, which if a State would 
make ``Indian country'' the fourth-largest State geographically in the 
United States. I also noted that according to the 2010 U.S. Decennial 
Census, 5.2 million people identified as American Indian/Alaska Native 
(AI/AN) alone, or in combination with another race, which would make 
``Indian country'' the 22nd most populous State (about the size of 
South Carolina or Minnesota).
    Yet despite these numbers, together with 29,400 miles of BIA System 
roads and over 900 bridges, 13,650 miles of Tribally-owned public roads 
(most of which are dirt and gravel), over 110,000 miles of State, 
county, township, city, and borough routes that are located on or 
provide access to reservations and Alaska Native villages (i.e., all 
constituting a ``Tribal transportation facility'' as defined in 23 
U.S.C. Sec.  101(a)(31)), and some of the worst motor vehicle fatality 
and pedestrian fatality rates in the Nation for any race, Congress 
authorizes and appropriates a combined total of $35 million annually 
for public transportation programs and services for a small fraction of 
the Nation's 575 Federally-recognized tribes (FY 2016-FY 2020).
    Under the FAST Act, the $35 million is comprised of $30 million 
annually for the Federal Transit Administration (FTA) formula-based 
``Public Transportation on Indian Reservation Program'' (Sec.  
5311(c)(1)(B)), which provides recurring funding to tribes in 29 
States, and $5 million annually for FTA's competitive Tribal Transit 
Grant Program (Sec.  5311(c)(1)(A)). Indian country receives a fraction 
of the federal public transportation funding Congress appropriates each 
year to serve Tribal communities in rural, remote areas of the country, 
whose public transit systems buses must travel on poor and failing 
roads. These conditions increase operating, maintenance, and fuel 
costs. The $35 million for Indian country public transportation needs 
compares to the FAST Act's $11.417 billion in FY 2019 for all public 
transportation programs for the 50 States, the District of Columbia, 
and U.S. territories.
    If Congress were to compare the FY 2019 non-urbanized area formula 
allocation of $716.4 million, available to the 50 States, the District 
of Columbia, and U.S. territories (Sec. Sec.  5311 +5340 programs), 
versus the Tribal Transit Program allocation of $35 million (formula 
and discretionary transit grant (Sec.  5311(c)(1)), the States, the 
District of Columbia, and U.S. territories receive more than twenty 
(20) times the annual allocation Tribes receive for public 
transportation needs. With so little Federal funding, Tribes are 
falling further and further behind in meeting public transportation 
needs of their citizens and other residents.
    Based on U.S. Census Bureau population estimates as of July 1, 
2019, the six least populous States are Wyoming (578,759), Vermont 
(623,989), Alaska (731,545), North Dakota (762,062), South Dakota 
(884,659), and Delaware (973,764). Combined, these five states have an 
estimated 2019 population of 4.5 million, still below the 2010 U.S. 
Census population for Indian country's 5.2 million AI/AN citizens. In 
FY 2019, however, these six States received over $96.5 million in 
Federal appropriations in FY 2019 from FTA for the following six FAST 
Act programs: 1) Nonurbanized area formula grants (Sec.  5311 and Sec.  
5340) ($36.29 million); 2) Urbanized area formula grants (Sec.  5307 
and Sec.  5340) ($52.99 million); 3) Metropolitan Planning grants 
(Sec.  5303) ($2.74 million); 4) Statewide Planning grants (Sec.  5304) 
($717,000); 5) Enhanced Mobility for Older Adults and People with 
Disabilities grants (Sec.  5310) ($3.18 million); and 6) RTAP awards 
(Sec.  5311(b)(3)) ($638,338). The six States receive near three times 
the allocation provided to the Nation's 575 federally-recognized Tribes 
for public transportation needs for a comparable service population. 
The $96.5 million in FTA funding excludes the FTA's State of Good 
Repair Program ($2.8 billion); the Bus and Bus Facilities Formula ($610 
million); and the State Safety Oversight Program ($24.1 million), which 
States also share.
    In July 2019, the Intertribal Transportation Association (ITA) 
transmitted to the Senate Indian Affairs Committee and the House 
Transportation and Infrastructure Committee its proposed highway 
measure, the ``Tribal Transportation Infrastructure and Tribal Transit 
Investment Act of 2020,'' to begin the dialogue with Congress over 
Tribal infrastructure, transit, and highway safety needs. In its 
proposal, ITA proposed a number of provisions--essentially asking 
Congress to double authorizations for FTA's formula-based Tribal 
Transit Program (to $75 million by FY 2025) and increase the 
discretionary Tribal Transit Grant Program to $30 million in FY 2021 
with $5 million stepped increases each year thereafter to reach $50 
million by FY 2025. I enclose a copy of the ITA proposed legislation.
    First, ITA recommended increasing the current authorization for 
FTA's formula-based 5311(c)(1)(B) program from $30 million in FY 2020 
to $55 million in FY 2021, with stepped increases of $5 million for 
Fiscal Years 2022-2025, so that by FY 2025 the formula-based program is 
funded at $75 million. See Sec. 101(b)(2) of the ITA proposed measure.
    Second, ITA recommended that FTA's discretionary Tribal Transit 
Grant Program (Sec.  5311(c)(1)(A)) be increased from $5 million 
annually in FY 2020 to $30 million in FY 2021, with stepped increases 
of $5 million each year thereafter, so that the program has an 
authorized level of $50 million by FY 2025. See Sec. 101(b)(1) of the 
ITA proposed measure.
    Third, in anticipation of Congress considering a more robust 
reauthorization to the FAST Act, ITA proposed an additional 
authorization to the formula-based 5311(c)(1)(B) to accelerate Tribal 
transit system development, and a similar authorization for the 
discretionary Tribal Transit Grant program, asking Congress to double 
the initial appropriation for Tribal transit program needs in the next 
reauthorization to increase public transit systems in Indian country. 
See Sec. 102(a)(6) of the ITA proposed measure.
    Finally, to ensure that no Tribe now receiving Tribal Transit 
Program formula funds receives less funds for transit needs than they 
received from a discretionary Tribal Transit Program grant awarded by 
FTA between FY 2006 and FY 2012 (SAFETEA-LU's Tribal Transit 
Competitive grant program), ITA proposed that FTA use the initial 
increase in funding for FTA's discretionary Tribal Transit grant 
program (5311(c)(1)(A)) to bring every Tribe up to at least the highest 
discretionary Tribal Transit Program grant that the Tribe received 
between FY 2006 and FY 2012. The cost to do so was estimated at between 
$10-$12 million. Thus, if Congress were to authorize $30 million for 
FTA's discretionary Tribal Transit Grant Program in reauthorization, 
the majority of those funds would remain available to FTA for the award 
of discretionary Tribal Transit grants. See Sec. 103 of the ITA 
proposed measure.

     Questions from Hon. Greg Stanton to Hon. Joe A. Garcia, Head 
                    Councilman, Ohkay Owingeh Pueblo

    Question 3. Your testimony outlines several policy proposals for 
FAST Act reauthorization which would improve transportation on tribal 
lands, including lowering minimum cost thresholds and increasing the 
Federal share for grant programs.
    What challenges do Tribes face that other local governments, such 
as States, counties, and cities, may not in raising matching funds for 
Federal grants?
    Answer. Tribes face considerable challenges when competing with 
States, counties, cities and other public authorities for discretionary 
federal grants to improve transportation infrastructure. This is 
especially true when Tribes must put up a local match (e.g., 10% or 20% 
of the total construction cost) to secure the federal grant. Unlike 
States and counties, which have a tax base and can more readily issue 
bonds to finance governmental services, Tribes face many obstacles. For 
most Tribes that do not have debt rated by a recognized credit rating 
organization, it is very difficult, if not impossible, to obtain 
funding for a transportation project in the public markets for 
infrastructure projects, whether to finance the entire project cost or 
to meet a local match requirement. Even bank or other conventional 
sources are difficult to access unless the Tribe is able to pledge 
collateral to secure a loan from unrelated sources since roads and 
other infrastructure projects in Indian Country seldom produce revenues 
that can provide security for debt incurred to develop and construct 
them.
    Tribes with gaming or natural resource enterprises that may provide 
a source of collateral often have prior liens on those assets and 
revenues. Tribes without such potential sources of collateral generally 
have no alternate source of revenue or income to offer as security to 
finance infrastructure projects that require local matching funds from 
non-federal sources. Therefore, guaranties, or other forms of credit 
support and enhancement, or federal programs that eliminate the local 
match requirement imposed on Tribes, are desperately needed to support 
transportation and other infrastructure projects in Indian country.
    Tribes also face challenges of rurality. Construction costs for 
projects for Tribes located in rural, remote areas of the country are 
costlier. Contractor mobilization costs can be higher to move 
personnel, heavy construction equipment, and supplies to remote 
reservations. Tribal construction projects with a higher construction 
cost require a larger local match, which may be beyond the ability of a 
Tribe to finance with available discretionary resources or by financial 
arrangements with banks or other lending institutions.

    Question 4. Are minimum cost thresholds for Federal grants 
preventing otherwise worthy tribal transportation projects from being 
completed?
    Answer. Yes. Tribes are under-represented as grant recipients from 
the larger federal grant programs of the Department of Transportation, 
such as the TIGER, BUILD, INFRA grants, and the Nationally Significant 
Federal Lands and Tribal Projects Program, due in part to high 
construction cost eligibility requirements. If a Tribe must also 
finance the local match from non-Federal sources, the Tribe may lack 
sufficient funds to cover the local match. Tribes also face challenges 
to cover the expense of preparing a cost-benefit analysis to accompany 
the grant application for certain Federal awards.
    Tribes also face hurdles to compete successfully for Federal grants 
with a high local match requirement because Tribes are using available 
discretionary funds to often replace outdated heavy construction 
equipment (motor graders, backhoe loaders, excavators, trucks, etc.), 
or are using discretionary funds for non-transportation priorities 
altogether, such as healthcare, scholarships, housing, or law 
enforcement services. Too often, Tribes bid out construction work that 
Tribes might otherwise perform at less cost using their own Tribal 
workforce due to the fact that Tribal heavy construction equipment is 
inoperable due to age and lack of spare parts. Lowering Federal dollar 
thresholds, or eliminating them altogether, will allow more Tribes to 
compete successfully for Federal transportation grants.
    While Tribes may well rank high for Federal grants based on traffic 
fatalities, safety hazards, population, or need for the project in the 
community, available data demonstrates that too few Tribes are grant 
recipients of Federal awards when the applicant pool is open to all 
public authorities and there is not a set-aside specific to Tribes and 
Tribal organizations, or statutory authority for the Secretary of 
Transportation to waive the local match requirement under certain 
circumstances.
    Tribes strongly endorse legislation such as S. 2302, which propose 
to amend the Nationally Significant Federal Lands and Tribal Projects 
Program to reduce the project eligibility threshold to $12.5 million 
(from $25 million), split Federal appropriations 50/50 between Federal 
land management agencies and Tribes, and increase the Federal share of 
eligible Tribal projects to 100%. See S. 2302, Sec.  1129. The 
Committee should consider an even lower dollar threshold for Tribes for 
this and other Department of Transportation grant programs.
    Many Tribes throughout the country have transportation construction 
projects below a $12.5 million threshold, and more in the $2 million-
$10 million cost range. Some Tribes finance such projects through pay-
go or through loans and loan guarantees where Tribes can pledge their 
future Tribal Transportation Program (TTP) allocations to repay a loan 
principal and interest costs for eligible projects listed on an FHWA-
approved Tribal Transportation Improvement Program (TTIP).
    Tribes that cannot compete for these higher threshold Federal grant 
programs must delay or forego important transportation projects. This 
has a negative effect on Tribes, their citizens and residents. 
Completing projects in today's dollars is cost-effective. In addition, 
completed projects immediately improve transportation mobility and 
highway safety, and promote economic development opportunities for 
Tribes that may not otherwise be realized for many years.

  Question from Hon. Peter A. DeFazio to Mary Beth Clark, President, 
                 Intertribal Transportation Association

    Question 1. Ms. Clark, your testimony calls for making Tribes 
direct recipients for all U.S. DOT competitive and discretionary 
grants, rather than sub-recipients of States or other entities.
    Can you elaborate on which DOT grants you're referring to 
specifically?
    Answer. Although an Indian Tribe is defined under Federal law as a 
``public authority''--a Federal, State, county, town, or township, 
Indian tribe, municipal or other local government or instrumentality 
with authority to finance, build, operate, or maintain toll or toll-
free facilities (23 U.S.C. Sec.  101(a)(21))--Indian Tribes are not 
listed consistently in Federal statutes and Notices of Funding 
Opportunity (NOFOs) as direct recipients/applicants for the 
discretionary and competitive grant programs of the U.S. Department of 
Transportation. In such instances, Tribes must become a sub-recipient 
of a State or other eligible grantee which often raises the 
transactional cost to the Tribe by requiring a separate contract or 
agreement with the State or other grantee, or by requiring extensive 
negotiations to reach mutually agreeable terms and conditions for the 
Tribe to accept the subgrant award. As a condition for the grant, for 
example, States may ask a Tribe to waive sovereign immunity from suite, 
consent to State court jurisdiction or State procurement laws and 
regulations which may vary from Tribal procurement laws. In some cases, 
Tribes decline to accept a subgrant of a Federal award.
    Below, I list a number of current USDOT transportation programs 
that do make Tribes direct grantees, but require Tribes to be sub-
recipients of other eligible grantees, such as States and counties. I 
recommend that the Committee correct this in the next reauthorization 
bill.
FHWA
    1.  In the FY 2019 BUILD grant NOFO (FHWA), Tribes were not listed 
as eligible direct recipients. Tribes should always be listed as direct 
recipients of the BUILD grant program, and other recurring Federal 
grant programs that award funds for transportation infrastructure, 
transit, and highway safety projects.
Federal Motor Carrier Safety Administration
    2.  High Priority Program, 49 U.S.C. 31102(1), providing federal 
financial assistance to augment commercial motor vehicle safety 
activities and innovative technology deployment. Tribes must be sub-
recipient to an eligible applicant.
    3.  CMV Operator Discretionary Grant Program, 49 U.S.C. 31103, 
provides grants to expand the number of CDL holders who have enhanced 
operator safety training and to assist current or former U.S. Armed 
Forces personnel and their spouses receive training to transition to 
the CMV operation industry. Tribes must be sub-recipients to an 
eligible applicant.
    4.  Commercial Driver's License Program Improvement Discretionary 
Grant, 49 U.S.C. 41313, provides financial assistance to States to 
achieve compliance with federal regulations (49 CFR Parts 383 and 384) 
and to other entities capable of performing national projects that help 
States with compliance efforts to improve the national CDL program. 
Tribes must be sub-recipients.
    5.  Outreach and Education Discretionary Grant Program, 49 U.S.C. 
31110(c)(1), provides grants to conduct outreach and education programs 
to raise the awareness of issues related to CMV safety, household goods 
issues, and human trafficking. Tribes must be sub-recipients.
    6.  Research and Technology Discretionary Grant Program, 49 U.S.C. 
31108(a)(6)(C), provides grants for research, development, technology, 
and technology transfer activities regarding CMV related accidents and 
improving CMV safety through technological improvement. Tribes must be 
sub-recipients.
Federal Railroad Administration
    7.  Despite the numerous railroad crossings on Indian reservations, 
ITA cannot identify any federal grant program of the Federal Railroad 
Administration (FRA) for which Tribes are eligible recipients--
including enhanced signage, lighting, or safety measures outside the 
railway right-of-way to give motorists advance warning that they are 
approaching a railroad crossing.
FTA
    8.  FTA's Rural Areas Formula Program, 49 U.S.C. 5311, which 
provides capital, planning, and operating assistance to States to 
support transportation in rural areas with populations of less than 
50,000, Tribes may only receive funding through the State.
    9.  Metropolitan Planning Program, 49 U.S.C. 5305(d), provides 
funds for multimodal transportation planning in metropolitan areas and 
States to facilitate long-range plans and short-range programs of 
transportation investment priorities. Tribes may only receive funds as 
a sub-recipient.
    10.  Statewide Planning Program, 49 U.S.C. 5305(e), provides funds 
for multimodal transportation planning in metropolitan areas and States 
to promote long-range plans and short-range programs of transportation 
investment priorities. Tribes may only receive funds as a sub-
recipient.
    11.  Pilot Program for Innovative Coordinated Access and Mobility, 
FAST Act, sec. 3006(b), provides a pilot program for innovative 
coordinated access and mobility--available to 5310 recipients to assist 
in financing innovative projects for the transportation disadvantaged. 
Tribes may only receive funds as a sub-recipient.

   Questions from Hon. Gary J. Palmer to Mary Beth Clark, President, 
                 Intertribal Transportation Association

    Question 2. What percentage of your overall transportation funding 
comes from FAST Act programs?
    Answer. I can only answer that as the Transportation Manager for 
the Nez Perce Tribe of Idaho. The Tribe's estimated annual 
transportation funding needs--comprising planning, engineering, 
surveys, right-of-way acquisition, environmental compliance under NEPA 
and other Federal laws, construction, transit, road maintenance, and 
administrative (personnel salaries, audit, and related operating 
overhead costs) are approximately $2,935,355. Of this amount, the FAST 
Act, through the Tribal Transportation Program (TTP), 23 U.S.C. 202(b), 
and the Federal Transit Administration (FTA) ``Public Transportation on 
Indian Reservation'' Program, funds $1,258,653 of the Tribe's estimated 
annual cost. Thus, the FAST Act covers approximately 43% of the Tribe's 
annual estimated transportation needs.

    Question 3. What sources of revenue, other than Fast Act programs, 
do you rely upon to meet transportation infrastructure goals?
    Answer. The Nez Perce Tribes assumes the duties of the Secretary of 
the Interior, Bureau of Indian Affairs (BIA), for the BIA's Road 
Maintenance Program (Interior, Environment and Related Agencies 
appropriations) under an Indian Self-Determination and Education 
Assistance Act (ISDEAA), Pub. L. 93-638, contract/compact. In FY 2020, 
Congress appropriated approximately $36 million for the BIA Road 
Maintenance Program which is shared by all recipient Tribes and the 
BIA, for direct service tribes, to provide routine and emergency 
maintenance of BIA System public roads, bridges, airports, and ferry 
systems through the country. The Nez Perce Tribe's share of BIA Road 
Maintenance Program funds, together with administrative overhead 
Contract Support Costs, under our Pub. L. 93-638 contract/compact is 
$45,000 annually.
    Under an agreement with the State of Idaho, the Tribe receives 
approximately $1,662,000 in State motor fuels taxes the Tribe collects 
for on-reservation sales of gasoline and diesel sold to American 
Indians/Alaska Natives. However, these funds are appropriated to 
various programs that mirror's state use-of-funds. The Nez Perce Tribe 
Transit program receives approximately 8% of this fuel tax revenue.
    In addition, the Nez Perce Tribe applies for available Federal and 
State grants to supplement Tribal and existing Federal formula 
allocations to carry out transportation programs and projects for the 
benefit of the Tribe. Such as the Idaho State Transit 5311 funding; the 
Nez Perce Tribe received $82,488 (FY 19) which is 8% of Tribal Transit 
operating cost.

    Question 4. Are there additional revenue sources the tribes could 
use to supplement FAST Act funds for infrastructure?
    Answer. Like State and county governments, Indian tribes may have 
additional revenue sources to supplement FAST Act funds for 
infrastructure needs, but the decision to expend such alternative 
sources of revenue for transportation infrastructure needs, versus 
using such funds on other Tribal governmental programs and services, 
are decisions left to the local government. Use of discretionary 
revenues to any government for transportation projects vary from year 
to year and should not be relied upon as recurring revenue sources to 
supplement underfunded federal transportation infrastructure programs.

    Question 5. Do the tribes receive a portion of the royalties for 
energy production on tribal land?
    Answer. The Nez Perce Tribe does not have energy production 
projects on its lands. The royalties paid by energy developers to 
Tribes varies by Tribe and should be posed to energy producing Tribes. 
As noted above, however, the use of discretionary revenues by a Tribe 
to supplement FAST Act funds for infrastructure projects, is a decision 
local Tribal governments make, like States and counties, amid competing 
demands for such funds. To date, Congress has not implemented means-
tests for State or Tribal allocations of FAST Act funds based on energy 
production within their borders.

    Question 6. Are there any restrictions or barriers to accessing oil 
and natural gas or minerals on tribal lands?
    Answer. The Nez Perce Tribe does not have energy production 
projects on its lands. The question is best put to Tribes with active 
oil, natural gas, and mineral operations to answer.

                                    
</pre></body></html>
